<html>
<title> - BUS SAFETY</title>
<body><pre>[Senate Hearing 110-1219]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 110-1219

                               BUS SAFETY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE

80-274 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas, 
    Virginia                             Ranking
JOHN F. KERRY, Massachusetts         TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        JOHN McCAIN, Arizona
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     GORDON H. SMITH, Oregon, Ranking
    Chairman                         JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas
    Virginia                         OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JIM DeMINT, South Carolina
BYRON L. DORGAN, North Dakota        DAVID VITTER, Louisiana
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
CLAIRE McCASKILL, Missouri
AMY KLOBUCHAR, Minnesota


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2008...............................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Lautenberg..................................     1

                               Witnesses

Betts, John, Motorcoach Safety Now...............................    66
    Prepared statement...........................................    68
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Forman, Stephen, West Brook Bus Crash Families, Beaumont, Texas..    61
    Prepared statement...........................................    64
Gillan, Jacqueline S., Vice President, Advocates for Highway and 
  Auto Safety....................................................    40
    Prepared statement...........................................    41
Hill, Hon. John, Administrator, Federal Motor Carrier Safety 
  Administration.................................................     6
    Prepared statement...........................................     7
Kelly, David, Acting Administrator, National Highway Traffic 
  Safety Administration..........................................    24
    Prepared statement...........................................    25
Pantuso, Peter J., President and CEO, American Bus Association...    34
    Prepared statement...........................................    35
Rosenker, Hon. Mark V., Acting Chairman, National Transportation 
  Safety Board...................................................    12
    Prepared statement...........................................    13

                                Appendix

Letter, dated February 18, 2008, from Peter T. Dishart, 
  President, Enhanced Protective Glass Automotive Association 
  (EPGAA), to the Hon. Kay Bailey Hutchison......................    80
Letter, dated September 15, 2008, from Yen-Chi Le, Ph.D., to 
  Chairman Inouye of the Senate Commerce, Science, and 
  Transportation Committee.......................................    81
Letter, dated September 18, 2008 from Barry A. Mesley to the 
  Senate Subcommittee on Surface Transportation and Marine 
  Infrastructure, Safety, and Security and the Committee on 
  Commerce, Science, and Transportation..........................    83
Letter, dated September 18, 2008 from Lynn Mesley to the Senate 
  Subcommittee on Surface Transportation and Marine 
  Infrastructure, Safety, and Security and the Committee on 
  Commerce, Science, and Transportation..........................    82
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Jacqueline S. Gillan.........................................    84
    Hon. John Hill...............................................    83
United Motorcoach Association, prepared statement................    79

 
                               BUS SAFETY

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2008

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. The hearing will come to order, and I 
welcome everyone here to today's discussion on the safety of 
our nation's buses and the passengers who ride in them. This is 
a hearing of the Surface Transportation, Merchant Marine 
Infrastructure, Safety, and Security Subcommittee.
    Our goal is to examine the current laws and safety 
practices that govern motorcoaches, known as the ``over-the-
road'' buses, and how we can improve them.
    Buses play a critical role in our nation's transportation 
network. They connect cities and communities that are often 
without access to trains or commercial airlines. They take 
school sports teams to games, tourist groups sightseeing all 
over our Nation and help evacuate populations being threatened 
by hurricanes or other natural disasters. And we saw just this 
last week during Hurricane Ike when buses were shuttling 
evacuees to safety.
    In 2006, 631 million passenger trips were taken on a fleet 
of almost 40,000 motorcoaches in the United States. More of 
these vehicles are operated out of my state of New Jersey than 
in any other state in the country. So it is very important for 
us, as it is to me and everyone on this Subcommittee, that 
these buses are safe.
    Unfortunately, there have been some serious crashes. Over 
the last decade, an average of 16 motorcoach passengers and 
drivers have been killed in crashes each year. And just last 
month in New Jersey, two tour buses collided, sending one down 
a 50-foot ravine. Fortunately, nobody was killed, but many were 
injured.
    And I know that we are joined today by many of the victims 
and their families of the West Brook High School and Bluffton 
University bus crashes. So I thank you for being here. Your 
work will help prevent a tragedy like the ones that you have 
experienced from happening again.
    And like these victims and their families, my concern is 
that we are not doing enough to regulate bus companies and 
protect riders from injury or even death. We have a picture 
here that is really shocking. This is evidence that more safety 
oversight is needed. This is a picture received by my office of 
a bus wheel. The bus belongs to a curbside operator right here 
in Washington, and the photo was taken as the bus pulled up to 
start loading passengers. Now, this is a hanger here, in case 
you cannot see it, and that is what is used to hold this brake 
pad together here. Now, these companies, you know, do not use 
bus depots, but they pick passengers up and drop them off at 
the curb. And this was spotted by a police officer, and that is 
how this picture was taken. But is that not a disgraceful 
thing, put together with a coat hanger? It is unbelievable.
    One safety expert who saw the picture commented that this 
is typical for curbside operators who have very little 
oversight. The reason that we need better laws and oversight is 
the carelessness with human life that this picture 
demonstrates.
    Two months ago, Congress passed the Over-the-Road 
Transportation Accessibility Act, which was an important step 
to put in place common sense regulation for approving new bus 
operators. Now, thanks to that bill, the Federal Motor Carrier 
Safety Administration now requires that bus companies meet 
disability access laws as intended by the Americans with 
Disabilities Act. So I am pleased that this subcommittee acted 
to make sure that that bill became law.
    But there is still work to do to make buses safer for their 
travelers and drivers, as well as for passengers of other 
vehicles on the road. Buses still lack many critical safety 
features that can save lives. Most school buses lack seat 
belts, for instance, and there are no standards for roof 
strength, which is critical when a bus rolls over. And unfit 
and fatigued drivers continue to be able to get behind the 
wheel.
    So we should be making safety improvements to the vehicles 
themselves, as well as completing work in the comprehensive 
medical oversight program to prevent unfit drivers from 
operating commercial vehicles, as required by the SAFETEA-LU 
legislation.
    Many of the improvements that we need to make buses safer 
are similar to those that we also need in big trucks. For 
instance, we know that fatigue is a problem for both bus and 
truck drivers alike, and requiring electronic on-board 
recorders can make sure that both are ready to be on the road. 
The vehicle may look different, but many of the safety problems 
and inadequate oversight are the same.
    And as we look to reauthorize the Federal surface 
transportation programs during the next Congress, we need to 
thoroughly revamp both our bus and truck safety programs.
    Now, Senators Brown and Hutchison have introduced 
legislation to begin that process, and as the families and 
victims who are here with us today know all too well, we must 
act to improve the safety of our buses and the men, women, and 
children who ride them.
    So I look forward to hearing from today's witnesses as we 
continue that effort.
    Now I would like to turn to Senator Hutchison for any 
statement that she would like to make, and then we will call on 
Senator Brown.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much, Mr. Chairman. 
I appreciate our having this hearing because it is this hearing 
that will allow us to mark up a bill that will send this bill 
to the floor, and I look forward to having your input and those 
of other members of our Committee in order to do that.
    Let me just say that we do have here many of the families 
and victims of bus accidents who have taken their time to come 
and try to assure that other families will not have to go 
through what they have had to. And Senator Brown and I just had 
a press conference outside in front of a bus to show some of 
the things that can be done, and we are so appreciative of the 
families who came to testify. And I am very pleased that we are 
going to have some of the experts here also testify about what 
our bill would do and what other things need to be done for bus 
safety.
    The fact of the matter is, we have had just in August in 
this country major bus accidents that caused fatalities in 
Texas, Nevada, Mississippi, and New Jersey. The Texas one has 
representatives here, and I would like to ask the group from 
Houston who have family members and victims from the bus 
accident in Sherman to please stand.
    They were out at the press conference. So I am sure that 
they will be coming in.
    And then we have from West Brook High School in Beaumont 
victims and families of the accident that was held to the 
soccer team there. Yes, thank you very much.
    And I know that Senator Brown has constituents here from 
the bus accident with the Bluffton baseball team. And if they 
would stand. Yes, thank you.
    This just shows, I think, Mr. Chairman, how deeply these 
families feel that they are continuing to try to do something 
that will allow this to become a safer country for bus 
passengers.
    Let me just say a couple of things about the bill that 
Senator Brown and I have introduced. It has two points.
    One is we have technology now that can prevent the accident 
itself. The stabilization control technology has now been 
developed. Mr. Hill, who will testify later, told me about how 
that technology has improved. Collision avoidance systems are 
also available now that can keep an accident from happening. 
And we can upgrade our standards for certification and for 
tracing when a bus company is decertified and then goes in 
under another name and keeps the same unfit buses. We can do 
more in the area of requirements for inspections. All of these 
things would help in the prevention of the crash itself.
    But accidents will happen. So the other part of our bill 
will deal with survivability of an accident, and that means 
seat belts on buses. This is something that we believe will 
make a big difference and something that is very easy to be 
done in buses because we know it has been done in other 
countries.
    In addition to that, we can put glazing on the windows that 
will keep people from being ejected, which is a major cause of 
fatality and injury.
    And looking at the way that we can reinforce roofs because 
many of these buses have glass tops so that you can look out, 
but we could also reinforce those, again, with new technology. 
And we want to have the ability to study how we can better 
reinforce those roofs.
    So we have two parts of our bill: prevention and 
survivability. And that is what we want to move forward, Mr. 
Chairman. We thank you for having this hearing so that we will 
be able to move forward. I hope it will be this year. If it not 
this year, we are looking forward to at least early next year 
having this bill come out with Committee input to be able to do 
something for the future travelers in our states and throughout 
our country. And I think that all of us know that we can do it.
    Thank you very much.
    Senator Lautenberg. Congratulations to you and to Senator 
Brown. I join with you in terms of the concerns and want to get 
things done.
    We now call on Senator Brown. Pleased to have you here with 
us.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. I really appreciate 
it, and Senator Hutchison, thank you for being here certainly 
and for your terrific work in moving this forward.
    I would like to thank all the witnesses who are joining us 
today, especially John Betts. John and Joy lost their son 
David, a member of Ohio's Bluffton University baseball team, in 
March 2007. They were on a trip to Florida for a baseball 
tournament when the bus lost control on a poorly marked exit 
ramp just outside Atlanta and toppled from an overpass. Five 
players died. The bus driver and his wife died, and several 
players were pretty badly injured in that accident.
    Since that day, Joy and John, joined by Barry and Lynn 
Mesley, also here today, who lost their son also from the 
Bluffton baseball team, have been courageous and vocal 
advocates for motorcoach safety. And it takes special people 
who are willing to work through their grief and fight for sort 
of the next group of people so they do not have to have the 
grief that so many people behind me have had to endure in the 
last several years.
    The final report from the Bluffton motorcoach accident 
released this spring echoes the recommendations that NTSB has 
been publishing for years and aligns itself with the safety 
improvements incorporated in the legislation that Senator 
Hutchison and I have been working on for some time. 
Specifically, NTSB underscored some major safety shortfalls 
from that accident that must be addressed such as better 
protection systems for occupants, stronger passenger safety 
standards, improved safety equipment and devices, and the need 
for on-board recorders with the capability to collect crash 
data. These technologies are not exotic. Many have been around 
for a long time, but since they are not required, they simply 
have not been installed in American motorcoaches.
    Jackie Gillan, who is the Vice President of Advocates for 
Highway and Auto Safety, who perhaps has done more than anybody 
in this city or anywhere else on vehicle safety and highway 
safety, recounts through history, through the last 40 years of 
history, how all the major motor vehicle safety measures that 
have happened have happened because Congress passed them, and 
Federal and State agencies do not do it. It really is up to the 
U.S. Senate and the House of Representatives, as it was with 
seat belts and air bags and all the kinds of things that many 
people--and you, I know, Mr. Chairman, have been so supportive 
of all of those.
    As a father of four, I find it particularly disturbing to 
know students are still driving and riding in vehicles without 
even the option of buckling up. Seat belts, window glazings, 
fire extinguishers--as I said, those are not new technologies. 
They are common sense safety features that are widely used that 
are not highly expensive to do, especially when the bus is 
actually being manufactured. Yet, mandating them, as 
recommended by NTSB, has been languishing for years.
    Last month was yet another fatal month for motorcoach 
passengers, as family members of victims of the Sherman, Texas 
crash, who are here today, show. There is no question that with 
stronger safety regulations, the tragedies and fatalities in 
motorcoach accidents can, in fact, be minimized. If the 
technology to save lives and reduce injuries exists--and it 
certainly does--we must make every effort to put that 
technology to use, and since the bus companies and motorcoach 
companies have not done it on their own, it is up to us to make 
it happen.
    It is my hope that in the future, parents will not have to 
endure the anguish and the grief that the Mesleys and the 
Bettses and Ms. Lee, who is here on behalf of her mother who 
died, and the Formans--Steve Forman here with his daughter who 
was injured. That just should not happen anymore.
    I thank the Chairman for his interest.
    Senator Lautenberg. Thank you very much, Senator Brown.
    Senator Hutchison, do you have anything else that you want 
to add?
    Senator Hutchison. No, Mr. Chairman.
    Senator Lautenberg. Then I would thank you very much for 
being with us, Senator Brown.
    Now I would like to welcome today's first panel of 
witnesses to discuss their ideas and their plans on how to 
improve the safety of motorcoaches and the passengers who use 
them.
    First, John Hill is the Administrator of the Federal Motor 
Carrier Safety Administration at the Department of 
Transportation. His agency is responsible for bus and truck 
safety, and he is in charge of several programs to address the 
safety challenges that we are discussing today.
    Mr. David Kelly, Acting Administrator at the National 
Highway Traffic Safety Administration. His agency sets safety 
standards for every new motorcoach sold in our country.
    And Mark Rosenker is the Acting Chairman of the National 
Transportation Safety Board. There are several recommendations 
on the NTSB's most wanted safety improvement list for buses.
    I thank all of you for coming today and lending your 
expertise to this hearing. Mr. Hill, I would call on you first. 
Please recognize that we have a 5-minute time limit. We would 
ask you to try to stay within that timeframe.

          STATEMENT OF HON. JOHN HILL, ADMINISTRATOR, 
          FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

    Mr. Hill. Yes, Mr. Chairman. Thank you. It is a pleasure to 
be with you today, and Members of the Subcommittee; Senator 
Hutchison, thank you for appearing today as well.
    As announced by Secretary Mary Peters, the total number of 
fatalities on the Nation's highways declined 3.9 percent in 
2007, the lowest level since 1994. 2007 had the lowest fatal 
bus crashes since 2004, down 8.6 percent from 2006.
    During my tenure as Administrator, I have redirected the 
agency's resources and engaged our state partners to prioritize 
motorcoach programs by expediting safety audits and complete 
more compliance reviews and inspections, by requiring each 
state to establish a motorcoach safety program.
    The devastation of the August 8 crash in Sherman, Texas, is 
a solemn reminder of the need for rigorous oversight and strong 
penalties for unsafe bus carriers. Due to the illegal behavior 
of the motor carrier involved, 17 people lost their lives and 
15 others were injured. The carrier involved in this tragic 
crash was operating illegally and was a reincarnation of 
another unsafe motorcoach company that FMCSA had placed out of 
service in June. Both companies were owned and operated by the 
same individual, and the newly created carrier involved in the 
crash was placed out of service the day following the crash.
    Although the National Transportation Safety Board's 
investigation is continuing, at this time FMCSA has discovered 
at least four deficiencies with the motor carrier and the 
equipment involved in the crash. First, the motor carrier did 
not have the authority to operate as a for-hire motor carrier. 
Second, the tire that blew was a recap/retread tire installed 
in the front steering axle, which is impermissible under our 
regulations. Third, the carrier did not ensure that the driver 
was medically qualified, and last, the carrier was not 
conducting pre-employment drug testing.
    While investigating, FMCSA determined that the motor 
carrier was operating motorcoaches that were being used by a 
third passenger carrier. The agency immediately dispatched 
investigators and issued an imminent hazard out-of-service 
order on this third carrier, shutting down any operations 
involving the carriers implicated in the crash.
    The bus involved in the Sherman crash had been inspected as 
recently as July 31 and did not have a retread tire at that 
time. The vehicle and driver deficiencies permitted by this 
carrier demonstrate how far some motor carriers will go to defy 
existing laws and regulations.
    Fortunately, the majority of the industry, nearly 3,900 
active passenger carriers, operates properly and delivers its 
passengers safely.
    In 2007, FMCSA and our State partners more than doubled the 
number of compliance reviews, referred to as the CR's, to 1,300 
from 600 in 2006. This represents a 185 percent increase over 
the number of compliance reviews in 1985. To date in 2008, the 
agency has completed 1,257 compliance reviews on motorcoach 
companies.
    We also have a safe stat system which identifies high-risk 
motor carriers in need of agency oversight. Consistent with 
NTSB recommendations, we revised that system to identify 
additional passenger carriers that will receive compliance 
reviews.
    FMCSA and its State partners completed approximately 
148,000 bus inspections in Fiscal Year 2007, 160 percent higher 
than were conducted in 2005, and to date, we have conducted 
over 140,000 of these inspections. And especially noteworthy is 
the increasing number of bus inspections, even though the 
SAFETEA-LU reauthorization bill instituted a prohibition of en 
route bus inspections unless an egregious safety defect exists.
    We continue to recognize the importance of strong safety 
data. Therefore, we are working to establish a bus fire 
database that will give us more information about bus fires and 
allow us to better have a handle on what is going on in the 
industry regarding these tragic fires.
    The agency established a goal to complete new entrant 
safety audits for motor carriers within 9 months, rather than 
the 18 months as required by statute. Rather than taking 9 
months, on average we are getting to the audits of these 
companies within 5 months.
    FMCSA has responded to a number of NTSB motorcoach 
recommendations. Several of these relate to the medical 
certification requirements final rule and national registry of 
certified medical examiners notice of proposed rulemaking 
currently under review at the Office of Management and Budget, 
and we will plan to publish these rules later this year.
    FMCSA partnered with the motorcoach industry to develop and 
distribute a booklet on motorcoach brake systems and safety 
technologies. Recently we requested closure of three other 
recommendations relating to the publishing of pre-trip safety 
guidance and outreach materials.
    Mr. Chairman, sadly the owner of the company involved in 
the Sherman crash chose to ignore passenger safety by 
disregarding the rules intended to protect them. Our agency is 
dedicated to finding and stopping such operators before they 
commit these atrocious acts.
    I would be happy to respond to your questions. Thank you.
    [The prepared statement of Mr. Hill follows:]

         Prepared Statement of Hon. John Hill, Administrator, 
              Federal Motor Carrier Safety Administration
    Chairman Lautenberg, Ranking Member Smith, and Members of the 
Subcommittee, thank you for inviting me today to discuss the Federal 
Motor Carrier Safety Administration's (FMCSA) programs related to bus 
operations. I am pleased to have the opportunity to discuss how FMCSA's 
important programs improve bus safety and make the Nation's highways 
safer. As recently announced by Transportation Secretary Mary Peters, 
the total number of fatalities on the Nation's highways declined 3.9 
percent in 2007 to the lowest level since 1994. For the bus industry, 
2007 had the fewest fatal bus crashes since 2004, down 8.6 percent from 
2006. The number of fatalities in bus crashes was also 4.5 percent 
lower than in 2006. The Agency recognizes, however, that every life 
lost is one too many, and understands fully the risk of multiple 
injuries and fatalities in a bus crash. As a result, we continue to 
place a high priority on our passenger carrier programs.
    The industry has seen many recent market changes. For example, the 
economy and rising fuel prices have contributed to increased ridership 
and new bus companies. FMCSA monitors the industry, remaining agile and 
adjusting as needed to offset the risks that these changes introduce.
    FMCSA remains dedicated to developing and implementing strong 
safety programs to reduce crashes of buses and large trucks. Over the 
past 8\1/2\ years, the Agency has implemented new regulations, grant 
requirements, processes, and penalties to make the industry safer. 
During my tenure as Administrator, I have redirected FMCSA's resources 
and engaged our State partners actively to complete more compliance 
reviews (CRs), inspections, and nationwide strike forces. Within the 
last year, I visited the National Highway Traffic Safety 
Administration's (NHTSA) Vehicle Research and Test Center in East 
Liberty, Ohio, and witnessed a motorcoach crash test to gain additional 
information and insight into passenger carrier safety issues. 
Additionally, I rode two curbside buses to New York, NY, from 
Washington, D.C., to understand how this emerging business model 
employs safety practices in its operations.
Sherman, Texas Motorcoach Crash
    Seeing the devastation of the August 8, 2008, crash in Sherman, 
Texas, is a solemn reminder of the need for rigorous oversight and 
strong penalties for unsafe carriers. Due to the alleged unsafe 
behavior of the motor carrier involved, 17 people on a religious 
pilgrimage lost their lives and 15 others were injured. The families 
and communities of these victims will suffer the repercussions for a 
long time.
    The carrier involved in this tragic crash, Iguala Busmex, did not 
have proper authority to operate and was actually a reincarnation of 
another unsafe motorcoach company, Angel Tours, Inc., that FMCSA had 
placed out-of-service in June after declaring it unsatisfactory and 
unfit to operate. Both of these companies were owned and operated by 
the same individual, Angel De La Torre. Although the National 
Transportation Safety Board's (NTSB's) investigation is proceeding, 
FMCSA discovered at least three deficiencies with Iguala Busmex when 
the crash occurred, in addition to its not having operating authority.
    First, the tire that deflated was a recap/retread tire that had 
been installed on the right front steering axle, in violation of the 
Federal Motor Carrier Safety Regulations. While such tires are 
permitted on axles at the rear of a bus, having them on a front or 
steering axle is prohibited by Federal regulations. Second, the carrier 
did not ensure that the driver was certified as meeting our medical 
standards. The driver had an expired medical certificate in his 
possession at the time of the crash. Third, the carrier was not 
conducting preemployment drug testing.
    Further, while investigating, FMCSA determined that the motor 
carrier was operating motorcoaches that were being used by two 
different motor carriers, Iguala Busmex, Inc. and Liberty Charters and 
Tours. Following the discovery of this information, FMCSA dispatched 
additional investigators.
    FMCSA discovered that Angel De La Torre was involved in managing at 
least some aspects of Liberty Charters and Tours. Based on these 
findings, FMCSA issued an imminent hazard out-of-service order on 
August 12 prohibiting Liberty Charters and Tours from using drivers or 
vehicles that were under the control or employ of Angel Tours, Iguala 
Busmex, or Angel De La Torre. The Agency issues imminent hazard out-of-
service orders when continued operation of the company increases 
substantially the likelihood of serious injury or death.
    The bus involved in the Sherman crash had been inspected as 
recently as July 31, and did not have a retread tire at that time. 
However, FMCSA's continuing investigations demonstrate the extent to 
which some motor carriers go to defy laws and regulations. They 
represent the most egregious carriers with which we must contend. 
Fortunately, these carriers represent the minority of the industry. 
Most of the 3,938 active interstate motorcoach carriers operating 
33,250 vehicles operate properly and deliver their passengers safely.
Update on FMCSA's National Bus Safety Program
    When I testified before your House colleagues in March 2007, I 
explained that FMCSA's National Motorcoach Safety Program emphasizes 
six areas: (1) increasing the number of motorcoach CRs; (2) ensuring 
passenger carriers have a higher priority within FMCSA's CR 
prioritization system, known as SafeStat; (3) establishing formal bus 
inspection programs within all States; (4) improving the collection and 
analysis of safety data; (5) reducing motorcoach fires; and (6) 
expediting safety audits of new entrant passenger carriers. Over the 
past 14 months, FMCSA has made considerable progress in each of these 
areas.
Motorcoach Compliance Reviews
    In Fiscal Year 2005, FMCSA and its State partners completed CRs on 
457 motorcoach companies. FMCSA increased this number to more than 600 
in FY 2006. I am pleased to report that this was more than doubled in 
2007 to 1,304. In FY 2008, the Agency has completed 1,257 motorcoach 
CRs to date. FMCSA continues to adjust its resources and goals to reach 
more motorcoach carriers. I would like to take this opportunity to 
commend FMCSA's State partners and the Commercial Vehicle Safety 
Alliance (CVSA), who have been instrumental in helping exceed these 
goals.
Passenger Carrier Enhancements to the SafeStat System
    Directly related to FMCSA's CR program is the Agency's modification 
of the algorithm used in the SafeStat system. FMCSA and State 
enforcement inspectors use the SafeStat system to identify high risk 
motor carriers in need of Agency oversight. The Agency recognizes that 
bus companies should receive the utmost program attention and 
enforcement resources. As a result, FMCSA has revised its SafeStat CR 
prioritization system to address the additional risks associated with 
passenger transportation by applying more stringent safety standards 
for passenger carriers. Under the revised system, FMCSA has identified 
additional groups of passenger carriers as its highest priorities for 
CRs. These groups include passenger carriers with less than 
satisfactory ratings, those with operational data showing violations, 
and passenger carriers that have not been reviewed in the last 5 years.
    Prior to the implementation of this new algorithm, 101 passenger 
carriers were on the prioritized CR list. Under the new system, FMCSA 
will now be reviewing 889 passenger carriers on the priority list, 
nearly double the number of passenger carrier CRs in FY 2005.
Bus Inspections
    For the past two Fiscal Years, FMCSA's State partners have been 
required to include a bus inspection program in their Commercial 
Vehicle Safety Plan (CVSP) in order to receive funding under the Motor 
Carrier Safety Assistance Program. As a result, 147,686 bus inspections 
were completed in FY 2007, which is 160 percent higher than the 56,084 
bus inspections conducted in FY 2005. In FY 2008, 140,448 inspections 
have been conducted to date.
    The FMCSA has continued to augment its program with bus strike 
forces to focus attention on passenger carrier safety. The most recent 
strike force was conducted August 4-16 and spanned all 50 states and 
the District of Columbia. Federal and State personnel from numerous law 
enforcement agencies participated in the strike force, completing 
approximately 12,000 safety inspections on vehicles and drivers. As a 
result, 1,200 buses were placed out of service.
Improved Safety Data
    The results of these increased efforts remove unsafe drivers and 
vehicles from the road and give the Agency additional data on passenger 
carriers that can be used to further research, program initiatives, and 
risk assessment on carriers and drivers.
    FMCSA is currently completing a Bus Crash Causation Study. Based on 
the data analysis to date, it appears that, like the Large Truck Crash 
Causation Study (LTCCS) issued in November 2005, other vehicles and 
drivers were responsible for the crashes in more than half of the cases 
(20 out of 39). In addition, where the critical reason for the crash 
was assigned to the bus driver, the crash was the result of driver 
errors including inadequate surveillance, inattention, and following 
too closely. Only four crashes were related to vehicle malfunctions. In 
two cases, brakes failed and in the other two there were fires. The 
Agency will continue its efforts to increase focus on both commercial 
motor vehicle (CMV) and nonCMV drivers.
Bus Fires
    On July 24, 2007, FMCSA published a Federal Register notice to 
advise that fires must be treated as crashes concerning reporting 
requirements. Motor carriers must now include fires on their accident 
register and law enforcement agencies should capture the information on 
their State Accident Reporting System. The additional data from this 
change improves significantly FMCSA's fire data collection and analysis 
efforts.
    The FMCSA, through the Department's Volpe National Transportation 
Systems Center, developed a national motorcoach fire database and 
completed a fire safety analysis. This study reviewed more than 500 
fire incidents over the last 10 years using information from FMCSA's 
Motor Carrier Management Information System, the Department of Homeland 
Security's National Fire Incident Reporting System, and individual 
state accident reporting data. The study recommended focusing on 
improving the effectiveness of State and Federal motorcoach inspection 
practices to identify mechanical conditions that can cause fires. With 
this information, FMCSA worked with the CVSA to change the out-of-
service criteria to include oil leaks in wheel hubs and frayed or 
damaged wiring on bus electrical systems.
    The FMCSA is expanding the original study to include newly 
available fire information from 2004 to 2008. This will allow the 
Agency to examine newer motorcoaches that may be equipped with 
automatic fire detection and suppression systems and evaluate the 
efficacy of such safety devices. Recently, FMCSA entered into a 
partnership with NHTSA's Special Crash Investigation unit to evaluate 
fire incidents on motorcoaches and conduct detailed engineering root 
cause analysis. A team of NHTSA technical experts will travel to 
motorcoach fires to perform an engineering analysis to determine 
whether root cause engineering data can be obtained that will indicate 
why the fire occurred and whether a primary contributing factor can be 
identified.
New Entrant Passenger Carriers
    As reported in July 2007, FMCSA established an internal goal to 
complete the new entrant safety audits for passenger carriers within 9 
months, rather than the 18 months provided in the originating statute. 
In FY 2007, FMCSA completed 86.6 percent within 9 months and 94.7 
percent within 18 months. For FY 2008, to date, the percentages are 
83.5 percent and 94.8 percent, respectively. On average, a safety audit 
is conducted on a new motorcoach carrier within 4.5 months.
    The Agency expects publication of the final rule on the New Entrant 
Safety Assurance Process later this year. At present, the rule is in 
the final stages of Departmental review. The notice of proposed 
rulemaking published on December 21, 2006, recommended strengthening 
the standards for all motor carriers and requiring verification and 
education about the requirements of the Americans with Disabilities Act 
(ADA) during the safety audit. Changes in this program will contribute 
significantly to starting new carriers off right and will enable FMCSA 
and its State partners to identify unsafe carriers and ensure the early 
correction of unsafe practices.
Current and Future Authorities
    While these six National Motorcoach Safety Program initiatives have 
resulted in significant enhancements to our safety programs, FMCSA 
continues to use its current authority and looks for additional 
authority that would eliminate loopholes, identify more unsafe 
carriers, and make the industry safer. Recently, FMCSA received 
additional direction through the Over-the-Road Bus Transportation 
Accessibility Act of 2007 (P.L. 110-291), signed into law by President 
Bush on July 30. This legislation clarifies the Agency's role in 
considering ADA compliance before operating authority is granted and 
authorizes the Agency to revoke operating authority based on willful 
noncompliance with DOT's ADA regulations.
    I am pleased to report that FMCSA met the requirement of the Act to 
``take necessary actions to implement the changes required'' within 30 
days. To that end, the Agency has provided staff with the needed 
procedures and direction for implementation. In addition, we have 
initiated the development of the Memorandum of Understanding (MOU) with 
the Department of Justice, as required by the statute, and are on 
target to complete the MOU by the 6-month statutory deadline.
    The Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) established the Motor Carrier 
Safety Advisory Committee (MCSAC) to provide advice and recommendations 
on motor carrier safety programs and motor carrier safety regulations. 
The MCSAC recently recommended several reauthorization proposals to the 
Agency for consideration. We are now reviewing the advisory committee's 
recommendations. The Agency's next reauthorization will be critical in 
providing the tools and resources needed by FMCSA to create an even 
more robust safety program.
    To ensure that noncompliant carriers are not attempting to evade 
detection by creating new motor carriers, the Agency has implemented a 
vetting process for new passenger carrier operating authority 
applicants. This process compares available applicant information to 
existing carrier information. FMCSA's algorithm identifies common 
characteristics such as names, addresses, phone numbers, e-mail 
addresses, vehicles, drivers, and insurance policy information. If 
similarities are detected, FMCSA investigates further.
    The application is vetted by FMCSA and with the appropriate State 
agency. If an affiliation with a carrier with an unsafe record is 
detected through this vetting process, the applicant is required to 
provide additional documentation. FMCSA will deny authority to any 
unsafe carrier attempting to reestablish itself as a new carrier.
Driver Issues
    The FMCSA continues to monitor other areas of concern including 
driver health, driver fatigue, and the impacts of non-CMVs around large 
trucks and buses. In April 2008, FMCSA began a 24-month research study 
specific to motorcoach driver fatigue. This research will gather 
empirical data on motorcoach driver schedules to help bus companies 
better manage fatigue in their driver operations.
    The Agency continues to focus on driver information available 
through our existing systems. FMCSA developed the Driver Information 
Resource (DIR) in response to SAFETEA-LU. The DIR is a Web-based tool 
that allows a user to search by driver for a driver's crash and 
inspection history, regardless of a driver's employment history. FMCSA 
and State enforcement staff continue to use this tool to access driver-
specific data. The Agency expects to make this information available to 
the motor carrier industry as a part of the preemployment verification 
process. Approved companies would distribute the information to 
inquiring motor carriers with the driver's approval. The system is to 
be accessible by motor carriers in 2009. This will result in bus and 
truck companies hiring safer drivers or risking consequences for 
employing unsafe operators.
    Additionally, FMCSA's Comprehensive Safety Analysis 2010 (CSA 2010) 
program will address driver-specific issues. CSA 2010 will collect and 
manage driver specific data and target drivers and carriers based on 
these data.
NTSB Recommendations
    FMCSA has been responding to a number of NTSB motorcoach 
recommendations. Several of these recommendations relate to two FMCSA 
rulemakings: ``Medical Certification Requirements as Part of the 
Commercial Driver's License'' and ``National Registry of Certified 
Medical Examiners.'' The Medical Certification final rule and the 
National Registry notice of proposed rulemaking are currently under 
review. We anticipate publishing both of these rules later this fall.
    In addition, in response to a NTSB recommendation, FMCSA partnered 
with the American Bus Association (ABA), the United Motorcoach 
Association (UMA), and the CVSA to develop and distribute a booklet 
entitled, ``Motorcoach Brake Systems and Safety Technologies.'' More 
than 4,000 copies were distributed and the document is accessible on 
the FMCSA website.
    FMCSA has developed a new algorithm to change the prioritization of 
motorcoaches in the SafeStat system. As a result, FMCSA has requested 
that the NTSB close the related recommendation.
    Additionally, FMCSA recently requested closure of three other 
recommendations related to the publishing of pre-trip safety guidance 
in the Federal Register and development and publication of outreach 
materials. 30,000 brochures, 20,000 audio CDs, and 6,000 posters have 
been distributed. In addition, these materials were posted on FMCSA's 
website. The Agency continues to target non-traditional motorcoach 
users and operators, such as church and school groups.
    Finally, another recommendation relates to developing a national 
bus fire database and studying the causes, frequency, and severity of 
bus and motorcoach fires. As I explained earlier in my statement, FMCSA 
has engaged the Volpe Center and NHTSA to provide assistance in this 
effort.
Partnerships
    It must be noted that FMCSA could not have made these 
accomplishments without our partnerships with other DOT agencies such 
as NHTSA and the Federal Transit Administration, other Federal 
agencies, State and local law enforcement agencies, and organizations 
such as the American Bus Association, the United Motorcoach 
Association, and the Commercial Vehicle Safety Alliance. These 
critically important relationships help to bring issues to light and 
strengthen the industry.
Conclusion
    Mr. Chairman, I would like to reiterate FMCSA's dedication to bus 
safety. Our agency works each day to ensure that every passenger 
arrives home safely to loved ones from every trip. In the history of 
CMV enforcement and regulatory oversight, we now have more inspections, 
more CRs and timelier new entrant audits, and greater outreach and 
education than ever. In advance of the Sherman tragedy, FMCSA took 
strong steps to ensure the safety of our highways. We identified a 
carrier as unsafe, conducted a thorough investigation, and determined 
the carrier to be unfit, placing it out of service. Sadly, the owner of 
the company that had been placed out of service chose to ignore his 
passengers' safety by disregarding the rules intended to protect them. 
This willful negligence has no place in the future of American 
transportation. Our agency is dedicated to finding and stopping such 
operators before they commit these atrocious acts.
    While we are seeing a reduction in the total number of fatalities 
each year, FMCSA recognizes that much work remains. Please be assured 
of my continued personal commitment to reducing these fatalities 
further and making our nation's highways even safer. Thank you for the 
opportunity to testify before you today about this important issue. I 
also commend the Subcommittee for continuing to focus on bus safety to 
increase protection of the American people. I would be happy to respond 
to any questions you may have.

    Senator Lautenberg. Thank you very much.
    Now Mr. Rosenker.

 STATEMENT OF HON. MARK V. ROSENKER, ACTING CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Rosenker. Thank you very much, Mr. Chairman. Chairman 
Lautenberg, Senator Hutchison, my name is Mark Rosenker, and I 
am the Acting Chairman of the National Transportation Safety 
Board. I would like to take this opportunity to thank you for 
inviting me to testify today on motorcoach safety.
    As you know, the Safety Board is charged with investigating 
accidents in all modes of transportation, including highways. 
We determine the probable cause and make recommendations to 
prevent similar accidents from happening again.
    Motorcoach travel is one of the safest modes of 
transportation. However, when accidents do occur, they 
typically involve substantial numbers of people traveling in a 
single vehicle, and it is often carrying students or elderly 
persons who rely on motorcoach travel and have placed their 
safety in the hands of a professional motorcoach operator. 
Therefore, the public demands that motorcoaches meet the 
highest level of safety.
    Today I would like to discuss three areas where 
improvements can be made to make motorcoach travel even safer. 
They involve motorcoach vehicle improvements, oversight 
improvements, and technology improvements.
    First, I would like to talk about vehicle improvements. For 
decades, the Safety Board has been concerned with motorcoach 
occupant protection and the fatalities and injuries caused when 
passengers are thrown from their seats or ejected. In fact, we 
just revisited this issue in the Bluffton University accident 
in Atlanta where 12 occupants were ejected from the motorcoach.
    The Board's recommendations to NHTSA included: develop 
standards for a motorcoach occupant protection system that 
protects passengers in all crash scenarios; revise window 
glazing requirements to prevent occupant ejections, yet still 
allows passenger egress; and make motorcoach roofs stronger. 
These improvements would go a long way in protecting passengers 
during a crash.
    Motor coach fires are also a concern. Even though deaths 
and injuries have historically been rare, the Board discovered 
after the tragic motorcoach fire near Dallas, Texas in 2005 
that the consequences can be devastating. As a result, the 
Board made recommendations to NHTSA to require enhanced fire 
protection of fuel systems and fire-hardened materials in 
motorcoaches; develop fire detection systems; and establish 
acceptable passenger egress times for motorcoaches.
    The Board has asked NHTSA to require that motorcoaches be 
equipped with event data recorders which can be used to collect 
crash data and evaluate crash pulses and occupant protection 
issues when crashes do occur. The Board recently reiterated 
this recommendation in July, following the Bluffton accident.
    For decades, the Board has been concerned with the safety 
provided by motorcoach operators and the oversight provided by 
local, State, and Federal agencies. We have made the following 
recommendations to FMCSA.
    Elevate the importance of driver and vehicle safety rule 
violations in order to take more unfit carriers off the road. 
This recommendation was originally made in 1999 and most 
recently reiterated following the motorcoach fire near Dallas.
    Implement our eight recommendations that call for a 
comprehensive medical oversight program for commercial drivers. 
This recommendation was originally made in 2001, following the 
tragic Mother's Day crash in New Orleans and was placed on the 
Board's most wanted list in 2003.
    Implement technology that would prevent commercial drivers 
from falsifying their log books and make it easier for motor 
carriers, law enforcement agencies, and the FMCSA to monitor 
drivers' hours by requiring electronic on-board recorders for 
hours of service. This device would go a long way in helping 
prevent fatigue-related accidents.
    And finally, prohibit cellular telephone use by commercial 
drivers on motorcoaches.
    The Board also believes that developing and installing new 
technologies such as adaptive cruise control, collision warning 
systems, active braking and electronic stability control hold 
great promise in reducing accidents. The Board has made 
recommendations to NHTSA to study and implement these and other 
technologies and has recently added this topic to the Board's 
most wanted list.
    In summary, the NTSB believes that although the motorcoach 
is still one of the safest modes of transportation, there are 
many, many improvements that can be made to make it even safer.
    Mr. Chairman, I would be available to respond to any 
questions.
    [The prepared statement of Mr. Rosenker follows:]

     Prepared Statement of Hon. Mark V. Rosenker, Acting Chairman, 
                  National Transportation Safety Board
    Good morning Chairman Lautenberg, Ranking Member Smith, and Members 
of the Subcommittee. My name is Mark Rosenker, Acting Chairman of the 
National Transportation Safety Board. I would like to take this 
opportunity to thank you and the Members of the Subcommittee for 
inviting me to testify today on motorcoach safety and for your 
continued interest in furthering the safety of our Nation's highways.
    As you know, the Safety Board is charged with investigating 
accidents in all the modes of transportation, including highways, to 
determine their probable cause, and make recommendations to prevent 
similar accidents from happening again. Over the years the Board has 
done important work in virtually all aspects of highway safety 
including highway or vehicle design; roadway environment; occupant 
protection; driver performance; driver training; emergency response; 
roadway, bridge, and tunnel construction; and oversight by regulatory 
agencies at the local, state, and Federal levels.
    Today, I would like to discuss the Safety Board recommendations in 
areas regarding several important issues that the Board believes will 
make a difference in motorcoach safety.
    As you know, intercity motorcoach travel is one of the safest modes 
of transportation, with approximately 17 occupant fatalities in an 
average year. It is also one of the most popular forms of travel--
transporting more passengers than either commercial air or rail travel, 
according to industry estimates. However, when accidents occur, they 
typically involve substantial numbers of people traveling in a single 
vehicle.
    These passengers are often students or elderly persons who rely on 
motorcoach travel and have placed their safety in the hands of a 
professional motorcoach operator. That factor demands that motorcoaches 
meet the highest level of safety.
    When tragic accidents occur, the public turns to the Safety Board 
for answers. Because the Board ultimately determines the probable cause 
and makes safety recommendations to prevent future accidents from 
occurring again, the public's confidence is reassured.
    My discussions today include 3 areas: motorcoach vehicle 
improvements, motorcoach oversight improvements, and motorcoach 
technology improvements.
Motorcoach Vehicle Improvements
    For decades, the Safety Board has been concerned with injury 
causation mechanisms with regard to the occupants in motorcoach 
accidents. These areas include motorcoach passenger protection, event 
data recorders, and motorcoach fire protection.
Motorcoach Passenger Protection
    One of the primary causes of passenger injury in motorcoach buses 
is passengers being thrown from their seats. An accident and the 
overall injury risk to occupants can be significantly reduced during an 
accident by keeping occupants in the seating compartment throughout the 
collision. In addition, we found that equipping motorcoach side windows 
with advanced glazing may decrease the number of ejections of 
unrestrained passengers and decrease the risk of serious injuries to 
restrained passengers during motorcoach accidents.
    In the Bluffton University accident in Atlanta, 7 of the 35 
motorcoach occupants were killed. Twelve occupants were ejected from 
the motorcoach and 2 more occupants were partially ejected.
    From 2000 through 2006, 43 motorcoach accidents occurred in which 
at least one occupant was fatally injured. In these motorcoach 
accidents, which resulted in 122 total fatalities, 41 occupants were 
partially or fully ejected from the motorcoach. In 15 of the 43 
accidents, the motorcoach rolled over and 38 ejected fatalities 
occurred during the rollovers.
    The Federal Motor Vehicle Safety Standards (FMVSS) contain 22 
crashworthiness standards. Most of these standards exempt motorcoaches 
with a gross vehicle weight over 10,000 pounds, and no Federal 
regulations require that motorcoaches in the United States be equipped 
with an occupant protection system. Although motorcoaches must comply 
with both FMVSS 217, which establishes minimum requirements for 
motorcoach window retention and release, and with FMVSS 302, which 
establish standards for the flammability of interior materials, they do 
not have to comply with the host of other FMVSS occupant protection 
standards that apply to school buses and passenger cars.
    A well-designed vehicle will manage the energy of a crash through 
its structure and minimize that energy transfer to passengers through 
an occupant protection system (compartmentalization), which functions 
to restrain the passengers within the seating compartment throughout 
the accident sequence and minimize the risk of injury. One example of 
compartmentalization has been studied, tested, and required in school 
buses but not in motorcoaches.
    Between 1968 and 1973, the Safety Board issued a series of 
recommendations to the Federal Highway Administration (FHA) and the 
National Highway Traffic Safety Administration (NHTSA) on occupant 
protection. Additionally, in 1999, the Safety Board published two 
special investigation reports that addressed motorcoach occupant 
protection. The recommendations included the following to NHTSA. The 
first two were also added to the Board's Most Wanted List of 
Transportation Safety Improvements (Most Wanted) in 2000:

  <bullet> In 2 years, develop performance standards for motorcoach 
        occupant protection systems that account for frontal impact 
        collisions, side impact collisions, and rollovers. H-99-47

  <bullet> Once pertinent standards have been developed for motorcoach 
        occupant protection systems, require newly manufactured 
        motorcoaches to have an occupant crash protection system that 
        meets the newly developed performance standards and restrains 
        passengers, including those in child safety restraint systems, 
        within the seating compartment throughout the accident sequence 
        for all accident scenarios. H-99-48

  <bullet> Expand your research on current advanced glazing to include 
        its applicability to motorcoach occupant ejection prevention, 
        and revise window-glazing requirements for newly manufactured 
        motorcoaches based on the results of this research. H-99-49

    NHTSA's initial response indicated that work had begun to develop a 
research plan to accomplish these recommendations. Two years later, 
NHTSA reported forming the Bus Manufacturer's Council and in 2002, the 
agency held a public forum on motorcoach safety with Transport Canada. 
In 2004, the Safety Board was informed that NHTSA was focusing on roof 
crush and window retention technology to keep occupants in the vehicle 
and had initiated a joint study with Transport Canada.
    In 2001, these recommendations were reiterated following a 1999 
motorcoach accident in New Orleans in which 22 occupants were killed. 
Since 1998, the Safety Board has investigated 33 more motorcoach 
crashes involving 255 ejections and 123 fatalities. The majority of 
these rollover crashes clearly shows that passengers who remain in 
their seating compartments sustain fewer injuries and that ejected 
passengers are the most likely to be killed.
    Unfortunately today, 9 years after the Safety Board concluded its 
bus crashworthiness special investigation, no Federal regulations or 
standards require that motorcoaches operated in the United States be 
equipped with occupant protection systems. Consequently, these 
motorcoach occupant protection recommendations were again reiterated in 
the Bluffton University accident in Atlanta.
    However, NHTSA is making some progress. In December 2007, NHTSA 
performed a frontal motorcoach crash test and in February 2008, they 
performed two tests on motorcoach roof strength and occupant survivable 
space by the MGA Research Corporation, under contract to NHTSA, both of 
which were observed by Safety Board staff. The Board will carefully 
follow the analysis of those test results.
    Another critical aspect of surviving a motorcoach accident is the 
ability of passengers to exit the vehicle in a timely manner. In the 
Safety Board's 1999 special crashworthiness report, we found that the 
emergency window exits need to be easily opened and that they need to 
remain open during an emergency evacuation. Consequently, the Board 
recommended that NHTSA:

  <bullet> revise the Federal Motor Vehicle Safety Standard 217, ``Bus 
        Window Retention and Release,'' to require that other than 
        floor-level emergency exits can be easily opened and remain 
        open during an emergency evacuation when a motorcoach is 
        upright or at unusual attitudes (H-99-9).

    This recommendation was added to the Most Wanted list in 2000.
    Motorcoaches must be strong enough to retain adequate survivable 
space for passengers during typical accident scenarios, and especially 
important regarding roof strength during rollovers. The recommendation 
to NHTSA in our 1999 special report was to develop performance 
standards within 2 years for motorcoach roof strength that provide 
maximum survival space for all seating positions and that take into 
account current typical motorcoach window dimensions (H-99-50). This 
recommendation was added to the Most Wanted list in 2000.
    Finally, the Safety Board made recommendations to NHTSA as a result 
of the motorcoach accident investigation in Wilmer, Texas. These 
include:

  <bullet> evaluate current emergency evacuation designs of 
        motorcoaches and buses by conducting simulation studies and 
        evacuation drills that take into account, at a minimum, 
        acceptable egress times for various post-accident environments, 
        including fire and smoke; unavailable exit situations; and the 
        current above-ground height and design of window exits to be 
        used in emergencies by all potential vehicle occupants (H-07-
        08), and

  <bullet> require motorcoach operators to provide passengers with 
        pretrip safety information (H-99-8).

    Some progress has been made on these recommendations. In 2002, 
NHTSA met separately with motorcoach manufacturers and operators to 
address the issue of bus window retention and release; however, no 
research plan was agreed upon at those meetings. In the fall of 2004, 
NHTSA signed a Memorandum of Understanding with Transport Canada to 
carry out research in the areas of roof crush and window retention 
technology, with a goal of keeping occupants in the vehicle, because 
most motorcoach fatalities occur when passengers are ejected from the 
vehicle. NHTSA's research shows that in most accidents, the bus only 
rolls \1/4\ turn and comes to rest on its side; therefore installation 
of roof exits to serve as an alternate to window exits as a means of 
rapid emergency egress for bus passengers was also being examined.
    On August 6, 2007, NHTSA issued their ``Approach to Motorcoach 
Safety,'' which is a comprehensive review of motorcoach safety issues 
and the course of action that NHTSA will pursue to address them. In the 
course of its research, NHTSA will study its own regulations (such as 
FMVSS 217) which establishes minimum requirements for bus window 
retention and release to reduce the likelihood of passenger ejection in 
crashes--as well as international standards to determine the best way 
to proceed with the establishment of new requirements to better protect 
motorcoach passengers.
Event Data Recorders
    Since motorcoach accidents are relatively rare events and 
motorcoach crash testing is prohibitively expensive, one way to collect 
crash data, evaluate crash pulses, and occupant protection issues is to 
equip motorcoaches with event data recorders. An event data recorder is 
a device or function that records a vehicle's dynamic, time-series data 
just before a crash (vehicle speed versus time) or during a crash 
(change in velocity versus time). Intended for retrieval after the 
crash event, EDR data can provide critical safety system performance 
information. To enhance crash testing with real-world data, it is 
important that data from motorcoach crashes be used for post-accident 
analysis, forensics, and design evaluation. At a recent SAE 
International symposium on highway EDRs, industry representatives 
presented the status of standards work, current system operating 
experience, and evidence that many operators currently use vehicle data 
recorders to improve operational control, to support insurance rates 
and claims, and to respond to litigation. The Board would like to see 
these devices on all motorcoaches.
    Although crash forces can sometimes be estimated by comparing the 
accident vehicle's physical damage to instrumented crash test data, 
this method is not always reliable--particularly when crash test data 
are substantially limited as they are for motorcoaches, and when the 
accident involves a barrier collision or a collision with a hard paved 
surface. The ability to estimate crash pulses was also limited by the 
fact that some surfaces of the motorcoach may have undergone multiple 
collisions.
    As a result of its 1996 safety study on child restraint systems and 
subsequent 1997 air bag forum, the Safety Board recommended that NHTSA 
address the on-board recording of crash data. About that time, the 
National Aeronautics and Space Administration and the Jet Propulsion 
Laboratory also recommended that NHTSA study the feasibility of 
obtaining crash data for safety analysis by installing crash recorders 
on vehicles. In response, NHTSA organized the EDR Working Group in 
October 1998. In 1999, the Board held a symposium on transportation 
recorders. Later that year, as a result of its special investigation on 
bus crashworthiness, the Safety Board made the following two EDR-
related recommendations to NHTSA:

  <bullet> require that all school buses and motorcoaches manufactured 
        after January 1, 2003, be equipped with on-board recording 
        systems that record vehicle parameters, including, at minimum, 
        lateral acceleration, longitudinal acceleration, vertical 
        acceleration, heading, vehicle speed, engine speed, driver's 
        seat belt status, braking input, steering input, gear 
        selection, turn signal status (left/right), brake light status 
        (on/off), head/tail light status (on/off), passenger door 
        status (open/closed), emergency door status (open/closed), 
        hazard light status (on/off), brake system status (normal/
        warning), and flashing red light status (on/off) (school buses 
        only). For those buses so equipped, the following should also 
        be recorded: status of additional seat belts, airbag deployment 
        criteria, airbag deployment time, and airbag deployment energy. 
        The on-board recording system should record data at a sampling 
        rate that is sufficient to define vehicle dynamics and should 
        be capable of preserving data in the event of a vehicle crash 
        or an electrical power loss. In addition, the on-board 
        recording system should be mounted to the bus body, not the 
        chassis, to ensure that the data necessary for defining bus 
        body motion are recorded (H-99-53), and

  <bullet> develop and implement, in cooperation with other government 
        agencies and industry, standards for on-board recording of bus 
        crash data that address, at a minimum, parameters to be 
        recorded, data sampling rates, duration of recording, interface 
        configurations, data storage format, incorporation of fleet 
        management tools, fluid immersion survivability, impact shock 
        survivability, crush and penetration survivability, fire 
        survivability, independent power supply, and ability to 
        accommodate future requirements and technological advances (H-
        99-54).

    In October 2000, NHTSA organized the Truck and Bus Event Data 
Recorder Working Group to focus on data elements, survivability, and 
event definitions related to trucks, school buses, and motorcoaches. 
The group's results and findings were published in May 2002. In 2004, 
the NCHRP completed a project that examined current U.S. and 
international methods and practices for the collection, retrieval, 
archiving, and analysis of EDR data for roadside and vehicle safety. 
Both the IEEE and SAE have published voluntary industry motor vehicle 
EDR standards. A second SAE standards committee, J2728--Commercial 
Vehicle Event Data Recorders--is specifically addressing data elements 
for medium- and heavy-duty trucks. Industry initiatives in standards 
development include the American Trucking Association's Technology and 
Maintenance Council's publication of a recommended practice to define 
the collection of event-related data on board commercial vehicles. The 
recommended practice outlines data elements, storage methodology, and 
the retrieval approach for event data recording on commercial vehicles.
    In the meantime, the FMCSA's ``Commercial Vehicle Safety Technology 
Diagnostics and Performance Enhancement Program'' (also known as the 
``CV Sensor Study'') has worked to define driver and vehicle assistance 
products and systems and, in particular, advanced sensor and signal 
processors in trucks and tractor-trailers, with an emphasis on on-board 
diagnostic and improved safety-related products. The program involves 
developing EDR requirements for the analysis of accident data from the 
FMCSA's Large Truck Crash Causation Study, with the goal of developing 
EDR functional specifications for both complete accident reconstruction 
and crash analyses. To date, this project has developed requirements 
for EDR components, hardware, software, sensors, and data bases and has 
completed a cost-effectiveness analysis.
    In recent years, NHTSA has made progress in developing EDR data 
standards for light vehicles, which include passenger cars, 
multipurpose passenger vehicles, light trucks, and vans with a gross 
vehicle weight rating of 3,855 kilograms (8,500 pounds) or less. In 
August 2006, NHTSA published a final rule that standardizes the 
information EDRs collect, but was amended in January 14, 2008, in 
response to numerous petitions for reconsideration. Based on this 
revised rule, compliance dates have been changed to September 1, 2012, 
for most light vehicles and to September 1, 2013, for vehicles 
manufactured in two or more stages. The new rule, however, does not 
address vehicles over 8,500 pounds and thus would not apply to buses or 
motorcoaches.
    In its August 2007 ``Approach to Motorcoach Safety,'' NHTSA 
included a discussion of EDRs, stating that the agency has recently 
defined mandatory data elements for the voluntary installation of EDRs 
in light passenger vehicles. However, crash characteristics and 
relevant measurements for motorcoaches are different, as supported by 
the 2001 NHTSA EDR Working Group final report's ``Summary of 
Findings.''
    The EDR Working Group's final report also noted the following:

  <bullet> EDRs can improve highway safety for all vehicle classes by 
        providing more accurate data for accident reconstructions, and

  <bullet> U.S. and European studies have shown that the number and 
        severity of crashes is reduced when drivers know that an on-
        board EDR is in operation.

    However, NHTSA's ``Approach to Motorcoach Safety'' also makes the 
seemingly contradictory statement that Safety Recommendations H-99-53 
and -54 concerning EDRs do not specifically relate to changes that 
would have a direct or quantifiable safety benefit for motorcoach 
occupants. The Safety Board believes the lack of useful event data 
associated with accident motorcoaches represents a missed opportunity 
to better understand crash forces, ejection dynamics, and 
crashworthiness. The Board concludes that event data recorders would 
provide the accurate and detailed event data necessary to better 
understand crash causation and to establish design requirements for 
motorcoach crashworthiness and occupant protection systems. The need 
for such information is particularly significant as EDRs become more 
widely used in the truck and transit industry, as evidenced at the 
September 2007 EDR symposium sponsored by SAE. During the symposium, 
representatives from industry noted that EDR applications are being 
more widely used for motor carrier analysis of accidents and to support 
more accurate insurance underwriting and risk analysis.
    Also in its ``Approach to Motorcoach Safety,'' NHTSA states ``Upon 
completion of SAE J2728, consideration of a requirement for heavy 
vehicle EDR installation into motorcoaches would be appropriate.''
    The Safety Board recognizes NHTSA's progress in developing EDR 
standards for light vehicles. Establishing EDR performance standards 
for motorcoaches and buses is necessary for the timely and efficient 
implementation of EDRs, which will provide the data needed to develop 
effective occupant protection systems. The Board urges NHTSA to 
actively push to complete standards work and require EDRs on all new 
motorcoaches. As a result, in July of 2008 the Board reiterated Safety 
Recommendations H-99-53 and -54 in its report on the Bluffton 
University accident in Atlanta.
Motorcoach Fire Protection
    On September 23, 2005, a fire engulfed a motorcoach carrying 
elderly evacuees away from the predicted path of Hurricane Rita near 
Dallas, Texas. The 44 passengers were from an assisted-living facility 
in Bellaire, Texas; many needed to be carried or assisted onto the 
motorcoach by firefighters or nursing staff, and required almost 2 
hours to board. When the fire occurred, 23 elderly passengers were 
unable to escape the blaze and perished. I would like to note that this 
accident involved very unusual circumstances, and many of the decisions 
to evacuate and the means to evacuate were made in the context of the 
devastation caused by Hurricane Katrina that occurred just 1 month 
earlier.
    Fires on motorcoaches are not an unusual occurrence. In fact, some 
industry experts estimate that there is close to one motorcoach fire 
per day. However, to date, injuries and fatalities related to 
motorcoach fires are an extremely rare event. Still, this accident 
shows the potential for catastrophe when passengers are unable to exit 
a burning motorcoach quickly.
    As a result of its investigation, the NTSB made the following 
recommendations:

  <bullet> NHTSA should develop a standard to provide enhanced fire 
        protection of the fuel systems in areas of the motorcoaches and 
        buses where the system may be exposed to the effects of a fire. 
        In addition we asked that fire-hardened materials be used in 
        areas, such as those around wheel wells, to limit the potential 
        for flame spread into motorcoach or bus passenger compartments. 
        In the interim, while standards are being developed, we asked 
        the motorcoach manufacturers to use currently available 
        materials and designs for fuel system components that are known 
        to provide fire protection for the system,

  <bullet> Since wheel well fires are so difficult to extinguish, we 
        asked that NHTSA develop detection systems to monitor the 
        temperature of wheel well compartments in motorcoaches and 
        buses to provide early warning of malfunctions that could lead 
        to fires so that passengers might have time to escape, and

  <bullet> FMCSA continues to gather and evaluate information on the 
        causes, frequency, and severity of bus and motorcoach fires, 
        and conduct ongoing analysis of the fire data to measure the 
        effectiveness of the fire prevention and mitigation techniques 
        identified and instituted as a result of the Volpe National 
        Transportation Systems Center fire safety analysis study.
Motorcoach Oversight Improvements
    For decades the Board has been concerned with the safety of 
motorcoach operators and the oversight provided by local, state, and 
Federal agencies. These areas include:

  <bullet> Oversight of the Compliance Review Process,

  <bullet> Oversight of Driver Medical Conditions,

  <bullet> Electronic Onboard Recorders for Hours of Service (fatigue), 
        and

  <bullet> Cell Phone Use by Bus Drivers.
Oversight of the Compliance Review Process
    The Wilmer, Texas motorcoach fire is an illustration of the 
potential consequences of poor oversight of motorcoach operations, 
especially concerning the vehicle. The fire in this accident would not 
have occurred had the motorcoach been properly maintained.
    The Safety Board determined that the cause of the fire was 
insufficient lubrication in the right-side tag axle wheel bearing 
assembly of the motorcoach, which resulted in increased temperatures 
and subsequent failed wheel bearings. The high temperatures resulting 
from the friction led to the ignition of the tire and a catastrophic 
fire. This occurred because the motorcoach operator, Global Limo, Inc., 
failed to maintain their vehicles and FMCSA failed to provide proper 
oversight of the motor carrier through its compliance review process.
    Unfortunately, FMCSA is only able to conduct compliance reviews for 
a small fraction of the almost 911,000 motor carriers in this country. 
However, in this particular accident, numerous driver and vehicle 
safety violations were uncovered in a review performed by the Texas 
Department of Public Safety (DPS) in April 2002. At the time, the Texas 
DPS had no authority to force Global to cease operations. In February 
2004, FMCSA conducted a compliance review of Global in which it found 
similar violations pertaining to drivers and vehicles. However, FMCSA 
rated Global as ``satisfactory.'' Nineteen months later, after the bus 
fire near Dallas, FMCSA went back to Global and conducted another 
compliance review in September 2005. In this review, FMCSA found many 
of the same violations as in its previous compliance review; however, 
this time FMCSA gave Global a safety rating of ``unsatisfactory'' and 
declared that Global's operations created an ``imminent hazard'' to 
public safety. FMCSA issued an order for Global to cease operations.
    Concerned that motor carriers with significant regulatory 
violations for drivers and vehicles are still receiving satisfactory 
ratings, the Safety Board once more focused on Federal standards for 
determining the safety fitness of carriers. As we have done in several 
accident investigations over the past 8 years, the Board again 
concluded that the current FMCSA compliance review process does not 
effectively identify unsafe motor carriers and prevent them from 
operating, especially when violations are found in the areas of driver 
and vehicle safety. As a result, we reiterated our long-standing 
recommendation to FMCSA to change the safety fitness rating methodology 
so that adverse vehicle or driver performance-based data alone are 
sufficient to result in an overall unsatisfactory rating for a carrier 
(H-99-6). This recommendation was added to the Board's Most Wanted list 
in 2000.
    The Safety Board originally issued this recommendation in 1999 in a 
Special Study on Selective Motorcoach Issues. We reiterated the 
recommendation in 2002 in our Mountainburg, Arkansas truck/school bus 
accident report and again in 2007. Our goal is to prevent motor 
carriers from putting vehicles with mechanical problems on the road and 
unqualified drivers behind the wheel.
    The Motor Carrier Safety Act of 1984 directed the Department of 
Transportation (DOT) to establish a procedure to determine how safely 
motor carriers operate. Currently, the DOT, through the FMCSA, uses a 
system for determining how safely a motor carrier operates that does 
not place sufficient emphasis on driver or vehicle qualifications. 
Motor carriers are given safety ratings based on compliance reviews 
conducted by the FMCSA. Carriers are rated on six safety fitness 
factors:

        1. General--including financial responsibility, insurance 
        coverage, drug and alcohol programs,

        2. Driver--including qualifications and training,

        3. Operations--including management controls, scheduling 
        practices, allowing violations of rules, false reports, failing 
        to maintain records,

        4. Vehicle--including maintenance,

        5. Hazardous materials--including failure to follow 
        regulations, and

        6. Accident rate.

    A motor carrier can receive an unsatisfactory overall rating if two 
elements are rated unsatisfactory. An overall unsatisfactory rating can 
lead to a carrier being ordered to cease operations.
    The Safety Board's investigations have demonstrated that the two 
most important factors in safe motor carrier operations are the 
operational condition of the vehicles and the performance of the 
drivers who drive them. The Board believes that if the carrier receives 
an adverse rating (conditional or unsatisfactory) for either the 
vehicle or driver factor, the overall rating should be unsatisfactory. 
Since this recommendation was originally issued and later reiterated in 
two accident reports, the FMCSA has planned or carried out a variety of 
efforts to address our concerns. However, the same system is still in 
place and the recommendation has not yet been satisfied.
    For the safety of all highway users, the Safety Board believes that 
a motor carrier that does not ensure either the safe operation of its 
vehicles or drivers should receive an overall unsatisfactory safety 
rating.
    In June 2007, the FMCSA briefed the Safety Board on their 
``Comprehensive Safety Analysis (CSA) 2010 Initiative'' which they 
indicated would include a complete evaluation of the compliance review 
process leading to the development of a new performance-based 
operational model for determining motor carrier safety, emphasizing 
preventative measures and early detection for unsafe driver and carrier 
conditions. Under CSA 2010, the FMCSA plans to decouple the safety 
fitness rating from the compliance review. They have started the 
process of developing a new safety fitness rating methodology that 
would be based on an objective measure of a driver's or carrier's 
safety performance data. These safety ratings would be issued to all 
drivers and carriers. FMCSA began pilot testing the new rating system 
in 2008.
    The Safety Board believes FMCSA's current efforts represent a 
comprehensive review of the process of determining the safety of 
commercial motor carriers. Still, the Board continues to monitor 
FMCSA's actions and is concerned that accidents continue to occur 
involving motor carriers with poor oversight of their drivers and 
vehicles. Recognizing the importance of this issue to motor carrier 
safety, the Board added this recommendation to the Most Wanted list in 
2000.
    Related to this issue is the fact that, although FMCSA collects 
data on numerous safety violations when it conducts compliance reviews 
of motor carriers, approximately 85 percent of those violations are not 
included in the calculations of the motor carriers' rating. By not 
recognizing these violations in its calculations, FMCSA is allowing 
potentially unsafe carriers to continue to operate without consequence. 
Therefore the Safety Board recommended that FMCSA:

  <bullet> issue an Interim Rule to include all Federal Motor Carrier 
        Safety Regulations in the current compliance review process so 
        that all violations of regulations are reflected in the 
        calculation of a carrier's final rating (H-07-03) and

  <bullet> revise the Federal Motor Carrier Safety Regulations to 
        prohibit a commercial vehicle from operating with wheel seal or 
        other hub lubrication leaks (H-07-02).
Oversight of Driver Medical Conditions
    On May 9, 1999, on Mother's Day in New Orleans, a commercial driver 
lost consciousness while driving a motorcoach on an interstate highway, 
left the roadway, and crashed into an embankment, killing 22 
passengers, and seriously injuring the driver and 15 additional 
passengers. The driver was found to have had multiple known serious 
medical conditions, including kidney failure and congestive heart 
failure and was receiving intravenous therapy for 3-4 hours a day, 6 
days a week.
    The Safety Board has investigated many other accidents involving 
commercial drivers with serious preexisting medical conditions that had 
not been adequately evaluated. These include:

  <bullet> a nearly blind school bus driver in Montana who apparently 
        did not see an oncoming train that struck the bus and killed 2 
        students,

  <bullet> a New York City transit bus driver with a seizure history 
        who experienced a seizure while driving the bus, seriously 
        injuring a cyclist and killing a pedestrian,

  <bullet> a tractor-trailer driver with unevaluated sleep apnea and 
        untreated thyroid disease who ran over and killed a Tennessee 
        State Trooper driving in his highway patrol vehicle with lights 
        flashing; and

  <bullet> an alcohol-dependent tractor-trailer driver whose excessive 
        speed resulted in a load breaking free and striking a school 
        activity bus in North Carolina, killing the school bus driver 
        and a child.

    It is unusual in our accident investigations to find a commercial 
driver for whom there are not at least some questions regarding medical 
certification. This is not to say that a driver's conditions always 
cause the accident, but finding these undocumented and unevaluated 
conditions in commercial drivers is concerning and often alarming. In 
many cases, these conditions are manageable if they are appropriately 
evaluated, treated, and monitored. Unfortunately, for a variety of 
reasons, no such evaluation, treatment, or monitoring occurred in many 
of the cases we investigated.
    As a result of observing serious deficiencies in the oversight of 
commercial driver medical certification in several of our 
investigations including the New Orleans accident, the Safety Board 
issued recommendations to the FMCSA in 2001 to develop a comprehensive 
medical oversight program for interstate commercial drivers. The Board 
suggested that such a program include qualified and properly educated 
examiners, updated and available regulatory and non-regulatory 
guidance, review and tracking of medical exams, improved enforcement of 
certification requirements, and appropriate mechanisms for reporting 
unfit drivers. The Board's recommendations specify a comprehensive 
oversight program, because we feel that only by addressing this issue 
in a systematic fashion can a truly effective program of oversight be 
developed. A piecemeal approach to the problem may result in gaping 
deficiencies that will continue to permit unqualified drivers to 
operate on the Nation's highways. The specific recommendations are as 
follows:

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: individuals performing medical examinations 
        for drivers are qualified to do so and are educated about 
        occupational issues for drivers (H-01-17),

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: a tracking mechanism is established that 
        ensures that every prior application by an individual for 
        medical certification is recorded and reviewed (H-01-18),

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: medical certification regulations are updated 
        periodically to permit trained examiners to clearly determine 
        whether drivers with common medical conditions should be issued 
        a medical certificate (H-01-19),

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: individuals performing examinations have 
        specific guidance and a readily identifiable source of 
        information for questions on such examinations (H-01-20),

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: the review process prevents, or identifies 
        and corrects, the inappropriate issuance of medical 
        certification (H-01-21),

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: enforcement authorities can identify invalid 
        medical certification during safety inspections and routine 
        stops (H-01-22),

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contain the following 
        program elements: enforcement authorities can prevent an 
        uncertified driver from driving until an appropriate medical 
        examination takes place (H-01-23), and

  <bullet> develop a comprehensive medical oversight program for 
        interstate commercial drivers that contains the following 
        program elements: mechanisms for reporting medical conditions 
        to the medical certification and reviewing authority and for 
        evaluating these conditions between medical certification exams 
        are in place; individuals, health care providers, and employers 
        are aware of these mechanisms (H-01-24).

    In 2003, because of the critical importance of this issue and the 
lack of substantive progress on the recommendations, this issue was 
placed on the Safety Board's Most Wanted list. Although the FMCSA has 
put in place a Medical Review Board and taken certain other preliminary 
actions in response to Congressional mandates, there are still areas in 
which absolutely no measurable progress has been made. In general, most 
of our safety recommendations remain in an open--unacceptable response. 
The FMCSA does seem to be making limited progress toward the type of 
comprehensive oversight system envisioned by the Board, but it remains 
questionable whether such a system will in fact be completely 
developed.
Electronic Onboard Recorders for Hours of Service (Fatigue)
    Paper logbooks offer many opportunities to play fast and loose with 
the hours of service rules. In our investigations, we repeatedly find 
that some drivers falsify their books or keep two sets of books and 
some motor carriers do not closely monitor their drivers' compliance 
with the rules. Recognizing this lack of accountability with paper 
logbooks, the Safety Board has advocated the use of on-board data 
recorders for the past 30 years.
    In 1977, the Safety Board issued its first recommendation on the 
use of on-board recording devices for hours of service compliance by 
asking the FHA to explore the merits of tachographs on reducing 
commercial vehicle accidents. Although the FHWA studied the issue, they 
did not make any changes.
    During the 1980s, the technology for on-board recorders for hours 
of service improved dramatically and the European community began 
requiring tachographs and other similar devices. In 1990, as part of a 
study on heavy truck crashes, the Safety Board recommended that FHWA 
and the states require the use of automated/tamper-proof on-board 
recording devices. This recommendation was not acted upon by the FHWA. 
In 1995, the Board reiterated this same recommendation to the FHWA and 
the states. Both failed to act.
    In 1998, the Safety Board tried a different approach, and made 
recommendations directly to industry, asking them to equip their 
commercial vehicle fleets with automated and tamper-proof on-board 
recording devices. This recommendation was opposed by the industry.
    In 2001, when the FMCSA issued a Notice of Proposed Rulemaking on 
hours of service of drivers, the Safety Board reiterated its position 
that FMCSA strongly consider mandatory use of electronic onboard 
recorders by all motor carriers. FMCSA did not incorporate this 
suggestion into the NPRM. Finally, in 2007 the FMCSA issued a proposed 
rulemaking on on-board recorders; however, there are 2 primary reasons 
why the Board felt the NPRM fell short of its intended target.
    First, the rule does not require EOBRs for hours of service for all 
commercial vehicles, but rather promotes voluntary installation and 
only requires installation for pattern violators. The Safety Board is 
concerned that pattern violators will be very difficult to identify 
without this technology and is convinced that the only effective way in 
which on-board recorders can help stem hours of service violations is 
to mandate their use by all operators.
    Second, the Safety Board would like to see damage resistance and 
data survivability included in the standards for recorder hardware.
    In summary, fatigue-related accidents continue to plague our 
Nations highways because, unlike alcohol or drugs, fatigue is extremely 
difficult to detect. In fact, fatigue is probably the most 
underreported causal factor in highway accidents. Electronic on-board 
recorders for hours of service hold the potential to efficiently and 
accurately collect and verify the hours of service for all drivers. 
They will also establish the proper incentives and create a level 
playing field for compliance with hours of service rules that will 
ultimately make our highways safer for all drivers.
Cell Phone Use by Bus Drivers
    On November 14, 2004, during daylight hours, a 44-year-old bus 
driver was operating a motorcoach in the southbound right lane of the 
George Washington Memorial Parkway in Alexandria, Virginia, taking 27 
high school students and a chaperone to Mount Vernon. This vehicle was 
the second one of a two-bus team. The motorcoach was traveling 
approximately 46 miles per hour as it approached the stone arched 
Alexandria Avenue overpass bridge, which passes over the GW Parkway. 
The bus driver passed warning signs indicating that the right lane had 
only a 10-foot, 2-inch clearance, while the center lane had a 13-foot 
4-inch clearance. The bus was 12 feet tall. The lead bus moved into the 
center lane, but the accident bus driver remained in the right lane and 
drove the bus into the underside of the bridge. Witnesses and the bus 
driver reported he was talking on a hands-free cellular telephone at 
the time of the accident. Of the 27 student passengers, 10 received 
minor injuries and 1 sustained serious injuries. The bus driver and 
chaperone were uninjured. The bus's roof was destroyed.
    The Safety Board determined that the probable cause of this 
accident was the bus driver's failure to notice and respond to posted 
low-clearance warning signs and to the bridge itself due to cognitive 
distraction resulting from conversing on a hands-free cellular 
telephone while driving.
    As a result of this accident, the Safety Board made the following 
recommendations:

  <bullet> FMCSA would publish regulations prohibiting cellular 
        telephone use by commercial driver's license holders with a 
        passenger-carrying or school bus endorsement, while driving 
        under the authority of that endorsement, except in emergencies,

  <bullet> the 50 states and the District of Columbia would enact 
        legislation to accomplish the same result at the state level,

  <bullet> the motorcoach associations, school bus organizations, and 
        unions would develop formal policies prohibiting cellular 
        telephone use by commercial driver's license holders with a 
        passenger-carrying or school bus endorsement, while driving 
        under the authority of that endorsement, except in emergencies,

  <bullet> a previously issued safety recommendation, reiterated to the 
        Safety Board, to 20 states to modify their traffic accident 
        investigation forms to include driver distraction codes, 
        including codes for interactive wireless communication device 
        use.
Motorcoach Technology Improvements
    The Safety Board believes that developing and installing new 
technologies--such as adaptive cruise control and collision warning 
systems in commercial trucks, buses, and passenger vehicles, will 
substantially reduce accidents. This assessment comes from numerous 
Board investigations. In a 2-year period, the Board investigated 9 
rear-end collisions in which 20 people died and 181 were injured. Three 
of the accidents involved buses and one accident involved 24 vehicles. 
Common to all nine accidents was the rear-following vehicle driver's 
degraded perception of traffic conditions ahead before striking other 
vehicles. These accidents did not involve the use of drugs, alcohol, or 
vehicle mechanical defects. The investigation showed that sun glare, 
fog, smoke, fatigue, distractions, and work zones interfered with a 
driver's ability to detect slow-moving or stopped traffic ahead and 
resulted in rear-end collisions. According to the DOT, preliminary 
analyses have shown that 1,836,000 police-reported crashes, or about 48 
percent of accidents, could be prevented by rear-end or run-off-the-
road and lane change collision warning systems (CWS).
    In 1995, the Board first made recommendations concerning collision-
warning systems as part of its Special Investigation of Collision 
Warning Technology. The following recommendation was made to both the 
DOT and to the Intelligent Transportation Society of America:

  <bullet> in cooperation with the Intelligent Transportation Society 
        of America, sponsor fleet testing of collision warning 
        technology through partnership projects with the commercial 
        carrier industry. Incorporate testing results into 
        demonstration and training programs to educate the potential 
        end-users of the systems (H-95-44).

    In 1999, the Safety Board held a public hearing on Advanced Safety 
Technologies for Commercial Vehicle Applications to discuss and 
highlight new and emerging technologies such as collision warning 
systems among others. In 2001, the Board issued the following 
recommendation to NHTSA as part of its 2001 Special Investigation On 
Technology To Prevention Rear-End Collisions.

  <bullet> complete rulemaking on adaptive cruise control and collision 
        warning system performance standards for new commercial 
        vehicles. At a minimum, these standards should address obstacle 
        detection distance, timing of alerts, and human factors 
        guidelines, such as the mode and type of warning (H-01-6).

    In 2007 this recommendation was added to the Board's Most Wanted 
list.
    In 2001, the DOT established an Intelligent Vehicle Initiative 
(IVI)--the goal of which was to improve the safety and efficiency of 
motor vehicle operations by reducing the probability of motor vehicle 
crashes--as a major component of the Intelligent Transportation System 
(ITS) program. As part of the IVI, NHTSA evaluated the performance of 
CWS and adaptive cruise control (ACC) by participating in field 
operational tests of vehicles equipped with advanced safety systems. In 
May 2005, NHTSA released the results of its passenger vehicle testing, 
Automotive Collision Avoidance System Field Operational Test Final 
Program Report, showing potential to reduce rear-end crashes by 10 
percent and reporting positive user reaction to the systems. The final 
report on the commercial vehicle field-testing conducted for the DOT by 
Battelle and Volvo Trucks North America, Inc., was released in January 
2007. The preliminary findings of the report indicate that a combined 
CWS and ACC bundled safety system account for a statistically 
significant reduction in rear-end crashes through reduced exposure to 
safety-critical driving scenarios.
    NHTSA, along with the FHWA, the FMCSA, and RITA, appears to be 
working consistently on this important technological safety issue. The 
preliminary results of the testing on advanced safety systems are 
encouraging, but rulemaking is needed to ensure uniformity of system 
performance standards, such as obstacle detection, timing of alerts, 
and human factors guidelines, on new passenger and commercial vehicles.
    Additionally, the Safety Board has made recommendations on 
electronic stability control to improve a vehicle's handling, 
particularly at the limits where the driver might lose control of the 
vehicle. In concert with ABS brakes, ESC senses when a vehicle is about 
to slide or yaw, and applies brakes to the proper wheels to regain 
control. The Board first made recommendations on this technology back 
when it was called ``traction control'' following a 1997 accident in 
Slinger, WI involving commercial vehicles operating under icy 
conditions. Eight fatalities occurred when a truck lost control, 
crossed a median and struck a van. In its report the Board made the 
following recommendations to NHTSA:

  <bullet> work, together with FHWA, the American Trucking 
        Associations, the International Brotherhood of Teamsters, and 
        the Motor Freight Carrier Association to conduct laboratory and 
        truck fleet testing to assess the safety benefits of adding 
        traction control devices to anti-lock brake systems and report 
        your findings to the NTSB (H-98-015),

  <bullet> work, together with the FHWA, the American Trucking 
        Association, the International Brotherhood of Teamsters, and 
        the Motor Freight Carrier Association to encourage the trucking 
        industry to gain experience with traction control devices 
        through fleet tests (H-98-016).

    To illustrate some successes the Safety Board has had in the 
passenger car area concerning electronic stability control, the Board 
made recommendations in its 2003 Largo, Maryland accident report for 
NHTSA to expand its current evaluation of electronic stability control 
systems and determine their potential for assisting drivers in 
maintaining control of passenger cars, light trucks, sport utility 
vehicles, and vans. Included in this evaluation was an accident data 
analysis of electronic stability control-equipped vehicles in the U.S. 
fleet (H-03-06).
    In April 2007, NHTSA announced that it would require ESC on all new 
cars and light trucks sold in the U.S. by September 1, 2011. 
Unfortunately, this rule only applies to passenger cars, multipurpose 
vehicles, trucks, and buses with a gross vehicle weight rating of 
10,000 pounds or less.
    In summary, the Safety Board believes that, although motorcoach 
travel is one of the safest modes of transportation, there are still 
many improvements that can be made to make it even safer.
    Mr. Chairman, this completes my statement, and I will be happy to 
respond to any questions you may have.

    Senator Lautenberg. Thank you, Mr. Rosenker.
    Mr. Kelly?

   STATEMENT OF DAVID KELLY, ACTING ADMINISTRATOR, NATIONAL 
             HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Kelly. Thank you, Chairman Lautenberg, Senator 
Hutchison. I appreciate the opportunity to appear before you 
today to discuss the important issue of motorcoach safety.
    Every death and serious injury that occurs on our roads is 
a tragedy. Myself and all of the NHTSA employees who dedicate 
our careers to saving lives share the same feelings of concern 
and empathy for the individuals and families who have been 
tragically affected by these crashes, especially when our most 
valuable resource, children, are involved. We know that one 
death is too many, and I extend my deepest condolences to each 
of them. They also have our commitment that we will continue to 
work to make sure fewer families will have to suffer their same 
pain.
    Over the past several years, NHTSA has been very focused in 
our efforts to improve motorcoach safety. In April 2002, we 
began a joint research program with Transport Canada that was 
an outreach of a public hearing that we had, again with 
Transport Canada, to look at window glazing. With input from 
that meeting and from further study, we then moved on in 2006 
to look at other occupant restraint and protection devices. We 
reexamined our priorities and we also developed NHTSA's 
approach for motorcoach safety. That was released in August 
2007, and in that report, we focused our efforts on four 
priorities: safety belts, roof strength, emergency evacuation, 
and fire protection. I am pleased to say we are making progress 
in each of those areas.
    Just last December, we conducted our first-ever motorcoach 
crash test. This test was a full frontal barrier crash at 30 
miles per hour with 22 crash chest dummies aboard in a variety 
of seat designs, seating configurations and restraint use. We 
expect to have the analysis from this crash completed in 
December.
    Additionally, we know that maintaining the integrity of 
roof structure is important. We conducted tests on four 
motorcoaches this February and are now assessing those results 
to determine our next steps. Our plan is to make a decision on 
roof strength next spring.
    Further, when a crash does occur, getting passengers out 
quickly must be a priority. We are currently conducting human 
evacuation studies and simulations that take into consideration 
various emergency exit scenarios and the special needs of young 
and elderly passengers.
    Finally, NHTSA has contracted with the National Institute 
for Standards and Technology to conduct fire safety research. 
This study is designed to review existing motorcoach 
flammability standards and procedures and determine which might 
be the most effective way to improve motorcoach safety.
    Mr. Chairman, thank you for your consideration and the 
Subcommittee's ongoing efforts to improve highway safety. I 
would be pleased to answer any questions.
    [The prepared statement of Mr. Kelly follows:]

       Prepared Statement of David Kelly, Acting Administrator, 
             National Highway Traffic Safety Administration
    Mr. Chairman, I am David Kelly, Acting Administrator for the 
National Highway Traffic Safety Administration. I appreciate the 
opportunity to appear before the Subcommittee to discuss the important 
issue of bus safety, and particularly motorcoach safety.
    Every death and serious injury that occurs on our roads is a 
tragedy. I share the same feelings of concern and empathy for the 
individuals and families who have been tragically affected by these 
crashes, especially when our most valuable resource, children, are 
involved. I extend my deepest condolences to each of them.
    Over the past several years, NHTSA has been very focused in our 
efforts to improve motorcoach occupant protection. In April 2002, NHTSA 
sponsored a joint public meeting with Transport Canada to hear the 
views and comments from motorcoach manufacturers, operators, users, and 
the public at large in order to be better informed of their specific 
needs, and to help us determine what improvements in motorcoach 
passenger crash protection standards were most warranted. With input 
from that meeting, NHTSA and Transport Canada entered into a joint 
program in April 2003 that was completed in September 2006.
    The joint program with Transport Canada focused on improving 
glazing and structural integrity on motorcoaches to prevent ejections 
through the use of modified window glazing materials and bonding 
techniques. There were several reasons the program was focused in this 
way:

        1. Both Transport Canada and NHTSA had observed ejections 
        through windows in motorcoach crashes.

        2. Several NTSB safety recommendations have been concerned with 
        glazing, window exits, structural integrity, roof strength, and 
        survival space.

        3. Focusing the joint program on this area seemed the best way 
        to address a broad array of the issues that had been raised by 
        NTSB, and improve occupant protection for all crash conditions.

    The joint study concluded that considerably more effort would be 
needed to develop performance requirements that would have a reasonable 
possibility of being effective.
    Completion of the joint study with Transport Canada coincided with 
completion of an internal NHTSA review of emergency egress and 
flammability requirements that are applicable to motorcoaches, as well 
as the NTSB hearing on the tragic motorcoach fire that occurred in 
Wilmer, TX during the evacuation for Hurricane Rita. The testimony from 
the Wilmer NTSB hearing, in addition to the Transport Canada and 
internal agency reviews, caused NHTSA to reexamine our priorities for 
improving motorcoach safety. After completing a comprehensive review, 
we developed NHTSA's Approach to Motorcoach Safety, which was made 
public in August 2007. Our objectives in developing the safety plan 
were to review motorcoach safety issues and develop approaches directed 
to the areas that have the greatest potential for achieving improved 
motorcoach safety most quickly. NHTSA is making significant progress in 
our major research effort into passenger protection for motorcoaches in 
crashes. Four strategies the agency is pursuing on a priority basis are 
seat belts, roof strength, emergency evacuation, and fire safety 
protection.
    We have been conducting various crash and related tests to 
determine the best strategies for enhancing passenger safety, 
especially ways to prevent passenger ejections in crashes, such as 
through the use of seat belts. In December 2007, the first motorcoach 
crash test ever conducted by the agency was completed. The test was a 
full frontal barrier crash at 30 miles per hour with 22 crash test 
dummies aboard in a variety of seat designs, seating configurations, 
and restraint usage. Using the crash information from this test, 
additional sled tests were conducted during this past summer to 
determine the forces transmitted through the seat and seat anchorages 
under this full frontal crash condition, as well as experienced under 
different crash velocities, impact angles, and restraint conditions. 
Component tests are now underway to assess the feasibility of 
developing a performance procedure. Once those tests are completed this 
fall, and if the test data indicate feasibility, initiation of 
rulemaking proceedings could then occur.
    In the area of roof strength, we conducted tests on four 
motorcoaches in February. Those tests were designed to bracket 
motorcoach body styles (i.e., short vs. long window spacing) for a 
comparison of U.S. school bus and European roof strength procedures to 
determine the relative stringency and practicability of those differing 
requirements in applicability to motorcoaches. We are now assessing 
those results to determine our next steps.
    Emergency evacuation studies are underway to identify studies from 
other transportation modes and countries and then determine 
applicability to motorcoaches. This involves conducting human 
evacuation studies and simulations under various emergency exit 
scenarios. Another aspect of this effort is to examine the minimum 
strength requirements necessary to open emergency exits, with special 
consideration for young and elderly occupants and the need to balance 
rapid emergency egress with containment requirements to prevent 
ejection.
    Finally, NHTSA has contracted with the National Institutes for 
Standards and Technology to conduct the fire safety aspects of our 
motorcoach safety effort. This study is designed to review existing 
flammability standards and procedures and determine which might be most 
applicable to improve motorcoach safety. Research on motorcoach fire 
propagation properties will examine the U.S. vs. European procedures 
for vehicle interior materials. Wheel well mockup studies will be 
conducted on the tires, fuel and HVAC lines, external body panels, 
insulation, and wiring. Those tests will measure flame temperatures, 
heat release, fire resistance of components, and propagation to the 
passenger compartment. Countermeasure assessments will also be examined 
for fire hardening, fire detection, and fire suppression strategies.
    Mr. Chairman, thank you for your consideration and this 
Subcommittee's ongoing efforts to improve highway safety. I would be 
pleased to answer any questions.

    Senator Lautenberg. Thank you all very much.
    Mr. Hill, after you discovered in the Sherman, Texas crash 
this summer, in which it appears an operator whose license had 
been revoked simply got a new registration number--how does 
this happen? And what do we have to do to prevent this from 
happening again?
    Mr. Hill. Mr. Chairman, thank you for the question. I would 
just point out that even though they had a USDOT number, they 
were not legally prepared to operate. They had not fulfilled 
their licensing requirement. One of the things that we have in 
our current computer system is that people can apply for USDOT 
numbers, but they also have to have operating authority, and 
until they complete the operating authority process, they are 
not permitted to conduct interstate commerce.
    Senator Lautenberg. How intense is the review for operating 
authority permission? What do you do to satisfy that this is 
someone who is qualified to operate a bus service?
    Mr. Hill. Every motor carrier coming into the business has 
to show, first of all, that they have the financial wherewithal 
to engage in that business to protect the people that they are 
carrying. So they are required to file $5 million worth of 
insurance with the agency before they are ever allowed to 
operate.
    Second, they have to disclose to us information through an 
application process that will allow us to verify information 
that they are providing has not been falsified or is in any way 
recreating themselves as a new carrier. One of the things that 
we have instituted as a result of ongoing evaluation of our 
process is to make sure that we vet these a lot more carefully 
on the front end.
    Even though it would not have stopped the Sherman crash--
this person was intent on running anyway--we believe that we 
can prevent future crashes by lengthening the time of review 
that allows for us to properly investigate each one of the 
passenger carrier applications. There are about 875 of them a 
year.
    Senator Lautenberg. Well, does that review involve a 
physical visit to the home location? I recognize that with a 
very small operation that--these applications come in fairly 
frequently. But how do you be certain that there are not 
violations of law in the application itself. But do people from 
your office physically visit these folks? Are they asked to 
come in and have a conversation?
    Mr. Hill. Yes, Mr. Chairman. Let me point to two things.
    First of all, in the vetting process to evaluate fitness 
for operating authority, we are looking at not only the 
application process, but we are sending the information to our 
field offices because they have routine contact with carriers 
that are trying to evade enforcement activities or compliance. 
So they would be familiar with names or carriers that are 
already in operation. So we require them or the State 
enforcement people to look at the application, give us any 
information they might have about the applicant. That is the 
first step.
    And then we run them against our data bases for any kind of 
addresses, telephone numbers, or anything that would be an 
identifier that would indicate that this newly created carrier 
is trying to evade an out-of-service order or any kind of 
enforcement case penalty that has previously been issued to 
them. So that is the one side of the authority vetting process.
    The other side is that we are also doing new entrant safety 
audits, and the law requires us to do those within 18 months, 
as I said in my statement. We are going to these carriers 
within 5 months after we get notice that they are applying. We 
are visiting their place of business. We physically go. We 
interview the owner or the safety manager responsible for that 
company and we take information from them.
    Senator Lautenberg. Well, in most states, cars capable of 
carrying only five people must pass a government inspection to 
be legally registered and driven. This is an automobile. Your 
agency, however, allows bus companies to annually inspect their 
vehicles themselves, and they carry up to 56 passengers.
    Now, we learned a lesson with the airlines that when it 
comes to the safety of the traveling public, you cannot simply 
trust the companies to self-certify that important safety tests 
have been done correctly.
    You have 40,000 annual inspections that are being done by 
4,000 U.S. motorcoach companies. How do you know they are being 
done properly?
    Mr. Hill. Well, that is why we have a roadside inspection 
program, Mr. Chairman. We have increased our roadside 
inspection activities significantly in the last 3 years.
    Senator Lautenberg. How many of those inspections do you 
conduct in a year?
    Mr. Hill. Well, this year so far we have done 140,000 
inspections on buses in this country, and previously----
    Senator Lautenberg. With how many people?
    Mr. Hill. Well, there are approximately 9,000----
    Senator Lautenberg. No, no. In your organization.
    Mr. Hill. We only do a small percentage of the inspections 
along the southern border. Primarily, we do bus inspections 
with about 270 people. I think we do 30,000 to 35,000 
inspections along the southern border. But nationally the 
numbers that I am giving you of 140,000--those are 
representative of State inspections as well.
    Senator Lautenberg. Can they be thorough with that number 
of people and those number inspections required?
    Mr. Hill. Well, these inspections require about 30 to 45 
minutes to go through them. I personally used to be certified 
in the process. It requires checking of 32 different items on a 
motorcoach or a bus. And yes, they are very thorough and they 
do find violations regularly.
    Senator Lautenberg. I will take a minute more. Senator 
Hutchison, when you choose, we will give you the time you need.
    Mr. Rosenker, how do we know that an annual inspection is 
adequate at all given the number of miles some of these buses 
put on in a particular year, and should they be done more 
frequently? And from your standpoint, are these thorough 
enough?
    Mr. Rosenker. Mr. Chairman, we have been concerned about 
two particular elements of motorcoach safety and oversight by 
FMCSA. One area of concern is, specifically, the driver 
himself. Is he qualified? Is he medically fit? Does he have a 
performance record that enables him to drive safely? And on the 
other side, the maintenance and mechanics of the vehicle 
itself. In addition, we have made recommendations to FMCSA and 
they have made progress on those, but we continue to see that 
more needs to be done in the area of oversight as it relates to 
maintenance.
    Senator Lautenberg. Is that numbers of inspections or more 
detail in the inspection?
    Mr. Rosenker. Both, sir.
    Senator Lautenberg. Mr. Hill, just a month after the tragic 
Bluffton University chartered motorcoach crash, your agency 
gave the bus company involved a satisfactory safety rating. 
According to the NTSB in its July 2008 report on the crash, the 
safety audit performed found several serious safety violations. 
Does that not tell you that there is a problem with the rating 
system when a company like this is allowed to keep going?
    Mr. Hill. Mr. Chairman, one of the issues that we have been 
working to resolve is an open recommendation with the National 
Transportation Safety Board on the evaluation of safety fitness 
for motor carriers. We inaugurated a study and a program change 
into the way we are going to be implementing safety fitness in 
the future. It is called the Comprehensive Safety Analysis 
2010. We are expecting a rulemaking to be published in early 
2009 that would begin to start the safety rating process 
review. So instead of rating carriers with only acute and 
critical violations, as you referred to in your comments about 
the Bluffton company, we will be rating companies based upon 
violations that are found at the roadside, as well as what are 
found in terms of the compliance review process. We will have a 
much more comprehensive review and safety rating methodology, 
and, it will include driver fitness factors, not just equipment 
factors and company factors.
    Senator Lautenberg. So that suggests that at this point in 
time that we are lacking some part of a proper review. You talk 
about 2010.
    Mr. Hill. We have observed a deficiency in our safety 
rating process, and we believe that it needed to be reformed 
and that is why we took the action to do that. It started 
several years ago, and my predecessor and I have been quite 
diligent to ensure that that is not going to slip in time 
lines, and we are going to get it implemented.
    Senator Lautenberg. So there perhaps is a risk that we 
endure until we have a chance to bring up the standards as you 
would like to see them?
    Mr. Hill. Well, actually I do not think that I would 
characterize it as enduring. We are already doing a pilot 
program in the state of New Jersey as one state to test this 
safety fitness. So we are actually working the safety fitness 
process right now with four states in the country, and we are 
going to roll that out even further as we move along.
    Senator Lautenberg. And I will close with asking Mr. Kelly 
a question. Since a number of injuries and fatalities involved 
passengers being ejected from the bus--it seems everyone agrees 
with that, and the legislation proposed by Senator Hutchison 
focuses on that as well--why does your agency not require seat 
belts to be made available on buses for passengers?
    Mr. Kelly. Thank you, Senator Lautenberg.
    We have been looking at the issue of seat belts on 
motorcoaches, especially as a result of the crash test that we 
did last December where we got over 4 million data points from 
that one crash alone. We had every configuration that you could 
think of about belted and unbelted passengers. We had unbelted 
passengers behind a belted passenger. And I have some video 
that I would like to submit to the record at some point of the 
crash test.<SUP>*</SUP> And you can see in the crash the 
unbelted passengers, obviously, fared much worse than the 
belted passengers.
---------------------------------------------------------------------------
    \*\ This video is retained in Committee files.
---------------------------------------------------------------------------
    What we need to do with that data is develop 
recommendations and finish analyzing it. If we are going to 
move forward with the rulemaking process, we are going to have 
to develop a standard, a performance evaluation for the seat 
belts to meet. And that is what we are doing right now, and 
that is what we intend to have done in December.
    Senator Lautenberg. So we know about the importance of 
them, and we just have to get to that. Thank you.
    Senator Hutchison?
    Senator Hutchison. Thank you.
    I would just like to follow up on that. You have said in 
your testimony that you have been studying this for quite a 
while, starting with your--well, you have been looking at it 
even before your meeting with the Canadian officials. But my 
question is, from the data that you have gotten, you said you 
expect to have exactly what done in December? The standards set 
and that you would be able to go out with a rulemaking, or what 
is your time line for a process to go forward on seat belts if 
you think you are going to make that decision?
    Mr. Kelly. Thank you, Senator.
    What we plan to do is to take the data from the test, from 
the crash test, and not only the data that we got from that 
test, but also subsequent sled testing and component testing 
that we did throughout this past year, and take that data and 
come up with really a performance standard by which, if we are 
going to move forward, that is what we would do in a rulemaking 
process. That is what we would set so manufacturers know what 
they would need to manufacture toward.
    But there is all of that data that we are analyzing. That 4 
million data points that I mentioned before is 300 times more 
data than we get in any one single crash test that we do with a 
regular car. So the volume of data there is extensive for us to 
be evaluating and moving forward on.
    Senator Hutchison. That was done in--when was----
    Mr. Kelly. That was done in December 2007, 10 months ago.
    Senator Hutchison. And that seems like a reasonable time to 
look at the data and make that determination?
    Mr. Kelly. With that much data and with the subsequent 
testing that we did with the sled tests and the component 
testing that we have been doing over the spring and early 
summer, yes. We think that is a quick turnaround on the data 
actually.
    Senator Hutchison. Have you made a decision about whether 
you would do a rulemaking on providing safety belts?
    Mr. Kelly. We have not made that decision as to whether we 
would move forward with a rulemaking. We are still looking at 
the performance standard. Moving forward with a rulemaking 
process is a cumbersome process. What we need to first do is 
determine what the data tells us, and we are still evaluating 
that data.
    Senator Hutchison. If we were to pass the legislation that 
Senator Brown and I have introduced, you could use the data 
that you already have in place for the implementation of a 
rulemaking. Is that correct?
    Mr. Kelly. Absolutely.
    Senator Hutchison. Let me ask you. Have all three of you 
looked at my legislation? I would like to ask each of you to 
tell us what you think is good about the bill and if you have 
concerns of any part of the bill.
    Mr. Rosenker. I have looked at the legislation. I have seen 
a number of drafts. I am not in full knowledge of exactly what 
each and every one of the provision is ultimately going to be 
look like.
    But I can tell you that the body of this legislation 
basically incorporates a great deal of what the NTSB has been 
recommending both to my colleague at the FMCSA and also my 
colleague at the National Highway Traffic Safety 
Administration. If we can get this legislation passed, I 
genuinely believe we will be taking--not one step, but many, 
many, many steps toward either preventing accidents from 
happening because of the technological aspects of the 
provisions or mitigating accidents that we cannot prevent.
    So I personally and my colleagues at the Board are quite 
supportive of the provisions and the concepts which have been 
developed so far in this legislation. We applaud your work, and 
we also applaud Senator Brown's work. We would encourage a 
quick passage of this legislation because it will begin the 
process of accident elimination and mitigation.
    Senator Hutchison. Thank you very much.
    Mr. Kelly. Senator Hutchison, we have also been looking at 
the bill and also working with your staff and Committee staff 
on the bill and also applaud the intentions of the bill. We 
think that it provides additional safety for motorcoach 
passengers.
    We have also gone through various drafts of the bill, and I 
am not exactly sure which version we are talking about at this 
point. But we have shared with your staff some of the concerns 
that we had which were more technical in nature, time lines, 
performance standards, and things like that. As a whole, I 
think that the bill is a step in the right direction about 
providing additional benefits and I think is something that we 
are more than willing to continue to work with you and your 
staff with.
    Senator Hutchison. Let me ask you this, and then I do want 
to hear from Mr. Hill. But let ask you. Seat belts. I think we 
are in general agreement that--you have seen results that show 
a major improvement. I do not want to put words in your mouth, 
but you have seen from your tests that there is a major 
improvement between passengers that are restrained and those 
that are not. So I think we can agree that seat belts will 
improve safety and you have to get the right standards and all 
of that.
    Integrity of windows, the window glazing. Is that something 
that you also see as a potential lifesaver in the data that you 
have seen or in the NTSB reports that you have seen?
    Mr. Kelly. We do not see as much benefit out of the window 
glazing for the side windows as we do for occupant protection. 
And one of the reasons is because in the testing that we have 
done and that we have seen in the work that we did with 
Transport Canada, it was not as much of an issue where the 
window was breaking or shattering, it was an issue of where the 
entire windowpane was popping out and you would still have the 
hole in the side for the ejection. And glazing was not helping. 
It is sort of like an ice cube tray with ice cubes when you 
start wiggling the sides and they all pop out. I think that 
there are greater benefits to be had with window retention as 
opposed to glazing.
    Senator Hutchison. OK.
    Mr. Rosenker, are you in agreement on window integrity so 
that they would not pop out as a larger goal over glazing?
    Mr. Rosenker. Our position for close to a decade is that we 
take a systems approach to mitigating the results of a terrible 
crash or a rollover where potentially people can be ejected. 
While Mr. Kelly talks about making sure that the window stays 
in place, we want to make sure that if the window stays in 
place, it has the integrity that is needed so that the 
passenger does not go through the window. So we stand by our 
position in glazing.
    But we also talk about the need for an appropriate occupant 
protection system; a combination of things which would 
potentially include a number of design improvements. We like, 
as you have even talked about in your legislation, 
strengthening the roof so that it cannot be crushed into the 
compartment area. It has got to be a scientifically designed 
system that incorporates all of the latest technology in 
occupant protection.
    We applaud the work that is being done in this effort, and 
we would hope that this could be done in an expeditious manner. 
We do know that these technologies exists not only in the 
United States, but also in Europe.
    Senator Hutchison. Mr. Hill, I know your area is a little 
different, and what you and I have talked about, the 
stabilization technology--so if you would talk about, from your 
standpoint, what you think is helpful in the bill and if there 
are any concerns that you have.
    Mr. Hill. Well, first of all, Senator Hutchison, thank you 
for taking the initiative to think about motorcoach safety. I 
know your state has experienced tragedy in this area, but I 
applaud you for moving ahead with this.
    I would just say that we support many of the provisions of 
this bill and we have been working with your staff and will 
continue to provide specific information. Let me just point out 
a couple things.
    We are moving forward with the medical certification rule 
that would merge the CDL process, the licensing process, with 
the medical process. That will be a final rule and it will be 
issued later this year.
    We are issuing a notice of proposed rulemaking later this 
year on the registry of medical examiners, and so that will 
give us a database that will allow us to track who is doing 
medical exams, and if they are doing them correctly. The 
examiners will be certified or accredited in order to perform 
those exams.
    So those are two main provisions that I think your bill 
addresses.
    One of the things that your bill also does is it deals with 
electronic on-board recorders, and we are going to be 
publishing a final rule this year. And I would just say that if 
you want to mandate, that would go beyond what our rule 
eventually does, then that would be something that we would 
have to take into consideration and issue interim guidance on.
    Senator Hutchison. So you are going to be doing something 
in that area at the end of this year?
    Mr. Hill. Yes, ma'am, the final rule.
    Senator Hutchison. Final rule or NPRM?
    Mr. Hill. Final rule, electronic on-board recorders.
    Senator Hutchison. Oh, good.
    Mr. Hill. The chairman held a hearing earlier about this 
and admonished us to move that along.
    Senator Hutchison. Good.
    Mr. Hill. And then I would just say the one provision of 
the bill that we would want to make sure that we can finesse 
and work together is our Comprehensive Safety Analysis 2010, 
redesign of our safety fitness program the Chairman was just 
questioning me about. We would want to make sure that the 
contents of this bill allow us to continue with that 
modernization of our safety fitness and not have two different 
kinds of rating systems that would be in place. But I am sure 
that we could discuss that and come to some resolution. But we 
applaud the Committee for moving ahead.
    Senator Hutchison. All right. Well, those were the major 
things that I have.
    Mr. Chairman, I have to step out. We are trying to finish 
this tax extender negotiation for some of our people here, our 
victims of Hurricane Ike. And I am trying to get some disaster 
protection. So I am going to have to step out.
    But I thank you very much. I am going to try to step back 
in, but I really appreciate that what I am hearing is that all 
three of you believe that we can take some major steps forward 
with the legislation. And if you all can beat us to the punch 
with a rulemaking, it is good, but if you cannot, whatever 
status you are in will make the time table more doable. So I 
think that we are all going to work together here to enhance 
safety and that is a good thing. So thank you very much.
    Senator Lautenberg. Thank you, Senator Hutchison. The 
legislation sounds like it has a real good purpose and will 
make bus riding safer, and that is a perfect objective for 
legislation.
    Senator Hutchison. I will look forward to working with you, 
Mr. Chairman.
    Senator Lautenberg. And good luck with the tax extenders. 
Go, please.
    [Applause.]
    Senator Lautenberg. Now I thank you very much, members of 
the panel.
    And we will now invite the members of the second panel to 
come to the witness table. They bring a combination of policy 
expertise and personal experience to the issue, and we look 
forward to hearing from them.
    Mr. Peter Pantuso, the President and CEO of the American 
Bus Association. Mr. Pantuso will share with us the industry's 
plan for improving our Federal motorcoach safety programs.
    Ms. Jackie Gillan, Vice President of Advocates for Highway 
and Auto Safety. She is a longtime fighter for more safety on 
the road. We know each other from our work for safety and 
protection of the people in transportation and for cars, 
trucks, buses alike, and we welcome your ideas.
    And we have Mr. Steve Forman. Is Mr. Forman here? Well, the 
one that has your name on it is the one you are choosing if you 
are Mr. Forman. And we are happy to have your testimony. We 
know that your daughter was injured last year when the school 
bus that her team was riding rolled over in Devers, Texas.
    And Mr. John Betts will testify about the Bluffton 
University baseball accident. Mr. Betts' son David died when 
the bus carrying the Bluffton baseball team drove off a highway 
overpass in Atlanta, Georgia.
    And I express to all of you who had a family member, a 
friend who was injured or was killed--we appreciate the fact 
that you are willing to be here today and do not want to see 
any other family suffer the loss and anguish that you 
experienced. I thank all of you for being here.
    Mr. Pantuso, if you would, you may begin. We have a 5-
minute limit. I am usually fairly generous, but not too much 
so. So red means put on the brakes. Thank you and please give 
us your testimony.

STATEMENT OF PETER J. PANTUSO, PRESIDENT AND CEO, AMERICAN BUS 
                          ASSOCIATION

    Mr. Pantuso. Mr. Chairman, thank you very much for your 
leadership in convening this hearing. The American Bus 
Association represents 800 bus companies who operate nearly 
two-thirds of all the motorcoaches on the road. The motorcoach 
industry is diverse and its bedrock is small businesses. In 
fact, a typical company has fewer than five coaches. 
Collectively these companies, though, provide more than 700 
million passenger trips annually, as many as provided by the 
airlines.
    Mr. Chairman, let me be very clear. The bus industry does 
not oppose seat belts. What we do favor is rigorous scientific 
research before arriving at any conclusions. And what we do 
oppose is a rush to judgment.
    Safety is our number one priority and always has been. It 
is not just enough that Government statistics show the bus is 
the safest way to travel, as was reaffirmed earlier by 
Administrator Hill and Chairman Rosenker. We want to be even 
safer. However, recent bus crashes illustrate that there are 
bus companies that should never have been allowed to be on the 
road.
    ABA promotes safety through its Bus Industry Safety Council 
comprised on safety experts, associations, engineers, and 
government agencies, including NHTSA, NTSB, and FMCSA. ABA is a 
member of FMCSA's Safety Advisory Committee and has recommended 
stepped-up inspections.
    The heart of this issue is unsafe operators, combined with 
a lack of enforcement, lack of cooperation between Federal and 
State agencies. Today a new bus company need only file an 
application, pay a $300 fee, and provide temporary proof of 
insurance to be granted Federal operating authority. An 
inspection of a carrier's equipment and personnel and records 
can take up to 18 months after authority is granted. It is 
difficult to imagine the FAA granting an application for an 
airline without prior review of its fitness to operate.
    Following the horrific crash by an illegal operator in 
Sherman, Texas, Administrator Hill froze applications for new 
bus companies' operating authority, a critical first step. But 
more must be done.
    The record shows that some of the most serious bus 
accidents were a result of carriers who were operating 
illegally or had a record of safety violations. Earlier this 
week, the ABA proposed a plan to enhance bus safety by getting 
illegal, unsafe operators off the road and increasing 
enforcement of existing laws. And I ask that plan be attributed 
to my testimony and appended to my testimony.
    Elements of the plan include that FMCSA must ensure that 
the $300 million going to states for inspections include buses, 
not just trucks. A State-by-State patchwork quilt of 
enforcement is completely unacceptable. Therefore, FMCSA and 
State law enforcement officials must work together and share 
information so that another Sherman, Texas crash never happens. 
Illegal and unsafe operators involved in fatal crashes should 
be charged with Federal crimes and prosecuted to the maximum 
extent of the law.
    ABA is eager to work with Congress to make bus 
transportation safer. The late Congressman Paul Gillmor from 
Ohio started us on a road to a bipartisan bill for bus safety. 
Congressman Bill Shuster and other House members came together 
and introduced H.R. 4690 which provides NHTSA with time and 
resources to research safety issues and develop new standards. 
It also provides a phase-in period for manufacturers and 
operators to meet the new standards, as well as an investment 
of Federal funds so that buses can be retrofit in a very timely 
fashion. During this period, states should be also prevented 
from imposing new regulations so that bus operators are not 
subject to inconsistent or contradictory standards across the 
country.
    But that is just the beginning, Mr. Chairman. Bus safety 
requires a holistic approach. Safety equipment cannot be bolted 
onto a vehicle. It must be engineered into the vehicle's 
architecture.
    NHTSA finally began bus research last year, after a decade 
of prompting by the bus industry, the first time they have 
moved on this issue in history. Now they need the time to 
complete their work. One cannot rush safety research or put a 
time table on science. Safety is just too important to be left 
to intuition, to chance, or even to educated guesses. Safety 
demands rigorous testing.
    We welcome the opportunity to work with you, Mr. Chairman, 
and the Committee for a safer bus industry. We appreciate the 
opportunity to be here.
    [The prepared statement of Mr. Pantuso follows:]

      Prepared Statement of Peter J. Pantuso, President and CEO, 
                        American Bus Association
Introduction
    Mr. Chairman and members of the Subcommittee, my name is Peter J. 
Pantuso and I serve as the President and Chief Executive Officer of the 
American Bus Association (ABA). The ABA and its 3800 members would like 
to thank you, Mr. Chairman for your leadership in convening this 
hearing. The ABA appreciates the opportunity to testify on the issue of 
bus and motor carrier safety and to work with you, the Committee and 
the Congress on the reauthorization of the Nation's transportation 
programs in the coming year.
    We also come before you today representing the interests of the 
entire industry including the National Tour Association and the United 
Motorcoach Association. Both organizations are equally concerned about 
safe motorcoach travel and each represents significant motorcoach 
companies. For its part the ABA is the national trade association for 
the independent, private over-the-road bus industry. ABA is a voluntary 
organization comprised of companies that operate buses and provide 
related services to the motorcoach industry. Our bus operator members, 
of which there are 850, operate 40 to 45 foot touring coaches with 
baggage bays under a passenger compartment. These operators also 
represent nearly sixty-five percent of all motorcoaches on the road 
today in North America. Nearly all of these operator members provide 
charter and tour service (like Coach America located in Texas) commuter 
service (like Academy Bus Lines in New Jersey) and some 100 ABA member 
companies provide regular route scheduled service like Trailways and 
Greyhound. The American motorcoach industry is diverse but its bedrock 
is small business men and women. ABA's average member has eight 
motorcoaches or fewer. Our operator members provide local, regional and 
national services. Together ABA members provide all manner of bus 
services and provide in excess of seven hundred million passenger trips 
annually, a number which approximates the number of passengers carried 
by U.S. airlines in any given year. In addition, we move more 
passengers in 2 weeks than Amtrak does in a year.
    Chief among our duties is providing charter and tour services to 
the Nation. We bring families, school groups and senior citizens 
together for tours, family reunions, festivals, sporting events, fairs 
and to see the beauty of our country. ABA members will provide these 
services safely. We do so because it is a part of ABA's mission, i.e., 
to provide safe trips to all our passengers and because our families, 
neighbors and friends ride with us every day. ABA believes that there 
is no margin for error in safety; we must be safe and even one accident 
tarnishes the industry. The problem today is that there has been a 
spate of accidents by bus companies that should not have been on the 
road.
ABA and Bus Safety
    ABA promotes safety in the industry is several ways. First, ABA 
long ago established the Bus Industry Safety Council (BISC). This 
organization is composed of the safety directors of bus companies and 
key representatives from bus industry suppliers, and state and Federal 
Government agencies. BISC meets at least twice a year to discuss and 
provide guidance and best practices on industry safety issues. At 
BISC's July meeting there were discussions and panels led by or 
participated in by the Federal Motor Carrier Safety Administration 
(FMCSA), National Highway Traffic Safety Administration (NHTSA) and the 
National Transportation Safety Board (NTSB). It is important to note 
that BISC is open to all bus operators and all those interested in bus 
safety whether or not they are members of the ABA.
    ABA's commitment to safety goes beyond BISC. ABA led the fight 
against dangerous roadside inspections which required buses to unload 
their passengers by the side of the road in traffic while buses were 
inspected. The fact of youngsters and senior citizens along the road 
while cars and trucks passed by at 70 miles per hour was an accident 
waiting to happen. Earlier this summer, ABA was instrumental in 
securing the passage of H.R. 3985 (P.L. 110-219) which requires FMCSA 
to certify the willingness and ability of motor carriers to abide by 
the Americans with Disabilities Act (ADA) before the agency grants that 
carrier authority to operate. And we advanced that legislation in the 
face of some opposition within the bus industry. Indeed, before 
drafting that legislation, ABA sued the FMCSA seeking to enforce the 
ADA, a suit the FMCSA and the Department of Transportation vigorously 
opposed.
    In addition, through the ABA, the independent, private bus industry 
is a member of FMCSA's Motor Carrier Safety Advisory Committee (MCSAC). 
This Federal advisory committee meets each quarter to evaluate and 
provide recommendations to the FMCSA Administrator on safety issues. 
Moreover, the MCSAC engages in determining how best to extend the 
agency's resources to advance safe bus and truck operations. ABA 
participates in the MCSAC with the American Trucking Associations, the 
Advocates for Highway and Auto Safety, Road Safe America and several 
state law enforcement agencies. Several ABA recommendations to FMCSA, 
for example, increasing bus inspections, have been included in the 
FMCSA's list of recommendations for the reauthorization of the Nation's 
transportation programs scheduled for next year. Reauthorization looms 
large in ABA's plans for safer buses and safer operators and in ABA's 
view enforcement of current bus safety standards is key to safe bus 
operators.
Enforcement is Critical
    ABA believes strongly that the heart of the problem of accidents 
and fatalities are unsafe operators and the lack of FMCSA's and state 
enforcement officials' attention to a motor carriers' safety fitness 
prior to granting authority to operate. There is also a lack of 
cooperation between the Federal Government and the states in getting 
unfit bus companies off of the nation's highways. It is difficult to 
see the FAA granting an application for an air carrier without a prior 
review of its fitness to operate but that is essentially what happens 
to bus applicants.
    Today, a person seeking authority to operate need only file an 
application, pay a fee of three hundred dollars and provide proof of 
insurance (five million dollars); an applicant gains operating 
authority before it can be shown that he or she is a safe operator. Any 
inspection of a carrier's equipment, personnel or records can take up 
to 18 months after authority is granted, a regulatory scheme that puts 
the cart before the horse and opens the public to unsafe operators.
    FMCSA has released statistics which reveal that in 2007 the number 
of applications for new and expanded regular route authority amounted 
to almost 50 percent of the industry. And still there is no 
investigation of fitness before authority is granted. Recently, 
following the horrific accident in Texas, FMCSA Administrator Hill 
froze the processing of all applications for passenger carrier 
authority while he addresses the issues surrounding the unprecedented 
number of applications. We applaud Administrator Hill for taking this 
bold step. This demonstrates that FMCSA itself has focused on the need 
to address the entry issue.
    How important is it to certify a carrier's safety fitness prior to 
granting authority? ABA has determined that over the last decade each 
of the most serious bus accidents were the product of carriers who were 
either operating illegally or had serious pre-existing safety issues. 
Inspecting a carrier before it begins operations and requiring periodic 
inspections thereafter would help reduce this toll of lives and 
accidents. ABA believes that any examination of a carrier's safety 
fitness must include a review of the operator's safety management 
program and a physical inspection of the operator's vehicles. Our 
proposed inspection process is virtually identical to the process now 
used by the Department of Defense (DOD) to vet motor carriers which 
seek to transport military personnel. The DOD contracts with third 
party inspectors to carry out these inspections, something we have long 
advocated to FMCSA.
    Second, FMCSA must implement the authority given it in SAFETEA-LU 
to deny authority to individuals who startup new bus companies after 
already developing bad safety records at prior companies. It appears 
that the most recent accident was the product of this type of operator.
    Third, Congress should require that states enforce any interstate 
shutdown orders from FMCSA and cancel any intrastate operating 
authority issued to bus companies whose interstate operating authority 
is terminated by FMCSA or whose interstate application is denied on 
fitness grounds. This is a particular problem in states with extensive 
intrastate operations. The states must become more aggressive in 
confiscating the license plates and vehicle registrations for non-
compliant carriers.
    Fourth, Congress should require that FMCSA and the states ensure 
that carriers applying for private charter authority do not use that 
authority to provide common carrier, scheduled or fixed route service 
open to the general public. This is a particular problem in the Border 
States. Even though cross-border, fixed route bus authority grants are 
frozen under NAFTA, charter applications are not. Thus, carriers on 
both sides of the border get charter authority from FMCSA and then run 
fixed route service with no effort to prevent these illegal operations.
    Fifth, the Motor Carrier Safety Assistance Program (MCSAP) provides 
the states with Federal dollars to support a bus inspection program. In 
ABA's view only a handful of states have an effective bus inspection 
program. The states must demonstrate that they have effective bus 
inspection programs. States are provided funds through the Motor 
Carrier Safety Assistance Program (MCSAP), to provide these programs. 
Last year Federal MCSAP grants exceeded two hundred million dollars.
    Lastly, for many years ABA has supported a provision that would 
require FMCSA to establish a medical registry. Such a registry would 
provide bus operators with an approved list of qualified medical 
providers who will not certify a driver's fitness for duty if the 
driver is unfit. Currently, a driver could ``shop'' for a medical 
professional who knows little about transportation or those medical 
conditions that bear upon safe operations. As a result, a medically 
unqualified driver would be certified fit for duty.
Reauthorization Legislation
    As this Committee moves toward reauthorization, please keep in mind 
that ABA is eager to work with you on all manner of transportation 
issues. We are available to anyone who calls with a request for help in 
making buses safer. It was such a call from the late Congressman Paul 
Gillmor (R-Ohio) which started us on the road to H.R. 4690, a 
bipartisan bill that provides a comprehensive plan for bus safety. The 
industry, ABA, Greyhound Lines, the unions and the United Motorcoach 
Association (UMA), and others worked for several months to craft this 
bill. After the death of Congressman Gillmor, Congressman Bill Shuster 
and Congresswoman Eddie Bernice Johnson came together in a bipartisan 
effort to introduce the bill that is now H.R. 4690. Other House members 
have joined this coalition and ABA continues to support this bill. The 
bill provides time for NHTSA to research safety issues, time for any 
new standards to be implemented by the industry, including the bus 
manufacturers who would have to retool and perhaps reengineer their 
process and it provides funds so that bus companies can retrofit their 
buses in a timely fashion.
    But H.R. 4690 is neither our only legislative effort nor did our 
safety initiatives begin 2 years ago. ABA also actively supports H.R. 
3820, a bill to provide tax credits to motor carriers which install 
advanced safety equipment (e.g., lane departure warning, electronic 
stability controls) in their buses. ABA believes that proper bus safety 
legislation will materially aid our goal for safer bus operators and 
operations and we commend these bills for your consideration as we move 
into the reauthorization process.
    One thing is certain. While bus safety is vital, the issue is also 
complicated. The safety of any vehicle is dependent on many issues. 
This is no less true of motorcoaches. Several factors must be weighed 
before any person; agency or organization can pronounce a bus safe or 
unsafe or say with certainty that any one change will make the bus 
safer. I have already noted that the skill, ability, resources and 
willingness of the driver and bus company are of prime importance. 
Likewise, the type, make and model of the motorcoach are issues that 
must be considered. Obviously, newer motorcoaches are built differently 
than older models and may have more safety features. The type of crash 
a bus is involved in is also important. For example, seat belts may 
help passengers in so-called ``roll over'' crashes but in other type of 
crashes a combination of compartmentalization and other safety 
improvements may be just as effective.
    Bus window design may also be a factor. Bus engineers have noted 
that fatalities in bus crashes began largely with the advent of larger 
bus windows, hence the need for NHTSA to study advanced window glazing 
techniques. In considering fire suppression one issue is where to place 
any additional fire suppression gear on a motorcoach and at what cost 
to other bus safety systems?
    Reauthorization provides this Committee with a rare opportunity to 
craft a comprehensive bus safety bill that all parties and 
transportation stakeholders can support. And here ABA would like to 
commend Committee Ranking Member Senator Hutchison for her efforts in 
fostering such a bill. In the Committee's continued efforts on behalf 
of this goal, ABA asks you to keep my testimony and concerns in mind 
regarding any bus safety legislation. Those concerns may be grouped 
around three issues: implementation, retrofit standards and liability.
    First, any bill that requires NHTSA to promulgate standards for 
seatbelts, advanced window glazing and improved firefighting equipment 
should require that NHTSA research and test for these issues prior to 
promulgating standards for these buses. Further, there must be 
sufficient time for bus manufacturers, operators and maintenance 
professionals to meet the new standards.
    Clearly, new NHTSA requirements must be based on what research and 
testing determines is appropriate, and NHTSA should have 3 years to do 
the testing and initiate and complete the rulemaking. Then NHTSA must 
be required to develop standards for each of these items and their 
installation on both new and retrofitted buses. The new and retrofit 
standards are likely to be quite different, given the vast array of 
existing over-the-road buses. Retrofit standards will be complicated by 
the various motorcoach makes, model and manufacturers and the fact that 
a motorcoach normally has a 25 year life cycle. NHTSA will also have to 
take into account different flooring, anchors and seat construction. 
One size retrofit standards will not fit all buses. The complicated 
issue of retrofitting buses also points up the need for Federal 
financial assistance in order to retrofit buses. Unlike the transit 
industry our buses are not federally funded or maintained with Federal 
money. We are an industry composed of small businesses and the 
imposition of a seatbelt mandate for every bus will be a heavy one. It 
will be impossible to fulfill without Federal funds.
    In addition, a too brief implementation phase-in time for all buses 
is unreasonable and unworkable. First, in one year, the four major 
world bus manufacturers (only one is a domestic company) produce a 
combined total of nearly 2000 motorcoaches for the U.S. market. 
Currently, there are 40,000 motorcoaches on the U.S. highways. The bus 
manufacturers will probably need more than a year just to retool and 
re-engineer their product to comply with the new law. Thus, the vast 
majority of buses would have to be retrofitted. This will be an 
extremely expensive and burdensome undertaking. Ironically, an 
unreasonably tight time-frame could also mean less safe buses overall 
since it would divert resources from new bus purchases, which may be 
safer than older buses.
    Installing seat belts is not just a matter of bolting a belt to a 
seat. It may be, depending on the type of belt and bus, a matter of 
redesigning the seat, strengthening the bus floor or changing the seat 
configuration. Safety cannot simply be added on to any equipment, it 
must be engineered into that equipment. In H.R. 4690, bus manufacturers 
were given 3 years to retool their plants and redesign their products 
to meet the new standards. The operator phase-in period is that 
mandated by Congress in the implementation of the bus provisions of the 
Americans with Disabilities Act. That is, that bus fleets be 50 percent 
compliant within 6 years and fully compliant within 12 years. We 
believe that these timeframes are appropriate for the private bus 
industry.
    One other concern ABA and its members have about any bus safety 
legislation is that of liability protection for bus operators and 
manufacturers. H.R. 4690 addresses this issue by providing liability 
protection for bus operators and bus makers during the law's phase in 
period. Without such protection bus operators and manufacturers would 
be sued for not having seatbelts even though the law would not yet 
require the buses to be so equipped. Moreover, during the phase-in 
period of the Federal regulations it is important that bus 
manufacturers be protected from states imposing their own regulations. 
Without such protection, interstate motor carriers could be subjected 
to inconsistent or even contradictory standards concerning all manner 
of safety equipment. When Congress mandated the use of air bags in 
passenger vehicles it provided just such protection for automobile 
manufacturers; that is, during the phase in period, manufacturers or 
owners could not be sued for not having air bags or be subject to 
inconsistent state requirements. That is exactly what ABA seeks with 
any new legislation.
NHTSA Bus Crash Testing Program
    ABA's efforts to prevent bus crashes and to lessen the damage from 
such accidents began with the NTSB's Bus Crashworthiness hearing in 
1998. Since then ABA has asked NHTSA to apply to Congress for authority 
and funds to begin a bus crash testing program. Then, as now, ABA wants 
to determine the safety of the buses we operate and how to discover 
ways to make them safer. After years of distaining such a program 
because of the industry's low number of fatalities, an average of 22 a 
year, late last year NHTSA finally began such a program, the first in 
its history. The program, studying the need for new regulations on fire 
prevention and suppression, emergency egress, roof strength standards 
and occupant protection is a step in the right direction. In fact, ABA 
would wish the program be more rigorous. However, ABA and its members 
are in partnership with the agency in this effort. We provide 
resources, including technical expertise and equipment for the program. 
Our experts are in regular contact with the NHTSA staff. ABA hopes for 
a timely analysis of the reams of data that just one crash test 
produced and that the industry will get answers to the questions of 
whether, and if so, how the buses we depend on can be made safer.
    Now that NHTSA has begun its research and testing program, ABA 
believes that it needs time to complete its work before it can provide 
scientifically correct conclusions as to the future safety needs of 
buses. One cannot rush safety research and one must look at all the 
evidence. For example, recent bus crashes involved equipment in which 
seatbelts were provided, yet the injuries and fatalities seem (and the 
evidence is yet unclear) to be as bad as those crashes with buses not 
equipped with seat belts. This question raises other questions, for 
example, the responsibility for ensuring seat belt use. None of us know 
the answers to these questions because the testing is ongoing, the data 
still unclear. It is not a question for ABA alone. Last year, Texas 
passed a law requiring seat belts on all buses which carry students 
from Kindergarten to Grade 12. According to news reports, there is now 
an effort in the legislature to re-look at that law in part because 
there is no science or testing to support the law's conclusion that 
seat belts are necessary or at least not harmful in all accidents.
Conclusion
    Hopefully in addition to providing the Committee with the facts it 
needs to legislate bus safety during reauthorization, my testimony will 
also dispel a myth about the industry's promotion of and interest in 
safety. That myth of ``if the industry really wanted to do it, it would 
have done so already.'' Nothing could be further from the truth. What 
standards would the industry use for installing, for example, seat 
belts? What type of belts and on what type of equipment? And what if 
the Federal agencies then determine that the standards used were 
incorrect? Since 1966, it is the Federal Government's role to set these 
standards. Heretofore, it has chosen not to act. How can any one say 
that the industry should have acted in the government's stead?
    ABA's view is that safety is too important to be left to intuition, 
chance or even educated guesses. Safety demands rigorous testing and 
specific answers to the questions surrounding the development, 
installation, and use of any safety equipment in a variety of 
circumstances. Safety also demands rigorous enforcement of the 
regulatory tools available and the development of new tools as needed. 
But those answers and those new tools cannot be rushed solely because 
we wish to have them sooner. It is for these reasons that we work with 
NHTSA on the bus crash testing program, we work with FMCSA on demanding 
ADA accessible transportation and upgrading the skills of bus 
operators, and we work with NTSB at every bus accident investigation. 
It is safe to say that ABA will work with anyone who calls and has an 
idea for safer buses, operations and educating the public on how to 
pick a safe bus operator. For those reasons and, as I stated at the 
beginning of my testimony, for the simple reason that our families, 
friends and colleagues ride with us every day, we are happy to work 
with you Mr. Chairman and with the Committee and with the Congress for 
a safer bus industry.
    Once again, on behalf of the 700 million passengers who ride with 
us every year and the 3800 ABA member companies and organizations, I 
thank you for allowing us to testify and I am happy to answer any 
questions.

    Senator Lautenberg. Thank you very much.
    Ms. Gillan, we welcome and invite you to give your 
testimony.

 STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
                  FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you, Senator Lautenberg.
    Good afternoon. My name is Jackie Gillan. I appreciate the 
opportunity to testify on such an important safety issue on 
behalf of Advocates for Highway and Auto Safety.
    Motorcoach safety is a serious concern for anyone who uses 
this growing and affordable mode of transportation. Every day 
millions of Americans are boarding buses at risk because of 
chronic and continuing failures to upgrade the safety design of 
motorcoaches, to provide adequate safety oversight of the 
industry, and to give consumers the essential information they 
need about the safety record of motorcoach companies.
    Motorcoaches are really the over-the-road commuter airlines 
without the strong Federal safety standards that protect you 
and your family when flying. According to DOT data, a total of 
571 people died in 400 motorcoach crashes in the last 11 years, 
including motorcoach occupants, people in other vehicles, and 
pedestrians. And in fact, I have attached to my testimony a 
chart describing over 100 motor crashes from around the 
country.
    We know what to do to protect passengers and prevent 
motorcoach crashes. However, the Department of Transportation 
just does not seem to want to do it. For more than 40 years, 
the National Transportation Safety Board has been investigating 
motorcoach crashes and issuing recommendations to improve 
occupant safety and operations. These lifesaving 
recommendations have largely been ignored or rejected at DOT.
    For example, 40 years ago, NTSB recommended to DOT that 
they consider seat belts on motorcoaches, and they have 
repeated that recommendation throughout the years. Australia 
has required three-point seat belts on motorcoaches for over 14 
years. During that time, no one who was wearing a seat belt has 
died or suffered any injury in a motorcoach crash. Seat belts 
on motorcoaches are also now required in the European Union and 
Japan.
    Other NTSB safety recommendations continue to take a back 
seat at DOT. It is clear that Congress needs to pass Senate 
bill 2326, the Motor Coach Enhanced Safety Act. This bill 
directs DOT to act within reasonable deadlines on safety 
improvements recommended in NTSB investigation, Inspector 
General reports, and a host of GAO studies that have languished 
for decades.
    Clearly, when Congress acts, DOT reacts. And I need to be 
more specific on that. When the Senate Commerce Committee acts, 
DOT reacts. It took Federal legislation to require air bags in 
passenger vehicles, to direct Federal upgrades in tire safety 
after the Firestone fiasco, and to mandate long overdue vehicle 
safety standards and SAFETEA-LU to reduce the number of 
rollover crashes that continue to kill and injure thousands 
annually. Once again, this kind of Congressional leadership and 
legislation is urgently needed.
    S. 2326 requires DOT to issue safety standards that would 
result in lap and shoulder belts, a stronger roof, and advanced 
window glazing to protect occupants from ejection, and the use 
of readily available crash avoidance technologies, such as 
electronic stability control and adaptive cruise control. It 
would also prevent deadly motorcoach fires by increasing the 
fire resistance of interior materials, requiring automatic fire 
suppression systems, as well as improving passenger evacuation 
in an emergency.
    The bill also mandates additional reforms to keep unsafe 
drivers and companies off of our highways like required 
training of motorcoach drivers, increased Federal and State 
oversight and enforcement, and an issue that you have taken a 
leadership role on, the installation of electronic on-board 
recorders to help enforce Federal hours-of-service rules and 
keep fatigued drivers off the road.
    FMCSA has also failed to give consumers essential 
information about the safety of motorcoach operators. A random 
review of the safety ratings of motorcoach companies in New 
Jersey and Texas were found to be incomplete, out of date, 
misleading, or simply not available. Some safety ratings were 
20 years old, Senator. Only a handful of companies in either 
state had ratings that were current or complete.
    When motorcoaches are stopped and inspected, the results 
are also discouraging. For 2005, more than 1 out of 10 
motorcoaches were placed out of service, a rate that has not 
changed significantly over several years. Similarly, 
inspections found that one out of five commercial drivers of 
passenger-carrying motor carriers were placed out of service 
for failing to keep updated log books on their driving hours.
    In conclusion, Senator, every passenger on every motorcoach 
trip in every state deserves to be safe. Too many lives are at 
stake, and too few safety measures are being advanced at DOT, 
and we cannot wait any longer. Advocates strongly recommends 
that Congress enact S. 2326.
    I also have with me, which I would like to submit for the 
record, letters from nearly every single major highway and auto 
and consumer safety group, as well as the supplier industry of 
advanced glazing, showing their strong support for moving 
quickly on this legislation.
    Thank you very much.
    [The prepared statement of Ms. Gillan follows:]

      Prepared Statement of Jacqueline S. Gillan, Vice President, 
                 Advocates for Highway and Auto Safety
    Good afternoon. My name is Jacqueline Gillan and I am Vice 
President of Advocates for Highway and Auto Safety (Advocates), a 
coalition of consumer, health, safety, medical organizations and 
insurers working together to advance Federal and state programs and 
policies that prevent deaths and injuries on our neighborhood streets 
and highways. I commend the Subcommittee for holding hearings on the 
safety of motorcoach operations.
    This hearing today is another in a long series of oversight 
hearings held by the Subcommittee because of its concern over the 
quality of motor carrier safety. The Subcommittee held a hearing in May 
1, 2007, to receive testimony on the value of Electronic On-Board 
Recorders (EOBRs) and their important contribution to reducing 
commercial driver fatigue. That hearing was extraordinarily important 
because it showed how members of the motor carrier community have found 
that EOBRs are not only valuable for keeping commercial drivers within 
the limits of Federal hours of service regulations, but also help to 
expedite freight delivery and conserve fuel, keep big trucks from using 
illegal routes, and track motorcoaches in real-time to help ensure 
passenger safety.
    Motorcoach safety is a serious concern for anyone who relies on and 
uses this growing and affordable mode of transportation. Unfortunately, 
when it comes to choosing a safe motorcoach, consumers have been forced 
to travel wearing a blindfold. Many of us in this hearing room have put 
our excited children on charter buses for out-of-town school field 
trips and team sporting events, boarded motorcoaches to take part in 
church and community outings, or waved goodbye to retired parents who 
traveled by tour coach to vacation destinations. Some have even taken 
advantage of low cost fares to travel between Washington, D.C., New 
York or Boston on ``curbside'' buses that leave from downtown locations 
rather than bus terminals.
    Motorcoaches make 630 million passenger trips a year, and transport 
hundreds of thousands of passengers each day, often carrying more 
passengers--55 to 59 people when fully loaded--than most commuter 
airline flights. Yet, motorcoach safety is not being held to the same 
high safety standards as passenger aviation even though motorcoaches 
operate on much more congested and less safe highways. Motorcoach 
drivers are not required to meet the rigorous medical and safety 
requirements of airline pilots; most of the vehicle safety design and 
performance standards for passenger vehicles, especially for occupant 
protection, are not required for motorcoaches; and motorcoach companies 
are governed by the same weak, ineffectual safety oversight and 
enforcement regime that is used for trucking freight.
    Despite the widespread use of motorcoach transportation in our 
everyday lives, the public is almost completely in the dark about the 
safety of motorcoach transportation because of chronic and continuing 
failures by the Federal Motor Carrier Safety Administration (FMCSA) to 
exercise its legal authority to regulate the safety of this industry, 
and the failure of the National Highway Traffic Safety Administration 
(NHTSA) to require the same basic safety improvements required for 
smaller passenger vehicles to ensure the crash avoidance and 
crashworthiness of buses and motorcoaches.\1\ These failures have 
contributed to numerous tragic motorcoach crashes in just the last few 
years, including several just last month, in August 2008.
    My testimony today will address the safety problems and the 
documented need to improve motorcoach safety; the means available to 
provide improved occupant protection in motorcoach crashes and other 
emergencies, such as fires; enhanced crash avoidance capabilities, and 
the importance of strengthening Federal oversight of motorcoach 
operations to ensure that unsafe motorcoach companies and drivers are 
detected before they can do harm and are kept off the road.
Motorcoach Crashes Are Frequent and Deadly
    Over the past four decades, the National Transportation Safety 
Board (NTSB) has investigated nearly 70 motorcoach crashes and fires 
that resulted in several hundred passenger deaths and many hundreds of 
severe injuries. NTSB's motorcoach crash investigations over just the 
last decade, 1998-2007, involved the deaths of 255 passengers and more 
than one thousand injuries.\2\ In some of these incidents more than 20 
people on board were killed in a single crash or fire. Not all 
motorcoach crashes resulting in death and injury are investigated by 
NTSB or any other agency at the Federal level. I have attached to my 
testimony a list of the motorcoach crashes that Advocates has compiled 
from the NTSB investigation reports and reliable newspaper and wire 
service reports found on the Internet. But even this list, containing 
over 100 motorcoach crashes and fires in the past 40 years, is far from 
complete.
    According to NHTSA data, there were 400 fatal motorcoach crashes 
from 1994 through 2005 in which 571 people died.\3\ Of that total of 
fatal crashes and associated deaths, 2005 was an especially tragic 
year--70 motorcoach occupants died in crashes, the highest total ever 
recorded. Data covering a much longer period of time, 1975 through 
2005, shows 1,107 fatal crashes involving 1,117 motorcoaches and 
resulting in 1,486 deaths to passengers in motorcoaches, people in 
other vehicles and pedestrians.\4\
    Motorcoach crashes kill and injure occupants inside the 
motorcoaches and people outside as well. That is why it is crucially 
important to have a comprehensive, multi-faceted approach to motorcoach 
safety that emphasizes major safety countermeasures for motorcoach 
occupant protection, as well as dramatic improvements in motorcoach 
crash avoidance capabilities that will ensure that these big, heavy 
vehicles provide crash protection to the motorcoach occupants while 
also reducing both the number and the severity of collisions with other 
highway users.
Recent Motorcoach Crashes Illustrate Severe Safety Risks
    In just the past 3 years there have been constant reminders of the 
safety perils in motorcoach travel. Moreover, three severe motorcoach 
crashes occurred over a span of less than 3 days only a few weeks ago.
<bullet> Sherman, Texas
    On August 8, 2008, a motorcoach with 54 passengers, operated by a 
company, Angel Tours, Inc. restarted its motorcoach business under a 
different name, Iguala Busmex, only 3 days after it had been judged an 
``imminent hazard'' by FMCSA and prohibited from providing 
transportation services. In a catastrophic crash, the Iguala Busmex 
motorcoach broke through a guardrail in rural Grayson County, Texas and 
plummeted from an overpass into a dry creek bed in a rollover crash 
that resulted in 17 people dead and 38 injured. Angel Tours, Inc., had 
been stopped by FMCSA from operating only 6 weeks earlier, on June 23, 
2008. The new business named Iguala Busmex, according to preliminary 
information in media reports, had no insurance and had no Federal 
interstate operating authority.
    By the time the crash occurred, the owner of Angel Tours had 
changed the company name to Iguala Busmex and continued to operate 
illegally. The new company even used the same business address to 
restart operations. FMCSA was unaware that Angel Tours, Inc., had 
transformed into the rogue motorcoach company, Iguala Busmex. In fact, 
the company had no legal authority to provide motorcoach transportation 
services for compensation even within the state of Texas. In far too 
many cases, motor carriers both of passengers and of freight are 
ordered to stop operations for safety reasons, but then restart their 
businesses under different company names, leaving law enforcement 
officials with the task of identifying and proving which companies are 
conducting illegal operations. Sometimes, as in the Sherman, Texas 
crash, Federal authorities find this out only after a tragic crash, 
when deaths and severe injuries have already occurred.
    The motorcoach in the Sherman, Texas, crash was operated by a 
driver who had no valid medical certificate. FMCSA had also determined 
prior to its ``cease operations'' order that Angel Tours was using a 
driver without the company having received a pre-employment report, a 
Federal requirement. Angel Tours also failed to require drivers to 
prepare vehicle inspection reports. In addition, the motorcoach was 
fitted with retreaded tires on the front steer axle, another Federal 
regulatory violation. It appears that this illegal tire suddenly failed 
and destabilized the motorcoach, making it difficult to control and 
facilitating its crash into the overpass guardrail.
<bullet> Tunica, Mississippi
    On August 10, 2008, a casino motorcoach operated by Harrah's 
Entertainment packed with 43 tourists rolled over in a highway 
intersection in northwestern Mississippi. The roof of the motorcoach 
collapsed and its windows were shattered. Three passengers died and 27 
were injured, one in critical condition.
<bullet> Primm, Nevada
    Another casino motorcoach crash occurred on I-15 near Primm, 
Nevada, on August 10, 2008, the same day that the Harrah motorcoach 
rolled over. Luckily, no one died in this crash, but 29 people of the 
30 people on board were injured, three of them critically. This was the 
second motorcoach crash involving casino workers between Las Vegas and 
Primm. Previously, a crash injured at least 25 people before the 
motorcoach burst into flames and was destroyed on January 17, 2008. 
Once again, it appears that there may have been a problem of tire tread 
separation that could have triggered the rollover crash.
    These cases, even without the benefit of a thorough crash 
investigation, point out two serious safety problems. First, in the 
Sherman, Texas crash, the illegal operation of the company is an 
extremely serious issue, especially in light of the company history of 
safety problems. Unfortunately, FMCSA currently has authority only to 
impose fines for such conduct. Criminal penalties are not available for 
such illegal operation but are clearly appropriate where the company 
owners and officers neglect safety and take such intentional actions in 
defiance of legal orders.
    Second, although there are many safety issues and factors in these 
crashes that will be investigated, it appears that tire tread 
separation may have been a major contributing factor to both the Angel 
Tours and Primm, Nevada, crashes. Although retreaded tires are allowed 
by FMCSA on the other, non-steering axles of motorcoaches, and on 
tractor-trailer rigs and straight (single-unit) trucks operated in 
interstate commerce, there are no Federal standards administered by 
NHTSA specifying the quality and safety performance of retreaded tires 
on commercial motor vehicles. At the present time, there are only 
voluntary industry standards. Advocates asked the agency more than a 
decade ago to adopt such standards to ensure that retreated, recapped, 
and regrooved commercial motor vehicle tires met the same safety 
performance requirements as new tires. However, NHTSA has failed to put 
forward any proposal to adopt a performance standard for retreaded 
tires on motorcoaches and other commercial vehicles.
<bullet> Bluffton University Motorcoach Crash
    On March 2, 2007, a motorcoach hired to transport the Bluffton 
University baseball team from Ohio to Georgia vaulted a bridge parapet 
after taking a left exit ramp that led to a perpendicular entrance to 
an overpass above I-75 in Atlanta, Georgia. The vehicle struck the 
bridge parapet at right angles and plunged to the roadway below the 
ramp. Of the 35 passengers and a driver on board, seven were killed and 
several others, including the coach of the school's baseball team, were 
transported to the hospital with severe injuries. Twelve of the 
motorcoach's occupants were ejected, four through the windshield or 
left front side windows even before the motorcoach left the roadway, 
and six passengers were ejected through the left side windows when the 
vehicle slammed into I-75, the impact that stopped its fall.
    None of the occupants on-board had three-point safety belts 
available to restrain them. Of the 59 seats on board, only the driver's 
seat, the ``jump seat,'' and the first row of two passenger seats 
immediately behind the driver had two-point lap belts. The driver and 
his wife, both of whom had fastened their lap belts, died.
    The company that operated the over-the-road bus, Executive Coach, 
received a Satisfactory safety rating from FMCSA on April 4, 2007, only 
a month following crash. However, NTSB's findings and recommendations 
produced by its investigation listed several major deficiencies in 
motorcoach operating safety.\5\ The vehicle issues identified by NTSB 
included the lack of interior occupant impact protection; the ease with 
which unrestrained passengers were ejected through large side windows; 
and FMCSA's inadequate motor carrier driver oversight. The driver 
issues included the fact that the motorcoach driver's medical 
certification had expired, the driver's logbook clearly had been 
falsified, and that the driver had medical conditions and had taken 
medications that may have impaired his ability to drive. Also, the 
company that operated the motorcoach had no formal driver training 
program, no written policies on driver procedures such as an emergency 
response protocol for evacuation and other passenger safety needs, and 
the company's alcohol and drug testing program did not comply with 
Federal requirements.\6\
    It should be pointed out that motorcoaches in foreign countries 
equip their vehicles with safety protection features not provided for 
passengers in the United States. For example, the motorcoach that was 
involved in the Atlanta, Georgia, crash only had a few lap belts in the 
front seating positions and was not equipped with three-point lap/
shoulder belts. The same motorcoach built in Australia comes equipped 
with three-point lap/shoulder seat belts at every seating position and 
with seats and their floor anchors tested for maximum crash resistance.
<bullet> Hurricane Rita Nursing Home Motorcoach Crash
    On September 23, 2005, a motorcoach operated by Global Limo, Inc., 
carrying assisted living and nursing home residents fleeing the 
imminent landfall of Hurricane Rita caught fire and exploded, initially 
killing 24 of the 44 people on board who were residents and employees 
of a Dallas-area home for seniors. Most of the residents of the senior 
living facility had moderate to severe disabilities and were not able 
to evacuate the motorcoach during the fire without assistance. 
Evacuation involved concerted efforts by the nursing staff, rescue 
personnel, and bystanders who were able to help the residents exit the 
motorcoach.
    NTSB found that the motorcoach was operated in an unsafe manner and 
that FMCSA oversight of motorcoach safety was lax. The major safety 
issues identified through the NTSB investigation included poor fire 
reporting information and inconsistent data in Federal crash data 
bases; FMCSA's ineffective compliance review program; lack of adequate 
emergency exits from motorcoaches; lack of fire resistant motorcoach 
materials and designs; inadequate manufacturer maintenance information 
on wheel bearing components; transportation of highly flammable, 
pressurized aluminum cylinders; and poor safety procedures for the 
emergency transportation of persons with special needs.\7\
    While the driver of the Global Tours motorcoach possessed a Mexican 
commercial driver's license, the Licencia Federal de Conductor (LFC), 
he had not obtained a Texas-issued commercial driver's license (CDL), 
even though the driver had been in the U.S. since at least February 
2005. Drivers are required to apply for a Texas-issued CDL within 30 
days after taking up residence in Texas. This means that the driver had 
no legal CDL or federally-required commercial driver medical 
certificate, nor had he complied with requirements to prove his 
identity, provide a social security number, supply documentation of 
vehicle registration and liability insurance, and surrender his LFC. 
These are legal requirements for drivers that the company should have 
ensured were being met. Also, the driver was unable to communicate in 
English, relying on an interpreter for his post-crash interviews, 
another violation of FMCSA regulations.\8\ According to NTSB, the 
driver may have been fatigued at the time of the motorcoach fire. The 
driver had violated multiple requirements of the FMCSA hours of service 
regulations (HOS), including having failed to take a minimum of 8 
consecutive hours off-duty before working or driving, and driving for 
over 15 consecutive hours starting at 3 PM on September 22, 2005, until 
the fire began at about 6 AM on September 23, 2005.
    FMCSA conducted a compliance review (CR), the agency's method of 
assessing the safety of a motor carrier,\9\ of the company on February 
6, 2004, and found seven violations of the Federal Motor Carrier Safety 
Regulations (FMCSR). Nevertheless, FMCSA issued a Satisfactory safety 
rating to the motor carrier just 6 days later, even though the company 
had multiple Out of Service (OOS) violations prior to the CR and more 
driver OOS violations prior to the September 23, 2005, motorcoach fire. 
An Unsatisfactory safety rating cannot be triggered unless violations 
have occurred in both driver and vehicle categories.
    According to NTSB in its report, the motorcoach itself was 
evidently inadequately maintained. Inadequate lubrication of an axle on 
the vehicle led to ``frozen'' bearings that generated extreme heat 
that, in turn, triggered the fire. Fires on motorcoaches are started 
from various sources, such as engine compartments, electrical wiring 
and batteries, auxiliary heaters, and underinflated or failed tires. 
Motorcoach fires consume many of the materials from which the vehicles 
are manufactured, and are evidently a chronic problem, as admitted by 
the former Administrator of FMCSA before the House Committee on 
Transportation and Infrastructure, Subcommittee on Highways, Transit, 
and Pipelines on March 2, 2006.\10\ In fact, motorcoach floors are 
usually made of sheets of plywood.
Comprehensive Motorcoach Safety Improvements Are Stalled at DOT 
        Despite Urgency
    From this brief review of just a few motorcoach crashes and fires, 
it should be evident that motorcoach safety has not been a primary 
focus of Federal agencies and is in dire need of regulatory action to 
improve safety. The NTSB has been issuing safety recommendations to the 
motorcoach industry and the U.S. Department of Transportation (DOT) and 
its agencies for decades, but those recommendations essentially have 
been ignored. Unfortunately, very few NTSB recommendations have been 
implemented by NHTSA and FMCSA, and certainly not in the complete and 
effective manner that NTSB recommended.
    In the Bluffton University Motorcoach Crash Report, NTSB reviewed 
the 40-year history of its frustrated attempts at achieving agency 
action in accordance with multiple recommendations for motorcoach 
drivers, passengers, vehicles, and operations. NTSB asserted that 
``motorcoaches transport a substantial number of people traveling in a 
single vehicle with a high exposure to crash risk,'' with other special 
safety requirements, and that ``[t]hese factors demand that 
motorcoaches meet the highest level of safety.'' \11\ NTSB also stated 
in its findings and recommendations that NHTSA had unacceptably delayed 
defining and acting on regulations for motorcoach occupant protection 
safety performance standards, emphasizing that the traveling public in 
motorcoach trips were inadequately protected during collisions, 
especially in rollovers.\12\
    For example, NTSB has repeatedly asked NHTSA to require stronger 
seats and to mandate seat belt assemblies at every designated seating 
position in motorcoaches. But NTSB finally had to close out these 
recommendations with notations of ``Unsatisfactory Action'' because 
NHTSA continually deflected NTSB's recommendations on requiring 
stronger seats and mandating seat belts.\13\
    But NTSB did not give up, despite NHTSA's endless inaction. Over 
and over it beat the drum in support of occupant restraints with 
successive reports on horrific motorcoach crashes where restraints 
would have saved many lives. For decades NHTSA deflected every one of 
those recommendations. There are many other examples of critical 
motorcoach safety recommendations sent to NHTSA since 1968 that were 
ignored--and the result was more deaths and injuries that could have 
been prevented.
    Similarly, the Federal Highway Administration (FHWA), and its 
successor agency, FMCSA, have also rebuffed many NTSB recommendations 
over the years, despite evidence showing the need for major safety 
countermeasures for existing passenger motor carriers and for 
improvements in FMCSA enforcement. NTSB was frustrated with FMCSA's 
enforcement scheme for motor carrier safety violations because the 
agency would provide Satisfactory ratings to motor carriers even if 
they had several serious driver or vehicle violations. FMCSA's policy 
is that there must be violations in both areas to trigger an 
Unsatisfactory rating that could result in a company ordered to stop 
operations. But NTSB recommended that serious violations in either area 
should be enough to trigger imposition of an Unsatisfactory rating. 
(Note that Angel Tours before the Sherman, Texas crash had a 
Satisfactory rating because FMCSA had recorded several driver 
violations, but no vehicle violations for the company. Accordingly, 
FMCSA had no basis for threatening the company with an Unsatisfactory 
safety rating.)
    FMCSA has repeatedly avoided acting on this recommendation, even 
after several U.S. DOT Office of the Inspector General and Government 
Accountability Office reports demonstrating multiple weaknesses in 
FMCSA enforcement regimes and actions.\14\
    Since FMCSA itself has admitted that its current safety rating 
system, and the safety scoring system used to support it, is 
inadequate, the question arises of what the agency intends to do in the 
interim to ensure that dangerous motor carriers are detected and 
stopped from operating before more lives are lost. The agency cannot 
wait until its new safety rating system, Comprehensive Safety Analysis 
2010, is complete and ready for action. In the meantime, unsafe 
motorcoach companies will receive ratings that do not represent a valid 
safety profile, and the public will be left in the dark on how to 
choose a safety motorcoach business for personal transportation.
Federal Legislation Is Needed to Direct DOT to Implement Comprehensive 
        Motorcoach Safety Reforms and Comply with NTSB Recommendations
    It is time for Congress to step in and ensure that the safety 
improvements NTSB has recommended for decades are adopted by the 
agencies with the authority to issue motor vehicle and motor carrier 
regulations. Experience has shown that when Congress requires safety 
action, the agencies find the ways and means to meet the challenge. 
Several years ago, the Senate Commerce Committee took a leadership role 
in addressing deadly rollover crashes and other major motor vehicle 
safety issues. In the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act of 2005--A Legacy for Users (SAFETEA-LU),\15\ 
Congress required NHTSA to issue regulations on safety problems that 
had languished for years without agency action. NHTSA is in the process 
of complying with those vehicle safety rulemaking requirements. More 
recently, the Cameron Gulbransen Kids Transportation Safety Act of 
2007,\16\ requires NHTSA to issue rules on safety problems to protect 
children from dangers in vehicles that the agency had previously 
refused to address.
    There is absolutely no doubt that when Congress sets the safety 
agenda, the Federal agencies respond quickly by developing action 
plans, conducting tests, and issuing rules that improve transportation 
safety. This is the model that Congress should follow for motorcoach 
safety.
    The right vehicle to accomplish this approach has already been 
introduced in Congress--The Motorcoach Enhanced Safety Act of 2007. 
This pending legislation, S. 2326, introduced on November 8, 2007, by 
Senators Sherrod Brown (D-OH) and Kay Bailey Hutchinson (R-TX), and its 
companion bill in the House, H.R. 6747, introduced by Representative 
John Lewis (D-GA) and co-sponsored by Representative Ted Poe (R-TX), 
sets a reasonable and achievable regulatory safety agenda for reforming 
motorcoach safety. The Motorcoach Enhanced Safety Act deals with each 
of the major aspects of motorcoach safety: vehicle design and 
performance, operating safety and inspection, and driver safety, 
including training and medical certification.
    The bills respond to virtually every major safety recommendation 
made over the past 40 years by the NTSB. The Motorcoach Enhanced Safety 
Act addresses almost all NTSB safety issues in a comprehensive manner, 
including crash protection of occupants, such as seat belts and windows 
that prevent occupant ejection in crashes; protection against roof 
crush, especially catastrophic single-vehicle events involving 
rollovers; improved fire protection and the need to use materials and 
technology to assist in fire resistance and suppression; better methods 
to facilitate passenger evacuation in emergency conditions; crash 
avoidance technology, such as adaptive cruise control and electronic 
stability control to prevent crashes; vehicle maintenance and 
inspection needs; and operator qualifications, including driver skills 
and medical certification. Finally, the Motorcoach Enhanced Safety Act 
sets reasonable timelines for DOT, NHTSA and FMCSA to review the safety 
problems, complete testing, conduct rulemaking and issue safety rules 
to implement those recommendations so that lives can be saved and 
injuries prevented as soon as possible.
    S. 2326, the Senate-introduced version of the Motorcoach Enhanced 
Safety Act, is supported by parents and relatives of victims and 
survivors of motorcoach crashes. Many family members who lost relatives 
in motorcoach crashes have traveled to Capitol Hill for today's 
hearing. S. 2326 is also strongly supported by Advocates and safety 
groups, including Public Citizen, Center for Auto Safety, Citizens for 
Reliable and Safe Highways (CRASH), Consumers for Auto Reliability and 
Safety, the Trauma Foundation, the Consumer Federation of America and 
the Enhanced Protective Glass Automotive Association.
    The DOT agencies with responsibility for motorcoach safety, NHTSA 
and FMCSA, have failed to fulfill their safety missions. Although NHTSA 
has not moved quickly to adopt NTSB recommendations for crash 
protection and crash avoidance, the agency has in recent years 
developed a motorcoach safety research and testing program and has 
begun to examine many of the safety issues raised by NTSB and safety 
organizations. However, without a Congressional directive to actually 
issue safety standards, there is no assurance that the agency will 
address all the safety issues in the NTSB recommendations, much less 
establish stringent safety standards that adopt those recommendations 
in a timely manner.
    FMCSA, in contrast, has been entirely delinquent in its role as the 
Federal administrator of safe motorcoach operations. As with its duties 
to improve general motor carrier safety, FMCSA has failed to issue or 
properly enforce even the most basic safety requirements and has shown 
no inclination to be proactive regarding the adoption of safety 
standards and regulations to improve public safety on motorcoaches. 
FMCSA only acts when compelled by explicit Congressional legislation, 
and even then it fails frequently to comply with either the clear 
letter of the law or to meet legislated deadlines. The safety community 
has had to repeatedly sue FMCSA to compel the agency to comply with 
Congressional mandates and issue effective regulations to improve key 
areas of motor carrier safety.
    While our testimony cannot survey all the safety provisions 
addressed in these comprehensive bills, the remainder of this testimony 
highlights the major gaps in motorcoach safety and how key provisions 
of S. 2326 and H.R. 6747 will save lives, prevent injuries, and reduce 
other motorcoach crash losses.
Motorcoach Occupant Protection is Inadequate and Contributes to Deaths 
        and Injuries
    There are serious deficiencies with the crashworthiness features of 
motorcoaches for protecting occupants against severe and fatal 
injuries. In the 2007 Bluffton University motorcoach crash in Atlanta, 
GA, and in many others investigated in the last several years by NTSB, 
occupants were ejected through side windows and the windshield. Serious 
injuries and deaths in motorcoach rollover crashes are highly 
predictable when these vehicles do not have three-point seat belts and 
fail to have the kind of windows that could withstand a crash and 
prevent ejection. These severe occupant safety defects have been 
documented time and again in NTSB investigations and reports.
    While NHTSA has established 22 separate standards for vehicle 
crashworthiness as part of the Federal Motor Vehicle Safety Standards 
(FMVSS) administered by the agency, nearly all of these are for light 
motor vehicles (mainly passenger vehicles that weigh less than 10,000 
pounds). Most of these standards exempt motorcoaches with gross vehicle 
weight ratings of over 10,000 pounds. For example, no NHTSA safety 
regulation requires that motorcoaches in the U.S. have any occupant 
protection systems of any kind, including seat belts, seat mounting 
retention, seatback strength, whiplash protection, or upper and lower 
vehicle interior occupant impact protection. Although motorcoaches are 
required to comply with FMVSS No. 217 specifying motorcoach window 
retention and release for evacuation, and FMVSS No. 302 governing the 
flammability of interior materials, motorcoaches do not have to comply 
with many safety standards required for other types of buses, including 
school buses, and for passenger vehicles. As a result, motorcoach 
passengers are not afforded the same basic safety features and types of 
protection required for passengers in other vehicles.
    Among the important safety shortcomings that need to be improved in 
motorcoaches, the Motorcoach Enhancement Safety Act would require:

  <bullet> Seat belts: Three-point lap/shoulder belt systems have been 
        required for passenger vehicles for decades and are required on 
        smaller buses and on big passenger vans, yet are not required 
        in motorcoaches. Lap/shoulder belt restraint systems, not just 
        lap belts, are essential for keeping motorcoach occupants in 
        their seats to avoid injuries sustained within the compartment 
        in all crash modes.

  <bullet> Rollover: Motorcoaches are very top heavy, with high centers 
        of gravity especially when fully laden with passengers, so 
        their rollover propensity is much higher than for passenger 
        vehicles. Crash avoidance technology such as electronic 
        stability control and adaptive cruise control can also help to 
        keep motorcoaches out of crashes in the first place. But when 
        rollovers still occur, a strong roof crush resistance safety 
        standard needs to be adopted to ensure the structural integrity 
        of the roof in a rollover crash that preserves occupant 
        survival space and prevents infliction of severe occupant 
        trauma.

  <bullet> Ejection: A major safety issue in motorcoaches is preventing 
        occupants from being ejected during a crash, especially in a 
        rollover. According to NHTSA, more than half of the deaths in 
        motorcoach crashes are the result of occupant ejections. More 
        than one-third of all deaths of motorcoach occupants in 
        motorcoach crashes occur in rollovers, and occupant ejection is 
        the reason for 70 percent of occupant deaths in motorcoach 
        rollovers.\17\ Advanced window glazing that can survive crash 
        impacts will prevent occupant ejection and save lives. There 
        are other possible countermeasures, which, in combination with 
        three-point seat belts and advanced glazing, can further reduce 
        the chances of passenger ejection.

    The major topics of occupant restraint within the motorcoach 
passenger compartment and the additional prevention of ejection in 
catastrophic events have been engaged by both the European Economic 
Community \18\ and Australia.\19\ Three-point belts restraining 
motorcoach occupants became mandatory in Australia 14 years ago, the 
European Union has just mandated that passengers must wear safety belts 
in motorcoaches beginning in May 2008, and anyone traveling by 
motorcoach in Japan must use their safety belts beginning June 2008. It 
is obvious that keeping motorcoach occupants safely in their seats is 
desperately needed so that passengers do not impact each other, strike 
unforgiving interior surfaces and equipment in motorcoaches, and are 
prevented from being thrown from the vehicle. Three-point lap/shoulder 
belt restraints initially are the best way to accomplish keeping each 
passenger in their seat. The rest of the world is moving on to higher 
levels of crash protection for motorcoach occupants while U.S. safety 
regulators fail to take action.
    The Motorcoach Enhanced Safety Act bill contains the provisions 
necessary to direct NHTSA to dramatically improve motorcoach 
crashworthiness in all crash modes, including rollovers, as well as in 
side and frontal impacts. Without congressional directives requiring 
the issuance of new and improved safety standards by specific dates, 
NHTSA will intermittently study the safety issues over many years 
without addressing the major motorcoach crashworthiness and crash 
avoidance safety issues that NTSB long ago recommended should be 
adopted. NHTSA has proven over and over that it will delay major safety 
standards that can save lives and prevent injuries, not only for years, 
but also for decades, unless Congress gives it a mandate in no 
uncertain terms and firm deadlines for action.
Effective Motorcoach Operation Safety Oversight and Enforcement is 
        Lacking
    According to figures from FMCSA,\20\ there are about 3,700 U.S. 
passenger-carrying companies conducting interstate operations employing 
100,000 drivers to operate about 34,000 to perhaps 40,000 
motorcoaches.\21\ Many of the Federal motor carrier safety regulations, 
FMCSRs, that govern commercial motor carriers, vehicles, and drivers 
generally, also apply to motor carriers of passengers. Despite the 
relative small numbers of motorcoaches and motorcoach companies, FMCSA 
is failing in its stewardship responsibilities for motorcoaches as 
badly as it is for large trucks.
    Almost all of NTSB's 40 years of investigated motorcoach crashes 
have resulted in findings that encompass vehicle performance, 
maintenance, inspection, driver qualifications, and motor carrier 
company safety management. The examples of recent motorcoach crashes 
provided earlier in this testimony confirm that multiple safety 
problems afflict all aspects of interstate motorcoach operations. 
Although severe motorcoach crashes often appear at first glance to be 
the result of an isolated problem, in fact digging deeper almost always 
reveals multiple problems involving vehicle maintenance, driver 
qualifications and performance capabilities, and company safety 
management. NTSB has confirmed this multifactorial nature of motorcoach 
crashes to be true in numerous crash investigations.
    FMCSA has not only failed to adopt NTSB's safety recommendations, 
the agency has also failed to issue other safety regulations needed to 
improve motor carrier and motorcoach safety. As a result, major areas 
of driver training and certification, motorcoach safety inspection, 
data quality and systems for identifying potentially dangerous 
motorcoach companies, and agency oversight and enforcement of the 
FMCSRs are undeniably inadequate and have been documented repeatedly by 
the U.S. DOT's OIG and by GAO. Key rulemaking actions to address these 
and other issues languish year after year without action. The 
Motorcoach Enhanced Safety Act directs FMCSA to address major 
deficiencies in its regulations governing driver qualifications, 
vehicle safety condition, and motor carrier safety management.
    Motor carrier safety issues that directly impact motorcoach 
operating safety include:
<bullet> Weak Federal and State Requirements for Motorcoach Driver 
        Training
    Among the many areas in the Motorcoach Enhanced Safety Act aimed at 
improving motorcoach operational safety are provisions intended to 
substantially strengthen motorcoach driver CDL testing and training 
requirements. Motorcoach drivers are required to have CDLs with a 
passenger endorsement added on the basis of another knowledge and 
skills test. However, there are no substantive training requirements in 
Federal law and regulation for entry-level commercial motor vehicle 
drivers, and there are none for the additional endorsements for 
operating hazardous materials vehicles, school buses, or motorcoaches. 
In short, there is no specific Federal training requirement for an 
interstate commercial driver transporting passengers.
    Federal safety agencies spent over 20 years studying commercial 
driver training issues, producing a Model Curriculum for training both 
drivers and instructors and conducting rulemaking pursuant to Section 
4007(a) of the Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA).\22\ Despite this long background of deep involvement in the 
needs of commercial driver training, FMCSA did an abrupt about-face in 
May 2004 and issued a final rule that avoided adopting any basic 
knowledge and skills training requirements, including behind-the-wheel 
driving instruction, for entry-level commercial drivers.\23\ Instead, 
the agency published a regulation that only required drivers to gain 
familiarity with four ancillary areas of CMV operation--driver 
qualifications, hours of service requirements, driver health issues, 
and whistleblower protection. Not only did FMCSA not require driver 
training as a prerequisite for a candidate seeking an entry-level CDL, 
the agency rule excused almost all novice drivers from even being 
considered entry-level commercial drivers. This rulemaking outcome was 
a complete reversal from earlier agency statements that the majority of 
new commercial drivers were not receiving adequate training.
    Since the FMCSA action reversed its own previous findings that 
basic knowledge and skills entry-level driver training was inadequate 
and should be required, Advocates filed suit against the agency. In a 
unanimous decision, the U.S. Court of Appeals for the District of 
Columbia found that the final rule was arbitrary, capricious, an abuse 
of agency discretion, and remanded the rule to FMCSA. Advocates for 
Highway and Auto Safety v. FMCSA \24\ (Entry-Level Driver Training 
Decision). In its opinion, the appellate court stated that the rule 
``focuses on areas unrelated to the practical demands of operating a 
commercial motor vehicle'' and that the rule was ``so at odds with the 
record assembled by DOT that the action cannot stand.'' \25\
    Incredibly, when FMCSA reopened rulemaking on commercial driver 
training requirements in response to the adverse court decision on its 
final rule, the agency did not propose a training curriculum 
specifically designed for motorcoach operators.\26\ The curricula 
content of the proposed rule is entirely oriented toward the operation 
of trucks of different weights and configurations. The proposed rule 
has no specific requirements anywhere just for motorcoach operators.
    Further, in the December 2007 FMCSA proposed rule, the minimum 
number of hours of training time for entry-level student drivers of 
motorcoaches plummets to 120 hours for students wanting to operate 
motorcoaches and other large commercial motor vehicles with ``Class B'' 
CDLs.\27\ There is no explanation anywhere in the preamble of the 
proposed rule or in the appendix of why this specific number of 
instructional hours was selected, nor why the amount of training was 
severely abbreviated from the 320 or more hours recommended in the 1985 
Model Curriculum.
    Advocates regards FMCSA's entry-level driver training requirements 
for motorcoach drivers to be unspecific to the special tasks that 
motorcoach operation imposes, as perfunctory in its requirements and 
its safety impact, and as falling well short of what is needed. The 
proposed rule does not fulfill either the Court of Appeals' 
expectations or the agency's legislated responsibilities. 
Substantively, the proposed curriculum fails to ensure that motorcoach 
operators will be properly trained in the multiple, significant safety 
responsibilities the job demands. To add insult to injury, the proposed 
rule also would impose a 3-year moratorium on requiring compliance with 
training requirements for new CDL applicants.\28\ This action would 
exclude tens of thousands of new CDL applicants from badly needed 
knowledge and skills training requirements.
<bullet> Tougher Enforcement Needed: Compliance Reviews and Roadside 
        Inspections Do Not Remove Dangerous Motorcoach Companies From 
        the Road
    A central problem undermining agency effectiveness in overseeing 
motor carrier safety and reducing FMCSR violations is the annually low 
numbers and percentage of both roadside inspections and CRs. For 
example, the Bluffton University Motorcoach Crash that took seven lives 
and inflicted severe injuries involved a motorcoach company that had a 
Satisfactory safety rating assigned 6 years earlier, in January 2001. 
Similarly, the company that operated the motorcoach that crashed in 
Sherman, Texas last month killing 17 people, was awarded a Satisfactory 
safety rating despite the fact that the company had received repeated 
driver OOS orders. The truth is that a Satisfactory safety rating is no 
assurance of contemporary operating safety fitness.
    The implementing regulations for conducting CRs specify criteria 
for assigning one of three safety rating categories to a motor carrier: 
Satisfactory, Conditional, Unsatisfactory.\29\ FMCSA is required by law 
to issue a safety rating to all motor carriers.\30\ However, the agency 
basically decided long ago that it would no longer attempt to fulfill 
the statutory requirement.\31\ Even without attempting to assign safety 
ratings to all motor carriers, FMCSA conducts CRs on only a tiny 
percentage of carriers. Barely 1 percent of motor carriers receive a CR 
each year, and only a tiny part of 1 percent of all registered motor 
carriers are given Unsatisfactory ratings. On its face, it is 
improbable that assigning Unsatisfactory safety ratings to so few 
registered interstate carriers has any deterrent effect.
    Other organizations and agencies have for many years called for 
improvements to the safety rating process. For example, NTSB's current 
list of the Most Wanted Transportation Safety Improvements--Federal 
Issues \32\ argues that the entire safety fitness regime operates too 
leniently with criteria that do not result frequently enough in motor 
carriers being shut down or drivers having their licenses revoked.
    In testimony delivered before the House Committee on Transportation 
and Infrastructure, Subcommittee on Highways, Transit, and Pipelines, 
March 20, 2007, the FMCSA Administrator boasted that FMCSA had 
dramatically increased the number of motorcoach CRs over the preceding 
2 years. However, based on Advocates' sampling of states on FMCSA's 
website, many of the motorcoach companies receiving recent CRs are 
provided Satisfactory safety ratings even though they lack any safety 
rating scores in one or more of the four Safety Evaluation Areas (SEAs) 
that form part of the arcane system the agency uses to identify high 
safety risk motor carriers. In fact, some motorcoach companies in the 
past have been awarded Satisfactory safety ratings with no safety 
scores for any of the four categories. In addition, high percentages of 
unrated motorcoaches are still listed for many states on FMCSA 
motorcoach website.\33\
<bullet> Consumers Denied Essential, Lifesaving Information on 
        Motorcoach Safety
    FMCSA's passenger motor carrier website claims that it provides 
information on motorcoach companies so that consumers can be confident 
that they are choosing safe motorcoach companies. How does that claim 
hold up under close examination?
    A review of the current status of safety ratings of motorcoaches 
registered in Texas is not very encouraging. There are 197 motorcoach 
companies with FMCSA interstate operating numbers. Of those, 117, or 59 
percent, have Satisfactory ratings. All the rest of the companies have 
either Conditional ratings, are Unrated (64), or, in one instance, one 
company has an Unsatisfactory rating (Angel Tours/Iguala Busmex). But 
one company's Satisfactory rating was awarded back in 1988--20 years 
ago. Furthermore, of the 117 Satisfactory companies, only 17, or 14.5 
percent, have safety scores in all four major areas of safety. And it 
should be stressed that a Satisfactory rating for FMCSA only means that 
a motorcoach company minimally complies with the Federal safety 
standards for motor carriers--it is not a mark of superior safety.
    Similarly, consumers in New Jersey have little to choose from in 
selecting a motorcoach company with the best safety credentials for 
long-distance trips. There are 167 companies headquartered in New 
Jersey that are registered with FMCSA for interstate transportation of 
passengers. However, 57 of these businesses--34 percent or fully one-
third--have no safety ratings at all. Eight companies are operating 
with Conditional safety ratings. No companies have Unsatisfactory 
ratings.
    One hundred and one (101) New Jersey motorcoach companies carry 
Satisfactory safety ratings. But one company received its Satisfactory 
rating back in 1988, two got theirs in 1991, and there are several 
others with Satisfactory ratings assigned during the 1990s. It is 
important to recognize that a safety rating, even a Satisfactory 
rating, is just a snapshot of a company. A company's safety practices 
can quickly deteriorate so that a Satisfactory rating can become 
meaningless in a short amount of time. Many companies can come into 
compliance to achieve a Satisfactory safety rating only to lapse in its 
compliance with major motorcoach safety regulatory areas such as driver 
qualifications and certification, vehicle safety maintenance, and 
company safety management quality.
    Of the 101 New Jersey motorcoach companies with Satisfactory 
ratings, only 11 have scores in all four major safety scoring areas 
(driver, vehicle, crash, safety management). Therefore, if a consumer 
in New Jersey wants to apply a high standard for choosing a company, it 
would be best to use a motorcoach company that has a Satisfactory 
rating in all four safety scoring categories. But only 11 companies--or 
a little over 6.5 percent--of motorcoach operations in the state 
qualify. Based on Advocates' sampling of states on FMCSA's website, 
this is the case with most states--the listing of active motorcoach 
companies provided by FMCSA for each state, if rigorously evaluated by 
a consumer, is dramatically reduced oftentimes to only a handful of 
companies to choose from.
    When motorcoaches are stopped and inspected, the results are 
equally discouraging. For 2005, 12 percent of the motor carriers of 
passengers were placed OOS, a figure that has not changed over several 
years. Similarly, driver safety is a serious concern--driver 
inspections in 2005 placed 21 percent of U.S. drivers of interstate 
motor carriers of passengers OOS for failing to retain the driver's 
previous 7 day logbook showing the driver's record of duty. In the same 
vein, 20 percent of those drivers--one in five--were found to have no 
record of duty status logbook. These aggregate figures are frightening, 
especially for patrons of interstate motorcoach companies, and they 
show essentially no progress in substantially improving motorcoach 
safety on a nationwide basis.
<bullet> Unknown Status and Effectiveness of State Annual Bus Safety 
        Inspection 
        Programs
    The Secretary of Transportation is required to prescribe standards 
for annual, or more frequent, inspection of commercial motor vehicles, 
including motorcoaches, or approve equally effective state inspection 
programs.\34\ Nine years ago last month, the Federal Highway 
Administration (FHWA) issued a notice on the status of state bus 
inspection programs \35\ and subsequently listed 25 of 50 states with 
approved, equivalent periodic inspection programs.\36\
    It should be stressed here that the minimum period for the required 
vehicle inspection is only once a year.\37\ Since it is well known that 
inspection of CMVs, including motorcoaches, needs to be much more 
intensive and frequent than for personal or light motor vehicles, a 
once-a-year inspection regime is clearly no guarantee of safe 
motorcoaches. Many companies even in states that have bus inspection 
programs can come into compliance just for an annual inspection, only 
to allow major safety features of their motorcoaches to fall into 
disrepair or become inoperative soon after passing the annual 
inspection. Moreover, Advocates could find no information from FMCSA's 
website on the effectiveness of state motorcoach inspection programs to 
detect safety problems or how well or for how long state motorcoach 
inspection programs ensure compliance with all Federal motor carrier 
safety requirements.
    Several provisions in the Motorcoach Enhanced Safety Act directly 
address the issue of timely, accurate motorcoach and bus safety 
inspections, including both FMCSA and state actions that are necessary, 
and how FMCSA must administer the state inspection programs in 
connection with the Motor Carrier Safety Assistance Program (MCSAP).
Electronic On-Board Recorders Are Long Overdue on Motorcoaches and All 
        Motor Carriers
    Electronic On-Board Recorders (EOBRs) or Automatic On-Board 
Recording Devices (AOBRDs) have been increasingly used on large trucks 
and motorcoaches for a variety of purposes, including monitoring the 
drivers' hours of service (HOS) driving, working, and off-duty time of 
commercial drivers, and ensuring compliance with current HOS 
regulations. Many countries around the world now require the use of 
EOBRs to ensure that truck drivers comply with the limits of each 
nation's HOS. Currently, all European Union countries, along with 
Turkey, Israel, Japan, South Korea, Brazil, Venezuela, and Singapore, 
require automated recording devices to monitor driver hours of service 
compliance.
    EOBRs can automatically record the hours that commercial operators 
drive trucks and motorcoaches in interstate commerce. EOBRs can also 
link with engines, transmissions, and global positioning system (GPS) 
devices to record the distance and speed a commercial motor vehicle has 
traveled and whether it has used an illegal route or traversed a 
weight-posted bridge. Motor carriers that have voluntarily installed 
EOBRs are still only a small percentage of commercial motor vehicles, 
but motor carriers that use EOBRs praise the advantages they provide in 
terms of safety and efficiency since they eliminate the need for paper 
logbooks. This was stressed by a motor carrier industry witness in last 
year's hearing on EOBRs conducted by this Subcommittee.\38\
    Commercial driver fatigue is a major safety problem for both 
motorcoach operators and truck drivers. EOBRs are especially crucial to 
raising the level of motorcoach safety by ensuring that well-rested, 
alert drivers are in charge of the safety and lives of up to 58 
passengers onboard. EOBRs can ensure that drivers do not exceed maximum 
shift driving time and that they take the required off-duty rest time 
to restore their performance at the wheel. Moreover, EOBRs on 
interstate motorcoaches permit real-time monitoring of the routing and 
location of a motorcoach so that, in the event of a serious event such 
as a crash or fire, expeditious response by emergency medical personnel 
and enforcement authorities can make a substantial difference in the 
number of deaths and severe, disabling injuries that result from these 
serious incidents.
    However, despite widespread, chronic violation of HOS limits by 
commercial drivers, FMCSA in early 2007 proposed a very weak regulation 
that will require virtually no motor carriers to install EOBRs on big 
trucks and buses.\39\ The proposed rule would use EOBRs as a punishment 
for motor carriers that fail two consecutive CRs. In fact, only a 
minute number of companies--less than one-tenth of one percent--would 
be required to install EOBRs if that proposal is adopted. It is clear 
that FMCSA is openly avoiding the need to ensure that commercial 
drivers adhere to current HOS regulations limiting driving and working 
time, and ensuring minimum off-duty rest periods.
    The Motorcoach Enhanced Safety Act includes a provision to require 
EOBRs. Without a specific direction from Congress to FMCSA, the agency 
will not require EOBRs on all interstate commercial motor vehicles, to 
the detriment of safety.
Conclusion and Recommendations
    Passenger transportation safety by over-the-road motorcoaches is 
not held to the high safety standards of commercial passenger aviation. 
Motorcoach crashes can take many lives in a single event and inflict 
severe injuries on numerous passengers. NTSB's studies and crash 
reports document the deadly outcome of a catastrophic motorcoach crash, 
and its safety recommendations provide solutions that will dramatically 
improve motorcoach safety. Because DOT and the safety agencies have not 
implemented recommended safety countermeasures, despite having had 
ample opportunity to do so and reams of supporting evidence, Congress 
must take action to increase the level of motorcoach safety and improve 
the quality of Federal and state oversight.
    Advocates recommends that the Subcommittee embrace the Motorcoach 
Enhanced Safety Act of 2007, S. 2326. This legislation will jumpstart 
motorcoach safety by putting numerous safety improvements on reasonable 
timelines for U.S. DOT rulemaking action. The outcome in just several 
years would be fewer motorcoach crashes with fewer injuries and deaths.
    We further recommend, however, that additional provisions be added 
to S. 2326 to address the need for the imposition of criminal penalties 
for persons who illegally continue to operate a motor carrier after 
having been ordered to cease operations, to establish a performance 
standard for retreaded tires used on commercial motor vehicles, and to 
require event data recorders (EDRs) on motorcoaches to assist crash 
investigators in reconstructing how and why each motorcoach crash 
occurs. NTSB has repeatedly called for EDRs as critically important to 
passenger transportation safety.\40\
    Thank you for the opportunity to provide this information to the 
Subcommittee on a major safety problem. We at Advocates look forward to 
working with the Subcommittee and the full Committee on these issues, 
and I am prepared to respond to any questions you may have.
Endnotes
    \1\ Although Advocates' testimony centers on over-the-road 
motorcoaches, much of our critique of motorcoach safety design, 
operating safety, and agency oversight also applies to other types of 
buses and to some passenger-carrying vans that fall under the 
jurisdiction of both FMCSA and NHTSA.
    \2\ Motorcoach Override of Elevated Exit Ramp Interstate 75, 
Atlanta, Georgia, March 2, 2007, Appendix C, National Transportation 
Safety Board Accident Report HTSB/HAR-08/01, July 8, 2008 (Bluffton 
University Motorcoach Crash Report).
    \3\ Data supplied in special data run performed by the National 
Highway Traffic Safety Administration's (NHTSA) National Center for 
Statistics and Analysis (NCSA).
    \4\ Id.
    \5\ Bluffton University Motorcoach Crash Report.
    \6\ Title 49 CFR  382.305.
    \7\ Motorcoach Fire On Interstate 45 During Hurricane Rita 
Evacuation Near Wilmer Texas, September 23, 2005.
    \8\ Title 49 CFR  391.11(b)(2).
    \9\ See, 49 CFR Pt. 385 for a description of FMCSA's safety rating 
process.
    \10\ http://testimony.ost.dot.gov/test/Sandberg1.htm, May 2, 2006.
    \11\ Bluffton University Motorcoach Crash Report at 52.
    \12\ Id. at 54.
    \13\ For example, see NTSB's recommendation H-71-35 that was closed 
out on October 29, 1975.
    \14\ See, e.g., Commercial Motor Vehicles: Effectiveness of Actions 
Being Taken to Improve Motor Carrier Safety Is Unknown. Report to the 
Chairman, Subcommittee on Transportation and Relative Agencies, 
Committee on Appropriations, House of Representatives, GAO/RCED-001-89 
(July 2000); Significant Improvements in Motor Carrier Safety Program 
Since 1999 Act but Loopholes for Repeat Violators Need Closing, OIG 
Report Number MH<INF>2</INF>006-046, April 21, 2006; Improvements 
Needed in Motor Carrier Safety Status Measurement System, OIG Report 
Number MH-2004-034, (Feb. 2004); A Statistical Approach Will Better 
Identify Commercial Carriers That Pose High Crash Risks Than Does the 
Current Federal Approach, GAO-07-585 (June 2007); Motor Carrier Safety: 
Federal Safety Agency Identifies Many High-Risk Carriers but Does Not 
Assess Maximum Fines as Often as Required by Law, GOA-07-584 (Aug. 
2007).
    \15\ Safe, Accountable, Flexible, Efficient Transportation Equity 
for the Twenty-First Century: A Legacy for Users, Pub. L. 109-59 (Aug. 
10, 2005).
    \16\ Cameron Gulbransen Kids Transportation Safety Act of 2007, 
Pub. L. 110-189 (Feb. 28, 2008).
    \17\ NHTSA's Approach to Motorcoach Safety, Aug. 6, 2007.
    \18\ E. Mayrhofer, H. Steffan, H. Hoschopf, Enhanced Coach and Bus 
Occupant Safety, Paper 05-0351, Graz University of Technology Vehicle 
Safety Institute, Austria, 2005.
    \19\ M. Griffiths, M. Paine, R. Moore, Three Point Seat Belts on 
Coaches--The First Decade in Australia, Queensland Transport, 
Australia, Abstract ID -5-0017, 2005. The authors report that, since 
1994 when 3-point belts were required in motorcoaches, several serious 
crashes have occurred, no belted coach occupant has received either 
fatal or disabling injuries.
    \20\ http://www.fmcsa.dot.gov/facts-research/facts-figures/
analysis-statistics/cmvfacts.htm. There are no separate figures for 
motorcoaches provided, but the United Motorcoach Association estimates 
that there are probably about 45,000 to 50,000 commercial over-the-road 
motorcoaches in the U.S. There is, in addition, an unknown number of 
``private'' motorcoaches such as those used for schools, church groups, 
and other organizations, some of which are interstate and must conform 
to most Federal Motor Carrier Safety Regulations. It is difficult to 
reconcile these figures with those from FMCSA (see, the text and 
footnote below) and the figures provided by the American Bus 
Association in its Motorcoach Census 2005: Second Benchmarking Study of 
the Motorcoach Industry in the United States and Canada, September 
2006, in which it is stated that in 2004 the industry consisted of 
3,500 companies operating nearly 40,000 motorcoaches.
    \21\ See, Statement of John Hill, Administrator, Federal Motor 
Carrier Safety Administration, before the House Committee on 
Transportation and Infrastructure, Subcommittee on Highways, Transit, 
and Pipelines, March 20, 2007. Also, see, http://ai.fmcsa.dot.gov/
International/border. 
asp?dvar+3&cvar=pass&redirect=HistoricalOverview.asp&p=1. However, 
there are substantial discrepancies throughout FMCSA's website on the 
number of passenger carriers. For example, one page providing figures 
states that there were 5,211 passenger carriers registered with the 
agency as of 2006. http://www.fmcsa.dot.gov/facts-research/facts-
figures/analysis-statistics/cmvfacts.htm. There is no explanation of 
what kinds of passenger carriers this includes.
    \22\ Pub. L. 102-240, 105 Stat. 1914 (Dec. 18, 1991).
    \23\ 69 FR 29384 et seq., May 21, 2004.
    \24\ 429 F.3d 1136 (D.C. Cir. 2005).
    \25\ Id. at 3-4.
    \26\ 72 FR 73226 (Dec. 26, 2007).
    \27\ 72 FR 73227-73228.
    \28\ Id. at 73231-73232.
    \29\ The most recent statement of the governing regulations for 
determining safety fitness is the FMCSA final rule of August 22, 2000 
(65 FR 50919), which was a response to the increased stringency of 
safety fitness requirements enacted in Section 4009 of TEA-21 that 
amended 49 U.S.C.  31144, originally enacted by Section 215 of the 
Motor Carrier Safety Act of 1984 (Pub. L. 98-554). This final rule 
amended the regulations for safety fitness determinations in 49 CFR 
Pts. 385 and 386. Pt. 385 contains the controlling criteria for making 
safety fitness determinations and Pt. 386 contains the rules of 
practice for the agency controlling the issuance of CR ratings, 
petitions, hearings, orders, and other administrative machinery for 
conducting the oversight and enforcement programs of FMCSA. It should 
also be noted that FMCSA recognizes that its administrative selection 
of the three rating categories of safety fitness, Satisfactory, 
Conditional, and Unsatisfactory, has been legislatively enshrined 
through explicit mention and use of the three ratings in Section 15(b) 
of the Motor Carrier Safety Act of 1990. 49 U.S.C.  31144.
    \30\ Section 215 of the Motor Carrier Safety Act of 1984 requires 
the Secretary to maintain, by regulation, a procedure for determining 
the safety fitness of an owner or operator of commercial motor 
vehicles. 49 U.S.C.  31144.
    \31\ Motor Carrier Safety Program, DOT Office of Inspector General, 
Report Number AS-FH-7-006, March 26, 1997. The goal of assigning safety 
ratings to all motor carriers by September 30, 1992, was a self-imposed 
target by FHWA that could not be attained, as pointed out in the GAO 
report of January 1991, Truck Safety: Improvements Needed in FHWA's 
Motor Carrier Safety Program, Report No. GAO/RCED-91-30. At the time of 
GAO's preparation of this report, FHWA had not rated about 60 percent 
of interstate motor carriers. As GAO points out in this report, the 
agency decided that its safety oversight resources would be better 
spent than attempting to safety rate all motor carriers in accordance 
with legislative requirements. On October 1, 1994, FHWA discontinued 
safety reviews to assess unrated motor carriers.
    \32\ See, http://www.ntsb.gov/Recs/mostwanted/truck_safety.htm. As 
previously mentioned, NTSB recommends that if a carrier receives an 
Unsatisfactory rating for either the vehicle factor or the driver 
factor, that alone should trigger a pending Unsatisfactory rating. 
According to NTSB, this recommendation ha been reissued annually since 
199, but FMCSA does not plan full implementation of any changes to its 
safety rating system and other oversight processes until 2010 at the 
earliest.
    \33\ http://ai.fmcsa.dot.gov/Passenger/find_carrier.asp.
    \34\ Title 49 Code of Federal Regulation (CFR) Part 396; Sec. 210 
of the Motor Carrier Safety Act of 1984 (49 U.S.C.  31142).
    \35\ 63 FR 8516 et seq., February 19, 1998.
    \36\ 66 FR 32863 (June 18, 2001).
    \37\ Section 210, Motor Carrier Safety Act of 1984, op. cit., 
codified at 49 U.S.C.  31142.
    \38\ ``Electronic On-Board Recorders (EOBRs) and Truck Driver 
Fatigue Reduction,'' Committee on Transportation and Infrastructure, 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security, U.S. Senate, May 1, 2007.
    \39\ 72 FR 2340 (Jan. 18, 2007).
    \40\ See, NTSB Recommendation H-99-53, reissued as one of the NTSB 
recommendations in the recently published report on the motorcoach 
crash of the Bluffton University baseball team, ``Motorcoach Override 
of Elevated Exit Ramp Interstate 75, Atlanta, Georgia, March 2, 2007,'' 
op. cit.
                                 ______
                                 
                                Appendix
Motorcoach Crashes
September 2008
    This list contains 101 motorcoach crashes including many incidents 
investigated by the National Transportation Safety Board (NTSB) and 
examples of other serious motorcoach crashes that have been publicly 
reported in the national media. In some cases specific dates are not 
available. NHTSA data reflects that 1,117 motorcoaches have been 
involved in crashes between 1975 and 2005, but specific information is 
not available for each individual crash.

------------------------------------------------------------------------
    Date of Crash            Location                 Description
------------------------------------------------------------------------
August 10, 2008       Primm, NV               Motorcoach rolled off the
                                               road after experiencing
                                               tire failure. 29
                                               passengers were injured.
------------------------------------------------------------------------
August 10, 2008       Tunica, MS              Motorcoach overturned on a
                                               median, killing 3
                                               passengers. The roof
                                               partially collapsed in
                                               the rollover. No cause
                                               determined as of yet.
------------------------------------------------------------------------
August 8, 2008        Sherman, TX             Motorcoach carrying 55
                                               passengers crashed after
                                               blowing a tire and
                                               skidding off of the
                                               highway, hitting a
                                               guardrail and coming to
                                               rest on its side. 14
                                               people were killed, and
                                               40 were injured. NTSB is
                                               investigating. The
                                               blowout contributed to
                                               the crash. The Sherman PD
                                               released a report that
                                               also claimed that faulty
                                               evasive action at the
                                               time of the blowout
                                               contributed to the crash.
------------------------------------------------------------------------
January 17, 2008      Primm, NV               Motorcoach ran off the
                                               highway, struck a
                                               guardrail, and
                                               overturned. The fuel
                                               tanks were breached, and
                                               the bus caught on fire.
                                               No fatalities, 25
                                               passengers were injured.
                                               No cause determined as of
                                               yet.
------------------------------------------------------------------------
January 7, 2008       Mexican Hat, UT         Motorcoach carrying 51
                                               passengers ran off a
                                               curvy road, rolled
                                               several times, and the
                                               roof was split open. The
                                               tires were stripped off.
                                               Passengers were thrown
                                               from the bus, and 9 were
                                               killed. The contributing
                                               factor was the driver's
                                               negotiation of the turn.
------------------------------------------------------------------------
January 2, 2008       Victoria, TX            Motorcoach carrying
                                               passengers from Mexico
                                               ran off the road,
                                               overcorrected and rolled
                                               over, killing one
                                               passenger. Driver fatigue
                                               could be a factor in the
                                               crash.
------------------------------------------------------------------------
January 2, 2008       Henderson, NC           Motorcoach collided with a
                                               tractor-trailer when it
                                               failed to slow down when
                                               the truck was making a
                                               left turn. The bus ran
                                               off the road, down an
                                               embankment and onto its
                                               side. 50 passengers were
                                               injured.
------------------------------------------------------------------------
June 25, 2007         Bowling Green, KY       Motorcoach veered off the
                                               road and hit an overpass,
                                               killing two passengers
                                               and injuring 66. The
                                               driver apparently dozed
                                               off while driving.
------------------------------------------------------------------------
March 2, 2007         Atlanta, GA             Motorcoach carrying
                                               Bluffton University
                                               baseball team crashed
                                               through an overpass
                                               bridge wall and fell 19
                                               feet onto Interstate 75
                                               landing on its side.
                                               Seven motorcoach
                                               occupants were killed and
                                               21 injured. NTSB found
                                               that the lack of an
                                               adequate occupant
                                               protection system
                                               contributed to the
                                               severity of the crash.
------------------------------------------------------------------------
May 20, 2007          Clearfield, PA          NTSB investigation.
                                               Rollover crash: 2
                                               passengers killed, 25
                                               injured.
------------------------------------------------------------------------
Sept. 6, 2006         Auburn, MA              NTSB investigation.
                                               Rollover crash: 34
                                               passengers injured.
------------------------------------------------------------------------
August 28, 2006       Westport, NY            NTSB investigation.
                                               Rollover crash: 4
                                               passengers killed, 48
                                               injured.
------------------------------------------------------------------------
March 30, 2006        Houston, TX             Motorcoach carrying girls'
                                               soccer team was trying to
                                               avoid debris falling from
                                               a tractor- trailer when
                                               it lost control on
                                               slippery pavement and
                                               overturned. Two
                                               passengers were killed.
                                               The Texas Department of
                                               Public Safety cited the
                                               tractor-trailer driver
                                               for improperly securing
                                               the load and the bus
                                               driver for faulty evasive
                                               action. NTSB found that
                                               passenger restraints and
                                               strengthened glass
                                               windows on the bus could
                                               have prevented some
                                               injuries.
------------------------------------------------------------------------
October 25, 2005      San Antonio, TX         Motorcoach crashed into
                                               two 18-wheelers after its
                                               tire was blown. The
                                               driver was killed, and
                                               two passengers and a
                                               truck driver sustained
                                               injuries.
------------------------------------------------------------------------
October 16, 2005      Osseo, WI               NTSB investigation.
                                               Frontal impact crash: 4
                                               passengers killed, 35
                                               injured.
------------------------------------------------------------------------
Sept. 23, 2005        Wilmer, TX              Motorcoach carrying 44
                                               assisted living facility
                                               residents and nursing
                                               staff as part of the
                                               evacuation in
                                               anticipation of Hurricane
                                               Rita caught fire. 23
                                               passengers were fatally
                                               injured. Of the 21
                                               passengers who escaped, 2
                                               were seriously injured
                                               and 19 received minor
                                               injuries, including the
                                               motorcoach driver. NTSB
                                               found that insufficient
                                               lubrication in the right-
                                               side tag axle wheel-
                                               bearing assembly of the
                                               motorcoach, resulting in
                                               increased temperatures
                                               and subsequent failed
                                               wheel bearings, led to
                                               the catastrophic fire.
                                               Lack of fire-retardant
                                               construction materials
                                               and failure to conduct
                                               routine maintenance were
                                               contributing factors in
                                               the severity of the
                                               crash.
------------------------------------------------------------------------
July 25, 2005         Baltimore, MD           NTSB investigation.
                                               Rollover crash: 33
                                               passengers killed.
------------------------------------------------------------------------
January 29, 2005      Geneseo, NY             NTSB investigation.
                                               Frontal impact crash: 3
                                               passengers killed, 20
                                               injured.
------------------------------------------------------------------------
Nov. 14, 2004         Alexandria, VA          Motorcoach was
                                               transporting 27 high
                                               school students to Mount
                                               Vernon, Virginia when it
                                               collided with an
                                               overpass. 10 passengers
                                               received minor injuries
                                               and another sustained
                                               serious injury. NTSB
                                               found that the bus
                                               driver's failure to
                                               notice and respond to
                                               posted low-clearance
                                               warning signs and driver
                                               distraction resulting
                                               from talking on his hands-
                                                free cellular telephone
                                               while driving were the
                                               causes of the crash.
------------------------------------------------------------------------
October 9, 2004       Turrell, AR             NTSB investigation.
                                               Rollover crash: 14
                                               passengers killed, 15
                                               injured.
------------------------------------------------------------------------
August 6, 2004        Jackson, TN             NTSB investigation.
                                               Frontal impact crash: 2
                                               passengers killed, 18
                                               injured.
------------------------------------------------------------------------
May 24, 2004          Anahuac, TX             Motorcoach collided with a
                                               tractor-trailer, killing
                                               one passenger.
------------------------------------------------------------------------
Feb. 22, 2004         North Hudson, NY        NTSB investigation.
                                               Frontal impact crash: 47
                                               passengers injured.
------------------------------------------------------------------------
2004                  Phoenix, AZ             NTSB investigation.
                                               Frontal impact crash: 1
                                               passenger killed, 38
                                               injured.
------------------------------------------------------------------------
October 13, 2003      Tallulah, LA            Motorcoach carrying 14
                                               passengers struck a
                                               tractor-trailer. 8
                                               passengers were killed,
                                               the driver and 6 other
                                               passengers sustained
                                               minor injuries, and the
                                               driver of the tractor-
                                               trailer was uninjured.
                                               NTSB determined that the
                                               cause was the driver's
                                               reduced alertness caused
                                               by fatigue as a result of
                                               his chronic insomnia and
                                               poor quality sleep. Also
                                               contributing was the
                                               failure of the motorcoach
                                               seat anchorages.
------------------------------------------------------------------------
Feb. 14, 2003         Hewitt, TX              Motorcoach transporting 34
                                               passengers crashed
                                               through a median and into
                                               oncoming traffic,
                                               colliding with a sport
                                               utility vehicle and a
                                               pickup truck. The driver
                                               and passenger of the SUV
                                               and 5 motorcoach
                                               passengers sustained
                                               fatal injuries.
                                               Motorcoach driver
                                               sustained serious
                                               injuries; remaining
                                               passengers sustained
                                               minor to serious
                                               injuries. NTSB found
                                               probable cause of the
                                               crash was state
                                               authorities decision to
                                               set a speed limit that
                                               did not take into account
                                               the roadway's limited
                                               sight distance or its
                                               poor conditions in wet
                                               weather was. The lack of
                                               a median barrier and an
                                               occupant protection
                                               system contributed to the
                                               severity of the crash.
------------------------------------------------------------------------
2003                  Apache Co., AZ          NTSB investigation.
                                               Rollover crash: 44
                                               passengers injured.
------------------------------------------------------------------------
October 1, 2002       Nephi, UT               NTSB investigation.
                                               Rollover crash: 6
                                               passengers killed, 20
                                               injured.
------------------------------------------------------------------------
June 23, 2002         Victor, NY              Motorcoach carrying 47
                                               passengers crashed
                                               through the grassy area
                                               between an exit ramp and
                                               entrance ramp, dragging a
                                               guardrail and coming to
                                               rest on its right side.
                                               The guardrail hit three
                                               cars. 5 passengers were
                                               killed, 41 passengers and
                                               the driver sustained
                                               minor injuries, and the
                                               vehicle passengers had
                                               minor injuries. NTSB
                                               found that the cause of
                                               the crash was due to the
                                               driver falling asleep at
                                               the wheel. A contributing
                                               factor was the lack of
                                               proper restraints for the
                                               motorcoach passengers.
------------------------------------------------------------------------
June 9, 2002          Loraine, TX             Motorcoach carrying 37
                                               passengers collided with
                                               the back of a tractor-
                                               trailer that entered the
                                               highway from an entrance
                                               ramp. Three passengers in
                                               the front of the
                                               motorcoach were killed, 5
                                               passengers and the driver
                                               were seriously injured,
                                               24 passengers sustained
                                               minor injuries. NTSB
                                               found that the
                                               unnecessarily slow
                                               acceleration by tractor-
                                               trailer was the cause of
                                               the crash. The driver of
                                               the tractor-trailer was
                                               also impaired by cocaine.
------------------------------------------------------------------------
April 24, 2002        Kinder, LA              Motorcoach drove into
                                               telephone pole, killing
                                               the driver and 4
                                               passengers. Driver was
                                               found medically
                                               incapacitated.
------------------------------------------------------------------------
October 3, 2001       Manchester, TN          NTSB investigation.
                                               Rollover crash: 6
                                               passengers killed,
                                               unknown injuries.
------------------------------------------------------------------------
August 19, 2001       Pleasant View, TN       Motorcoach carrying 47
                                               passengers drifted off
                                               the roadway and crashed
                                               onto its right side. One
                                               passenger was killed, 38
                                               had minor-to-serious
                                               injuries. NTSB found that
                                               driver fatigue was the
                                               contributing factor to
                                               the crash.
------------------------------------------------------------------------
January 2, 2001       San Miguel, CA          Motorcoach carrying 5
                                               passengers ran off the
                                               right side of the
                                               highway, struck a
                                               guardrail, and went over
                                               a bridge rail, plunging
                                               23 feet. It came to rest
                                               on its side after rolling
                                               over at the pavement
                                               below. 2 passengers were
                                               ejected and killed, 3
                                               passengers were injured.
                                               NTSB found that the cause
                                               of the crash was driver
                                               fatigue.
------------------------------------------------------------------------
2001                  Allamuchy, NJ           NTSB investigation.
                                               Rollover crash: 39
                                               passengers injured.
------------------------------------------------------------------------
2001                  Bay St. Louis, MO       NTSB investigation.
                                               Frontal impact crash: 16
                                               passengers injured.
------------------------------------------------------------------------
2001                  Fairplay, CO            NTSB investigation.
                                               Rollover crash: 45
                                               passengers injured.
------------------------------------------------------------------------
August 27, 2000       Eureka, MO              NTSB investigation.
                                               Frontal impact crash: 25
                                               passengers injured.
------------------------------------------------------------------------
Dec. 21, 1999         Canon City, CO          Motorcoach carrying 59
                                               passengers lost control
                                               on a curve, rolled at
                                               least once down an
                                               embankment, and came to
                                               rest on the roof. The
                                               driver and two passengers
                                               were killed, 33
                                               passengers had serious
                                               injuries, and 24 had
                                               minor injuries. NTSB
                                               found the driver was at
                                               fault for not maintaining
                                               control of the vehicle in
                                               icy conditions. The
                                               reason the driver did not
                                               slow down the vehicle
                                               before the crash was not
                                               determined.
------------------------------------------------------------------------
May 9, 1999           New Orleans, LA         Motorcoach carrying 43
                                               passengers crashed when
                                               it departed the highway
                                               onto a shoulder, struck a
                                               guardrail, vaulted over a
                                               golf cart path, and into
                                               a dirt embankment. 22
                                               passengers were killed,
                                               15 passengers had serious
                                               injuries, and 6
                                               passengers had minor
                                               injuries. NTSB found the
                                               crash was caused by the
                                               driver's incapacitation
                                               due to a severe medical
                                               condition, in addition to
                                               the driver's fatigue and
                                               marijuana use.
------------------------------------------------------------------------
April 30, 1999        Braidwood, IL           NTSB investigation.
                                               Rollover crash: 1
                                               passenger killed, 23
                                               injured.
------------------------------------------------------------------------
March 2, 1999         Sante Fe Ski Basin,     Motorcoach carrying 36
                       New Mexico              passengers crashed when
                                               the driver lost control
                                               on a downward-sloping
                                               portion of a mountainous
                                               road and crashed into a
                                               rock embankment. 2
                                               passengers were killed,
                                               and 35 others injured.
                                               NTSB found that the cause
                                               of the crash was the poor
                                               condition of the
                                               motorcoach brakes due to
                                               the lack of an effective
                                               motor carrier vehicle
                                               maintenance and
                                               inspection program.
------------------------------------------------------------------------
December 24, 1998     Old Bridge, NJ          NTSB investigation.
                                               Rollover crash: 8
                                               passengers killed, 14
                                               injured.
------------------------------------------------------------------------
June 20, 1998         Burnt Cabins, PA        Motorcoach carrying 23
                                               passengers crashed when
                                               it drifted onto the right
                                               shoulder of the road into
                                               an emergency parking
                                               area, and into a parked
                                               tractor-trailer that
                                               struck another parked
                                               tractor-trailer. 6
                                               passengers and the bus
                                               driver were killed, and
                                               16 passengers were
                                               injured. NTSB found that
                                               the cause of the crash
                                               was reduced driver
                                               alertness due to taking a
                                               sedating antihistamine
                                               and driver fatigue due to
                                               irregular work-rest
                                               periods.
------------------------------------------------------------------------
Sept. 13, 1997        Jonesboro, AR           Motorcoach failed to stop
                                               at a T intersection and
                                               continued through a ditch
                                               and earthen levee. 1
                                               passenger was killed, 6
                                               injured.
------------------------------------------------------------------------
July 29, 1997         Stony Creek, VA         Motorcoach left the
                                               roadway on the right,
                                               vaulted through small
                                               trees and came to rest on
                                               its side in a river. 1
                                               passenger was killed, 32
                                               injured.
------------------------------------------------------------------------
June 11, 1997         Normandy, MO            Motorcoach collided with
                                               pedestrians after a
                                               routine stop by a driver
                                               trainee. The driver
                                               claimed he could not stop
                                               the vehicle. 4
                                               pedestrians were killed,
                                               and 3 others injured.
                                               NTSB found that the cause
                                               of the crash was
                                               insufficient pedestrian
                                               protection and the need
                                               for positive separation
                                               between the roadway and
                                               pedestrian areas.
------------------------------------------------------------------------
June 6, 1997          Albuquerque, NM         Motorcoach drifted off the
                                               roadway, rode up and over
                                               a guardrail and hit a
                                               cement wall. Driver was
                                               fatigued. 1 passenger was
                                               killed, 35 passengers
                                               injured.
------------------------------------------------------------------------
August 2, 1996        Roanoke Rapids, NC      Motorcoach driver was
                                               fatigued. 19 passengers
                                               injured.
------------------------------------------------------------------------
October 14, 1995      Indianapolis, IN        Motorcoach entered an exit
                                               at high speeds and
                                               overturned. 2 passengers
                                               were killed, 38 injured.
------------------------------------------------------------------------
July 23, 1995         Bolton Landing, NY      Motorcoach lost control on
                                               a steep downward slope,
                                               and overturned. 1
                                               passenger was killed, 30
                                               injured.
------------------------------------------------------------------------
April 24, 1994        Chestertown, NY         Motorcoach drifted off the
                                               road and rolled over.
                                               Driver was fatigued. 1
                                               passenger was killed, 20
                                               passengers injured.
------------------------------------------------------------------------
Feb. 22, 1994         North Hudson, NY        Motorcoach carrying 47
                                               passengers collided with
                                               tractor-trailer that was
                                               stopped in traffic.
                                               Driver said he didn't see
                                               any brake lights on the
                                               trailer. 8 passengers
                                               injured.
------------------------------------------------------------------------
January 29, 1994      Pueblo, CA              Motorcoach slid out of
                                               control on icy pavement
                                               and rolled over. 1
                                               passenger was killed, 8
                                               injured.
------------------------------------------------------------------------
Sept. 17, 1993        Winslow Township, NJ    A truck drifted into the
                                               lane of the motorcoach,
                                               causing a head-on
                                               collision. 6 passengers
                                               were killed, 8 injured.
------------------------------------------------------------------------
Sept. 10, 1993        Phoenix, AZ             Motorcoach ran off the
                                               road and overcorrected,
                                               then overturned. Driver
                                               was fatigued. 33
                                               passengers were injured.
------------------------------------------------------------------------
June 26, 1993         Springfield, MO         Motorcoach collided with a
                                               passenger vehicle head
                                               on, then left the roadway
                                               and turned over on its
                                               side. 1 passenger was
                                               killed, 46 injured.
------------------------------------------------------------------------
July 26, 1992         Vernon, NJ              Motorcoach carrying 37
                                               passengers lost control
                                               on a steep hill, crashing
                                               into two cars,
                                               overturning, and coming
                                               to rest upright. 12
                                               passengers were ejected
                                               from the bus, 6 of whom
                                               were killed. NTSB found
                                               that the driver's
                                               inability to maintain the
                                               bus adequately and
                                               choosing to operate a bus
                                               with known brake
                                               deficiencies caused the
                                               crash.
------------------------------------------------------------------------
April 11, 1992        Schroon Lake, NY        Motorcoach lost control,
                                               rolling over several
                                               times. 2 passengers were
                                               killed, 29 injured.
------------------------------------------------------------------------
January 24, 1992      South Bend, IN          Motorcoach lost control on
                                               a snowy road when a
                                               passenger vehicle stopped
                                               in front of it. Witnesses
                                               say there was no vehicle
                                               ahead. 2 passengers were
                                               killed, 34 injured.
------------------------------------------------------------------------
June 26, 1991         Donegal, PA             Motorcoach ran off the
                                               right side of the road
                                               and overturned. One
                                               passenger was killed and
                                               14 passengers injured.
                                               NTSB found that the cause
                                               of the crash was the
                                               failure of Greyhound
                                               Lines, Inc., to ensure
                                               that the bus driver had
                                               adequate training and
                                               experience to operate
                                               intercity buses safely,
                                               resulting in his
                                               inability to control the
                                               vehicle, which ran off
                                               the road and overturned.
------------------------------------------------------------------------
August 3, 1991        Caroline, NY            Motorcoach ran off the
                                               right side of the road
                                               and overturned. 33
                                               passengers were injured,
                                               and 5 were uninjured.
                                               NTSB found that the cause
                                               of the crash was the
                                               failure of Greyhound
                                               Lines, Inc., to ensure
                                               that the bus drivers had
                                               adequate training and
                                               experience to operate
                                               intercity buses safely,
                                               resulting in their
                                               inability to control
                                               their vehicles, which ran
                                               off the road and
                                               overturned.
------------------------------------------------------------------------
February 2, 1991      Joliett, PA             Motorcoach swerved to the
                                               right when the driver was
                                               reaching for a water
                                               bottle. The driver
                                               corrected and veered off
                                               the other side of the
                                               roadway. 2 passengers
                                               were killed, 44 injured.
------------------------------------------------------------------------
May 18, 1990          Big Pine, CA            Motorcoach ran off the
                                               road and hit a rock and
                                               earthen slope. 2
                                               passengers were killed,
                                               43 injured.
------------------------------------------------------------------------
Feb. 18, 1989         Falfurrias, TX          Motorcoach skidded on wet
                                               pavement, lost control
                                               and overturned onto an
                                               embankment. 4 passengers
                                               were killed, 19 injured.
------------------------------------------------------------------------
Nov. 29, 1988         Tinton Falls, NJ        The bus driver lost
                                               control of the bus and it
                                               overturned. Passengers
                                               injured. NTSB found that
                                               the cause of the crash
                                               was the bus driver's
                                               inattention that resulted
                                               in the loss of control of
                                               his vehicle.
------------------------------------------------------------------------
Nov. 19, 1988         Nashville, TN           Motorcoach carrying 45
                                               passengers lost control
                                               in a steering maneuver
                                               and overturned. 38
                                               passengers were injured.
                                               NTSB found the cause of
                                               the crash to be the
                                               driver's excessive speed,
                                               which was above the
                                               regulatory limit, and
                                               excessive due to weather
                                               conditions.
------------------------------------------------------------------------
July 24, 1988         Camden, AL              Motorcoach lost control
                                               and rolled over. 1
                                               passenger was killed, 30
                                               injured.
------------------------------------------------------------------------
July 23, 1988         Little Egg Harbor       Motorcoach lost control
                      Township, NJ             and ran off of the
                                               highway. Passengers
                                               injured. NTSB found that
                                               the crash was caused by
                                               the bus driver's
                                               impairment from the
                                               recent use of cocaine
                                               while on duty which
                                               resulted in the loss of
                                               control of the vehicle.
------------------------------------------------------------------------
Sept. 6, 1987         Middletown Township,    Motorcoach ran off the
                       NJ                      road and overturned.
                                               Driver and one passenger
                                               were killed, 32
                                               passengers injured. NTSB
                                               found that the cause of
                                               the crash was the bus
                                               driver's lack of
                                               vigilance due to fatigue,
                                               which resulted in his
                                               failure to perceive that
                                               the vehicle was leaving
                                               the roadway.
------------------------------------------------------------------------
May 4, 1987           Beaumont, TX            A tractor-trailer
                                               jackknifed on an
                                               interstate, crashing into
                                               an intercity bus. Driver
                                               and 5 motorcaoch
                                               passengers killed, 17
                                               passengers were injured.
                                               NTSB found that the
                                               driver of tractor-trailer
                                               was operating at
                                               excessive speed for the
                                               weather conditions.
------------------------------------------------------------------------
April 4, 1987         Alexandria, VA          Motorcoach carrying 65
                                               passengers struck an
                                               arched stone overpass,
                                               shearing off the roof. 33
                                               passengers sustained
                                               injuries, 1 person died
                                               10 hours later from
                                               injuries in the crash.
------------------------------------------------------------------------
October 9, 1986       North Bergen, NJ        Motorcoach veered into an
                                               adjacent lane, struck a
                                               passenger vehicle, then
                                               struck another transit
                                               bus. One person on the
                                               other bus was killed, and
                                               26 other passengers were
                                               injured from both buses.
                                               NTSB found the cause of
                                               the crash was the
                                               distraction of the bus
                                               driver from his driving
                                               duties while assisting a
                                               bus passenger.
------------------------------------------------------------------------
Sept. 29, 1986        Carney's Point, NJ      Motorcoach crashed into
                                               the back of a slower
                                               moving tractor-trailer.
                                               Passengers injured. NTSB
                                               found the cause of the
                                               crash to be the bus
                                               driver's inattention to
                                               his driving task and his
                                               misjudgment of the
                                               closing speed between the
                                               bus and the truck in
                                               front of him.
------------------------------------------------------------------------
July 14, 1986         Brinkley, AR            Motorcoach carrying 28
                                               passengers crashed into
                                               the rear of a tractor-
                                               trailer, then left the
                                               pavement and overturned.
                                               Injuries and fatalities
                                               not known. NTSB found
                                               that the cause of the
                                               crash was that the
                                               tractor-trailer had made
                                               an illegal U-Turn, and
                                               the bus was traveling at
                                               an excessive speed that
                                               did not permit adequate
                                               time and distance to slow
                                               or stop the bus to avoid
                                               the collision.
------------------------------------------------------------------------
May 30, 1986          Walker, CA              Motorcoach carrying 40
                                               passengers lost control
                                               in an S curve, and came
                                               to rest in a river. 21
                                               passengers were killed,
                                               19 passengers and the
                                               driver were injured. NTSB
                                               found that the cause of
                                               the crash was excessive
                                               speed, failure of the
                                               driver to comply with
                                               advisory speed signs and
                                               to reduce the bus speed
                                               sufficiently to negotiate
                                               the S curve safely.
------------------------------------------------------------------------
October 9, 1986       North Bergen, NJ        Motorcoach veered into an
                                               adjacent lane and struck
                                               a passenger vehicle; then
                                               it struck another
                                               motorcoach. 1 passenger
                                               was killed, 27 injured.
------------------------------------------------------------------------
Sept. 13, 1985        Eureka Springs, AR      Motorcoach lost control
                                               and rolled over. Driver
                                               and 3 passengers killed,
                                               16 injured.
------------------------------------------------------------------------
August 25, 1985       Frederick, MD           Motorcoach lost control on
                                               wet pavement and crashed,
                                               coming to rest on a
                                               bridge over the Monocacy
                                               River. Passengers were
                                               ejected in the crash
                                               sequence. The bus driver
                                               and 5 passengers were
                                               killed, and 11 passengers
                                               had injuries. NTSB found
                                               that the loss of control
                                               and excessive speed
                                               contributed to the crash,
                                               as did the lack of an
                                               operative speedometer and
                                               highway signs warning of
                                               road conditions.
------------------------------------------------------------------------
June 20, 1985         Ackerly, TX             Motorcoach lost control on
                                               wet pavement, rolled over
                                               and came to rest on its
                                               roof. 4 passengers were
                                               killed, 27 injured.
------------------------------------------------------------------------
July 18, 1984         Cheyenne, WY            Motorcoach ran into the
                                               rear of a tractor-
                                               trailer. Driver was
                                               fatigued. 1 passenger was
                                               killed, 10 injured.
------------------------------------------------------------------------
Nov. 30, 1983         Livingston, TX          Motorcoach carrying 11
                                               passengers struck the
                                               back of a tractor-trailer
                                               that had just entered the
                                               highway. The truck
                                               crashed through a bridge
                                               guardrail and vaulted
                                               into a creek bank. 6
                                               passengers were killed,
                                               and 5 passengers and the
                                               bus driver had injuries.
                                               NTSB found that the cause
                                               of the crash was the
                                               driver's lack of
                                               alertness, probably due
                                               to fatigue. Excessive
                                               speed was a contributing
                                               factor.
------------------------------------------------------------------------
April 7, 1982         Oakland, CA             Motorcoach collided with
                                               passenger vehicle;
                                               involved in multi-vehicle
                                               collision. There were no
                                               passengers.
------------------------------------------------------------------------
June 15, 1981         Mt. McKinley National   Motorcoach carrying 32
                       Park, AK                passengers ran off the
                                               right side of the road
                                               and rolled over, sliding
                                               down a hill. 5 passengers
                                               were killed, 26
                                               passengers injured. NTSB
                                               found that the cause of
                                               the crash was driver lack
                                               of training and
                                               experience.
------------------------------------------------------------------------
April 20, 1981        Beltsville, MD          Motorcoach carrying 43
                                               passengers failed to stop
                                               as traffic ahead slowed
                                               and crashed into a
                                               passenger vehicle,
                                               causing a 4-car pile-up
                                               and a fire. Three
                                               passenger vehicle
                                               occupants were killed.
                                               The bus passengers and
                                               driver had minor
                                               injuries. NTSB found that
                                               the cause of the crash
                                               was due to the failure of
                                               the driver to maintain a
                                               safe stopping distance
                                               between the bus and
                                               traffic ahead.
------------------------------------------------------------------------
Feb. 18, 1981         Triangle, VA            Motorcoach veered off the
                                               roadway and overrode a
                                               guardrail, into a bridge,
                                               and landing in 2 feet of
                                               water on its side. 10
                                               passengers and the driver
                                               were killed. NTSB found
                                               that those least injured
                                               were the ones who left
                                               their seats and crouched
                                               between the seats or lay
                                               on the floor.
------------------------------------------------------------------------
Nov. 16, 1980         Luling, TX              Motorcoach lost control on
                                               wet pavement, skidding,
                                               rotating and coming to
                                               rest on its side across
                                               the roadway. 2 passengers
                                               were killed after they
                                               had been ejected from the
                                               bus in the crash.
------------------------------------------------------------------------
June 5, 1980          Jasper, AR              Motorcoach carrying 32
                                               passengers lost control
                                               in a left curve on a
                                               steep downgrade crashed
                                               into a drainage channel
                                               and was vaulted down an
                                               embankment. 20 passengers
                                               and the driver were
                                               killed, and 13 passengers
                                               were injured. NTSB found
                                               that driver fatigue,
                                               reduced fuel flow from a
                                               nonstandard fuel pump
                                               that adversely affected
                                               the bus driver's ability
                                               to downshift, and the
                                               improperly maintained
                                               airbrake system all
                                               contributed to the crash.
------------------------------------------------------------------------
May 21, 1976          Martinez, CA            Motorcoach carrying 52
                                               passengers mounted a
                                               section of the bridge
                                               rail system, rolled off
                                               the top of the rail and
                                               landed on its roof. 29
                                               passengers were killed
                                               and the others sustained
                                               injures. NTSB found that
                                               the failure of the
                                               driver, who was
                                               unfamiliar with the bus,
                                               to correctly monitor the
                                               service brake air
                                               pressure gauge, recognize
                                               the loss of air, and take
                                               appropriate action caused
                                               the crash.
------------------------------------------------------------------------
June 6, 1975          Hamilton, GA            A tractor-trailer collided
                                               with a motorcoach
                                               carrying 20 passengers.
                                               The truck driver and bus
                                               driver were killed. Most
                                               of the passengers were
                                               injured. NTSB found that
                                               the failure of the truck
                                               driver to operate at a
                                               proper speed for safe
                                               driving was the cause of
                                               the crash.
------------------------------------------------------------------------
Nov. 3, 1973          Sacramento, CA          Motorcoach ran off the
                                               road, overrode a
                                               guardrail and collided
                                               with a bridge column. The
                                               driver and 12 passengers
                                               were killed, 33
                                               passengers were injured.
                                               NTSB found that there
                                               should have been a better
                                               evacuation system.
------------------------------------------------------------------------
Sept. 21, 1972        New Jersey Turnpike,    A tractor-trailer carrying
                       Exit 8, NJ              propylene sideswiped a
                                               motorcoach, carrying no
                                               passengers. NTSB found
                                               that the cause of the
                                               crash was the evasive
                                               steering and skidding of
                                               the bus into the tractor-
                                               trailer.
------------------------------------------------------------------------
Sept. 3, 1972         Richmond, VA            Motorcoach traveled
                                               straight through a right
                                               curve, crashed into a
                                               median barrier rail,
                                               rotated across opposite
                                               lanes and vaulted off of
                                               the highway. Motorcoach
                                               driver was fatigued. 3
                                               passengers were killed,
                                               39 injured. NTSB found
                                               that if all passengers
                                               used restraints the
                                               number of passengers
                                               ejected from the bus
                                               would have been reduced.
------------------------------------------------------------------------
May 13, 1972          Bean Station, TN        Motorcoach carrying 27
                                               passengers hit a truck
                                               head-on as the bus
                                               attempted to pass a
                                               vehicle on a two-lane
                                               highway. The truck
                                               driver, bus driver and 12
                                               passengers were killed,
                                               and 14 passengers
                                               injured. 9 passengers had
                                               been ejected. NTSB found
                                               that the cause of this
                                               crash was the bus driver
                                               attempting to pass
                                               without unobstructed
                                               clear-sight distance
                                               ahead, and the bus
                                               driver's failure to avoid
                                               the truck, for unknown
                                               reasons.
------------------------------------------------------------------------
October 10, 1971      Marshfield, MO          Motorcoach carrying 37
                                               passengers hit the left
                                               side of a station wagon
                                               in oncoming traffic and
                                               rolled over, coming to
                                               rest on its side. 4
                                               passengers were killed,
                                               including one who had
                                               been ejected, and two
                                               others where the roof had
                                               collapsed. NTSB found
                                               that the crash was caused
                                               by the unlawful
                                               maneuvering of the
                                               station wagon on a
                                               limited- access highway
                                               by a driver under the
                                               influence of alcohol, and
                                               the delayed action by the
                                               bus driver.
------------------------------------------------------------------------
July 15, 1970         New Smithville, PA      Motorcoach started to
                                               slide on a wet highway
                                               and went into a 180-
                                               degree turn, through a
                                               guardrail and down an
                                               embankment where it
                                               overturned. 18 people
                                               were ejected and 6 of
                                               them pinned under the
                                               bus. 7 passengers were
                                               killed. NTSB found that
                                               hydroplaning of the front
                                               wheels of the bus that
                                               initiated a skid from
                                               which the driver could
                                               not recover was the cause
                                               of the crash.
------------------------------------------------------------------------
June 9, 1970          Dulles Airport Access   Sedan driven by a driver
                       Road, VA                who was under the
                                               influence of alcohol,
                                               driving on the wrong side
                                               of the highway, struck
                                               motorcoach. The bus went
                                               into a skid, and finally
                                               rested on the median. One
                                               passenger died 20 days
                                               after the crash due to
                                               crash-related injuries.
                                               The driver of the sedan
                                               was killed. NTSB found
                                               that the driver going the
                                               wrong way and driving
                                               under the influence of
                                               alcohol was the cause of
                                               the crash.
------------------------------------------------------------------------
Nov. 24, 1969         Petersburg, IN          Motorcoach carrying 27
                                               passengers struck a
                                               passenger vehicle that he
                                               thought was entering the
                                               highway at a different
                                               area. There was heavy
                                               fog. The bus skidded and
                                               rolled, coming to rest on
                                               an embankment. One infant
                                               passenger of the bus was
                                               killed, and only three
                                               passengers had injuries.
                                               NTSB found that the bus
                                               driver misjudged the
                                               location of the passenger
                                               vehicle in the fog, and
                                               excessive speed of the
                                               bus were causes of the
                                               crash.
------------------------------------------------------------------------
Dec. 26, 1968         Beaver Falls, PA        Motorcoach ran off the
                                               road to the right,
                                               overcorrected on the
                                               left, went off the road
                                               again on the right and
                                               another correction made
                                               the bus vault and roll
                                               over onto its roof. Then
                                               it slid down a drainage
                                               gully. 3 passengers died,
                                               and others sustained
                                               injuries. NTSB found that
                                               if occupant restraints
                                               had been used, it would
                                               have reduced the number
                                               and severity of injuries.
------------------------------------------------------------------------
March 7, 1968         Baker, CA               Motorcoach was hit head-on
                                               by a passenger vehicle
                                               driven by an intoxicated
                                               driver. The bus
                                               overturned and then
                                               caught on fire. 19
                                               passengers died. NTSB
                                               recommended that all
                                               passengers and drivers on
                                               buses use restraints.
------------------------------------------------------------------------


    Senator Lautenberg. They will be put in the record. Thank 
you.
    Ms. Gillan. Thank you.
    Senator Lautenberg. Mr. Forman?

                 STATEMENT OF STEPHEN FORMAN, 
         WEST BROOK BUS CRASH FAMILIES, BEAUMONT, TEXAS

    Mr. Forman. Good afternoon, Senator, and I appreciate the 
opportunity to be able to speak on behalf of parents and 
victims this morning. I am here on behalf of the West Brook Bus 
Crash Families. I am the father of Allison Forman who was 
severely injured in the crash.
    Today I want to share with you what I call the reality of 
unsafe motorcoaches. It is a reality that has been known but 
ignored for too long. It is a reality that has resulted in 
needless deaths and injuries, millions of dollars in losses. It 
is a reality that the lack of seat belts and basic occupant 
protection in these motorcoaches killed our daughters, maimed 
and injured our daughters.
    I want to share a little bit about our reality, the reality 
that both our children and our families faced, and then I would 
like to, hopefully within the time limit, just show you 
graphically--graphically--what they faced because we now have 
pictures of exactly what our children and every other passenger 
faces in a motorcoach accident.
    My hope is that you and the other Members of Congress will 
say enough is enough. We waited too long. I want to try to 
convince you to create a new reality and that is safe 
motorcoaches.
    Our reality began March 29, 2006. The motorcoach bus that 
was transporting 23 of our daughters and their two coaches to a 
playoff game in Houston, Texas overturned, killing two of our 
children, maiming and injuring the others. Alicia and Ashley 
were ejected from the motorcoach and crushed. There were no 
seat belts on the bus. There was no glazed windows keeping them 
or retaining them within the bus. When they came out of their 
seats and were thrown from their seats because of lack of seat 
belts, there was no glass. The bus had turned on its side.
    Devon and Allison were also ejected violently from their 
seats. Their left arms--and Devon and Allison are here--as 
their bodies were ejected out the bus when the bus turned over 
on its side, were dragged under the bus, dragged along the 
pavement until the bus ended up in a ditch. And there they were 
trapped under the bus for over an hour. My daughter was upside 
down in a headstand. Devon was in a fire ant bed. Still alive, 
they were pinned under the bus. It took rescuers over an hour 
to free them.
    Young Sarah's ear was torn from her head, her head 
violently gashed. Shoulders, ribs, knees cracked, glass shards 
the size of fists literally, because I saw them as they were 
surgically removed, were removed from their backs and their 
legs. Their beautiful young faces will be scarred forever.
    In the immediate aftermath, some girls attempted to revive 
their dead teammates. Others tried to free Allison and Devon 
and comfort them in their pain. Still others tried to lead the 
wounded to rescue. Blood and tears mixed with mud and 
raindrops. As a parent, I frankly shudder from the horror of 
that scene.
    We buried our precious Ashley and Alicia. Of the 21 
survivors, all received medical treatment of some kind. The 
more seriously injured spent a combined total of 86 days in the 
hospital, including intensive care. Four of the girls have 
endured a combined 18 surgeries to save and in some way rebuild 
their maimed bodies. Over 8 months of school instructional days 
were missed prior to the close of that school year. Literally 
millions of dollars in medical expenses have been expended, and 
those costs continue.
    Chairman, I would like to, if I can,--this idea that we 
need to study more is hollow to parents. We know what the risk 
is. NHTSA knows what the risk is. It is a killer combination. 
It is the high risk of rollover and frontal collision that 
throws you out of your seat and the lack of basic occupant 
protections to keep you in your seat. It is not rocket science. 
I was shocked when we got into this and saw the NHTSA 
statistics from 1996 to 2005. They have known these statistics. 
65 percent single vehicle accidents. 70 percent of all fatality 
crashes, rollover or roadside where the bus just runs off the 
road and hits something. 70 percent of the fatalities in 
rollover crashes by ejection. We have known this.
    I want to show you this video, and this is in a school bus. 
When we first saw this video, this is what happens when a bus 
rolls over without seat belts. Those are our children. Our 
children told us that as they were flying--when the bus rolled 
over on its side, the glass shattered and exploded, and the 
glass shards were coming up as they were falling down toward 
the pavement. And the glass collided with faces, with bodies. 
My daughter was on the bottom of that pile. Those two girls 
that were killed would have been on the bottom of that pile.
    Parents ask me what can I do to keep my child safe when 
they have to get on a motorcoach. I say ride in the aisle seat 
because at least you will have a body underneath you. I hate to 
say that.
    Let me show you one other. They talked about the NHTSA 
crash testing. Again, it is not rocket science. I love it when 
I go on NHTSA's website and I find a NHTSA flyer from 2001 that 
says a body that is in motion continues in motion until acted 
upon by another body that is stopped. If that is the dashboard, 
if that is your dashboard, then that is what is going to stop 
you.
    I want you to see what their own crash testing showed. The 
ones in the seat in front are in the three-point lap belt seat 
belt. The ones obviously not belted fly out. That is a frontal 
crash. Imagine taking that, combining it with the rollover. Why 
do you think there are so many deaths caused by ejection?
    This shocked me. This is the aftermath of their own 
testing. That is what it looks like inside of the bus on a 30 
mile an hour frontal crash. Now put the faces of our children 
on those crash dummies.
    Obviously, we know the result. The remedy is this bill. As 
parents, I find that this is a comprehensive bill.
    Yes, there is an oversight issue, and I would like to 
quickly address that. Our carrier was in full compliance with 
DOT motorcoach provisions and, in fact, signed an affidavit 
that they met all DOT provisions to our school when our school 
hired it. What they did not tell our school was that they did 
not meet the standards that are designed to carry children 
because they do not have to tell our school district that. They 
do not have to meet the requirements that Congress enacted in 
1974 to protect school children. And I think that is just a 
misrepresentation by the industry that has as a keynote speaker 
at their latest conference targeting school districts how to 
increase your market share.
    Of course, we do not have to wait for any more studies. 
NHTSA has been doing this study since 2002. A 70 percent 
reduction in fatalities estimated, and that is what they apply 
to all crashes. They have been doing it since 2002--crash 
fatalities with respect to rollovers. 45 to 51 percent in 
frontal crash. So why we have to have all this additional 
testing is beyond me. It has been scientifically proven.
    Of course, I love this from a NHTSA presentation just this 
summer. Dummies stay in their seat. Every parent knows that. 
That is why we buckle up our children every day of the year.
    Senator I just call for a new reality. I call for the 
Congress to have the political courage to make this a new 
reality. I call for the industry to stand behind their product 
and do something. I would dare say that if the industry would 
build these safety protections into their buses, parents would 
buy that operator's bus as opposed to the ones that were not.
    But we cannot wait on the industry. We have to protect our 
children now. The standards are there. We do not have to create 
new standards. We have FMV210. We have FMV220. The people from 
NHTSA know what I am talking about. They need to adjust those 
for motorcoaches, and Congress needs to require these occupant 
protections to save our children now.
    Thank you, Senator.
    [Applause.]
    [The prepared statement of Mr. Forman follows:]

                 Prepared Statement of Stephen Forman, 
             West Brook Bus Crash Families, Beaumont, Texas
    Our Reality: We are the families of the Beaumont West Brook High 
School girls' soccer team. On the afternoon of March 29, 2006, the 
motorcoach bus transporting 23 of our daughters and their two coaches 
to a playoff game in Houston overturned, killing two of our children 
and maiming and injuring the others.
    The motorcoach that carried our daughters did not have seatbelts of 
any kind. The oversized windows, making up approximately 50 percent of 
the side area of the bus, were not impact resistant, had no ``glazing'' 
and were merely glued to the outside of the bus as opposed to being 
installed in a framework. When, according to the preliminary DPS 
report, the bus driver took ``faulty evasive action,'' the bus rolled 
over on its left side and 25 passengers were thrown from their seats. 
The windows shattered into shards of glass. Bodies, equipment, books, 
purses, even seats flew through the air landing on each other in a 
tumult of glass and asphalt. As the bus slid toward the ditch, our 
children were pummeled as if they were in a washing machine spin cycle.
    Ashley and Alicia were ejected from the motorcoach and crushed, 
their bodies coming to rest under the debris. Devin and Allison were 
ejected, their left arms sucked under the frame of the bus and their 
bodies dragged beneath the bus as it skidded, mangling each of their 
left arms and causing serious head injuries. Still alive, both girls 
were pinned underneath the bus. Devin was trapped in a bed of fire 
ants. Allison was pinned upside down in a headstand. It took rescuers 
over an hour to free them. Sarah's ear was torn from her head, her head 
violently gashed. Shoulders, ribs and knees cracked, glass shards the 
size of fists lodged in backs and legs, the beautiful faces of youth 
shredded on the pavement.
    In the immediate aftermath, some girls attempted to revive their 
dead teammates. Others tried to free their trapped friends and comfort 
them in their pain. Still others tried to lead the wounded to rescue. 
Blood and tears mixed with mud and raindrops. As parents, we shudder at 
the horror of the scene.
    We buried our precious Ashley and Alicia. Of the 21 survivors, all 
received medical treatment of some kind. The more seriously injured 
spent a combined total of 86 days in the hospital including intensive 
care. Four of the girls have endured a combined 16 surgeries to save 
and in some way rebuild bodies maimed by the accident. Over 8 months of 
school instructional days were missed prior to the close of the school 
year. Literally millions of dollars in medical expenses have been 
expended and those costs continue.
    Devin's arm was amputated. For Allison, her left elbow was crushed 
and is useless. She has minimal use of her left hand. There were 
multiple head injuries, some requiring plastic surgery and stitches. 
For some, the ``road rash,'' pieces of glass and asphalt imbedded in 
flesh, was so severe that it had to be removed by surgery or by a 
special hydraulic procedure under anesthesia. There have been hours of 
physical therapy, thousands of stitches, bandages, crutches and 
wheelchairs. And there has been pain--lots of pain--both physical and 
emotional. The girls, their families and coaches have spent hours in 
counseling and therapy sessions. As one can expect, both the physical 
and emotional scars of the tragedy will last a lifetime.
    The Risk: After the crash, we learned that charter buses hired by 
schools (often under pressure from parents, coaches and teachers) do 
not meet ``crashworthiness'' standards required by Congress for school 
buses. Those standards, which became law in 1977, added structural 
frame, roof and seat requirements ``to protect our most precious cargo, 
the children of our future.'' The structural requirements forced school 
bus windows to be small and rigidly framed offering less chance of 
ejection. Seatbelts in school buses was debated, but because of money 
and technology issues, never implemented. It was never contemplated 
that charters would transport school children like they do today.
    Unfortunately, times have changed, but the law has not. Nor has the 
bus industry voluntarily. The NTSB has recommended, on several 
occasions since 1977, that crash protections be required of 
motorcoaches including body and roof structural support, safety windows 
and seatbelts. In 1999, the NTSB made the addition of safety belts and 
roof crush protections part of their ``Most Wanted'' safety improvement 
list. NTSB reiterated recommendations in there July 8, 2008 report on 
Atlanta Bluffton Baseball Team crash stating \1\ ``Contributing to the 
severity of the accident was the motorcoach's lack of an adequate 
occupant protection system.''
---------------------------------------------------------------------------
    \1\ See http://www.ntsb.gov/Publictn/2008/HAR0801.htm
---------------------------------------------------------------------------
    But still, almost 10 years after becoming ``Most Wanted'', powerful 
industry lobbies have successfully kept these protections from being 
added to motorcoaches. At the same time, the industry continues to 
``target'' school districts, churches and other youth organizations. 
(At the 2007 Motorcoach Expo one seminar was entitled ``Targeting 
School Districts, How to Increase Your Market Share.'')
    Sadly, structural protections, safer windows, even lap-shoulder 
seatbelts, are readily available for motorcoaches, but bus 
manufacturers and operators in the U.S. don't install them to save 
money. (Buses in European Union and Australia have had these 
protections for 10 years!) As an expert for the Texas Association of 
Pupil Transportation recently testified before the Texas House 
Transportation Committee, ``these buses [chartered motorcoaches] are 
designed for comfort, not safety.'' Charter buses look massive and have 
an appearance of safety, but don't be fooled.
    Motorcoach operators do not inform schools (or parents) that their 
buses lack crash protection. Yet, they sell their buses for long 
distance, highway speed travel--the maximum accident risk! And forget 
about recourse. Even though charters carry 55 to 60 persons at a time, 
operators are only required to carry insurance limits of $5 million, 
nowhere near adequate liability should a crash occur.
    The bus industry attempts to justify their conduct with a good 
(thankfully) accident-per-miles-driven safety record. What they won't 
share is the high injury/death-per-accident result. Charter bus 
accidents can and will continue to happen, especially given our ever 
more dangerous and complex highways. When they do, the result is 
catastrophic. Our accident is case-in-point.
    The Remedy: The Brown-Hutchison Bill (S. 2326) and Lewis House 
Companion (H.R. 6747) (Action, not delays through testing as found in 
H.R. 4690) provide the needed impetus to require NHTSA to mandate these 
need safety reforms. Congress has allowed this inaction to continue 
long enough. No more adults and children should die or be injured as a 
result of the motorcoaches failure to implement these basic safety 
standard. The Bill:

  <bullet> Applies to new buses purchased with exceptions

  <bullet> Regulations w/in 1 year

    <ctr-circle> Safety belts (retrofit in 2-5 years depending on 
            hardship)

    <ctr-circle> Advanced window glazing to prevent ejection

    <ctr-circle> Firefighting Equipment (retrofit in 2-5 years )

  <bullet> Regulations w/in 2 years

    <ctr-circle> Compartmentalization and Impact protection

    <ctr-circle> Stability control

    <ctr-circle> Roof Strength--Crush Resistance

    <ctr-circle> Enhanced Conspicuity

    <ctr-circle> Smoke and Fire Suppression (retrofit in 2-5 years)

    <ctr-circle> Improved Passenger Evacuation/Lighting

  <bullet> Regulations w/in 3 years

    <ctr-circle> Adaptive Cruise Control/Collision Warnings

    <ctr-circle> Automatic Fire Suppression

  <bullet> Test Reports

  <bullet> Improved Carrier Oversight

  <bullet> Stricter Driver Training/Licensing/Requirements

  <bullet> Better Bus Inspection Programs

  <bullet> Financial Incentive for Small Operator Compliance (H.R. 
        6747)

    The provisions of the Bill are strong and reasonable. The Bill says 
``Enough is enough''. It is obvious that neither industry not the DOT 
will take action without Congressional mandate. Congress must act 
before more are killed and injured. As advocates for safer student 
transportation, we also ask Congress to close the ``non-conforming'' 
loophole that allows motorcoaches to be used for school ``activities'' 
(as opposed to school commutes) until they meet the same safety 
requirements that Congress enacted for our school children in 1974.
    No more parents, students, passengers should face the risk that 
became our horrible reality. The risk is real, the result is real, and 
the remedy is available and reasonable. It is time for Congress to have 
the political courage to make a new reality--a reality of safe 
motorcoaches for all.

    Senator Lautenberg. Thank you very much, Mr. Forman. Your 
testimony reveals so much of the sadness, the anguish that any 
of us who are a parent or know young people and treasure their 
lives so much. When I listened to your recounting of what 
happened that fateful day, it is something that we have to 
respect and get on with.
    You heard my question before, you know, why do we have to 
wait until 2010 for things that we know can make a difference? 
And we will talk to Mr. Pantuso about this.
    Mr. Betts. Thank you again, Mr. Forman. Mr. Betts, please.

         STATEMENT OF JOHN BETTS, MOTORCOACH SAFETY NOW

    Mr. Betts. Yes, Mr. Chairman. Thank you for this 
opportunity. We, the families of those who have needlessly died 
or have suffered serious and permanent injuries, are here to 
thank the Senate Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security Subcommittee for holding 
this oversight hearing on motorcoach safety and the need to 
pass Senate bill 2326, a critical piece of motorcoach safety 
legislation.
    I am John Betts, father to David Betts, who died March 2, 
2007 in a motorcoach crash on North Side Drive in Atlanta, 
along with Zachary Arend, Scott Harmon, Cody Holp, Tyler 
Williams, and the bus driver and his wife. The motorcoach was 
traveling to Florida for the Bluffton University baseball 
spring trip. Many of the players and coaches were and still are 
seriously and permanently disabled.
    David was a 20-year-old sophomore honor student who loved 
to play and compete. Though David was academically, musically, 
and athletically gifted, his greatest attribute was his heart.
    David had not made the university baseball traveling team 
his freshman year, so he did not travel with the team to 
Florida in 2006. He was determined to not only make the 
traveling team his sophomore year, but to be the starting 
second baseman. The day before they left for Florida in the 
spring of 2007, he was told he would be the starting second 
baseman. David never told us he would be starting. He wanted to 
surprise his family.
    I tell you this story not only as a testimony to David's 
determination but to illustrate the excitement and anticipation 
he felt. I was also happily anticipating seeing David play with 
the passion he had for the game he loved. That eager 
anticipation turned into the darkest day of my life.
    While waiting in the Dayton airport, I looked up at a TV 
monitor and saw a motorcoach on its side. It had been 
identified as a bus with Little League players that had crashed 
in Atlanta. The sense of dread I felt was confirmed when I 
arrived in Charlotte and discovered it was the Bluffton 
baseball team. At least six were confirmed dead, and many were 
seriously injured.
    As I rerouted my flight and arrived in to Atlanta, I rushed 
to the hospital trying to find David. I was told that he might 
be one of the dead, and I would need to go to the morgue to 
identify his body. There I found my son with swollen, 
discolored eyes and multiple lacerations and bruises.
    I returned to the hospital and made a promise to the 
surviving boys that because David was so good, something good 
would come out of this tragedy. Later I amended to include all 
those who died.
    Bluffton is but one of many such motorcoach tragedies.
    We believe 2326 is the good we seek. We believe this 
legislation will drastically decrease the possibility of future 
death and serious injury due to lack of basic lifesaving 
occupant safety features on motorcoaches. The apathy toward 
these changes is a true tragedy. As the apathy continues and 
the motorcoach industry grows, so will and has the death and 
serious injury toll.
    The motorcoach industry is now transporting over 630 
million passengers per year which rivals the airline industry. 
There are over 3,700 motorcoach companies and over 34,000 
motorcoaches operating on our highways. Yet, the United States 
Department of Transportation does not require that motorcoaches 
have the same occupant safety protection features that are 
routinely designed and required in most other major modes of 
transportation.
    An average motorcoach is approximately 50 feet long, 12 
feet high, 8 feet wide, and 24 tons. It is made up of about 
one-third of non-safety glass and travels the vast majority of 
the time at 65 to 75 miles an hour carrying our most fragile 
cargo, such as young people and senior citizens. The size of a 
motorcoach gives you a sense of security, but motorcoaches are 
heavy, unstable, fast-moving projectiles.
    Though crashes may never be 100 percent preventable, we can 
drastically reduce death and serious injury by having the 
standard occupancy protection devices called for in 2326.
    Both Europe and Australia are decades ahead on this issue. 
A 10-year study was just completed that found Australia has not 
had one motorcoach death from anyone wearing a three-point 
restraint, which is a standard requirement in their 
motorcoaches.
    Our own National Transportation Safety Board has been 
making recommendations to no avail for at least the past 
decade, the occupant safety features included in 2326.
    I ask you how you would feel if 1 week after you buried 
your son, you read the NTSB's 1999 bus crash worthiness report, 
which called for the very occupant safety features that could 
have saved your son's life. And 2 weeks after that, you found 
out that the very motorcoach he was riding on was manufactured 
by a company in Europe that has made motorcoaches with those 
same safety features.
    And now I learn today from Mr. Kelly that this can be 
accomplished in a 2-year period. That means in 2001 those 
safety belts could have been on that motorcoach that my son was 
on, and he would be here today. And I appreciate his testimony 
to that fact.
    There is no need to perpetuate the pain of having a loved 
one killed or permanently disabled in such an easily 
preventable manner. This country needs to pass 2326 to direct 
the Department of Transportation to implement the NTSB 
recommendations that have been ignored far too long to the 
detriment of public safety.
    As the legislative process unfolds, you may see opposition 
to this common sense legislation. Let me briefly address what I 
believe may be the arguments against the bill.
    First, there are those who believe the U.S. Department of 
Transportation should drive the change in motorcoach safety 
improvements which could lead to redundant studies and waste 
more time at the expense of life.
    And second, there is no need to act because motorcoach 
transportation is one of the safest modes of transportation, 
which is no reason not to strive to make motorcoach travel even 
safer.
    On first appearance, these seem like reasonable arguments, 
but a closer review is needed. Due to time constraints, I will 
need to direct you to my written statement to address these 
issues in more detail.
    Please help us to enact 2326 for the motorcoach occupant 
safety features that are long overdue. It is literally a matter 
of life and death.
    Thank you for the opportunity to testify. I am happy to 
answer any questions and look forward to working with this 
Committee on advancing legislation.
    [The prepared statement of Mr. Betts follows:]

        Prepared Statement of John Betts, Motorcoach Safety Now
    We, the families of those who have needlessly died or have suffered 
serious and permanent injuries are here to thank the Senate Surface 
Transportation and Merchant Marine Infrastructure, Safety, and Security 
Subcommittee for holding this oversight hearing on Motorcoach safety 
and the need to pass Senate Bill 2326, a critical piece of motorcoach 
safety legislation.
    I am John Betts, father to David Betts who died March 2, 2007, in a 
motorcoach crash on Northside Drive, in Atlanta, Georgia along with 
Zachary Arend, Scott Harmon, Cody Holp, Tyler Williams, and the bus 
driver and his wife. The motorcoach was traveling to Florida for the 
Bluffton University Baseball spring trip. Many of the players and 
coaches were, and still are, seriously and permanently disabled.
    David was a 20-year-old sophomore honors student who loved to play 
and compete. Though David was academically, musically, and, 
athletically gifted his greatest attribute was his heart.
    David had not made the University's baseball traveling team his 
freshman year so he did not travel with the team to Florida in 2006. He 
was determined to not only make the traveling team his sophomore year 
but to be the starting second baseman.
    The day before they left for Florida in the spring of 2007 he was 
told he would be the starting second baseman. David never told us he 
would be starting; he wanted to surprise his family.
    I tell you this story not only as a testimony to David's 
determination but to illustrate the excitement and anticipation he 
felt. I was also happily anticipating seeing David play with the 
passion he had for the game he loved. That eager anticipation turned 
into the darkest day of my life.
    While waiting in the Dayton airport I looked up at a TV monitor and 
saw a motorcoach on its side; it had been identified as a bus with 
little league players that had crashed in Atlanta.
    The sense of dread I felt was confirmed when I arrived in Charlotte 
and discovered it was the Bluffton baseball team. At least six were 
confirmed dead and many were seriously injured.
    As I re-routed my flight and arrived in to Atlanta, I rushed to the 
hospital trying to find David. I was told he might be one of the dead 
and I would need to go to the morgue to identify his body. There I 
found my son with swollen, discolored eyes and multiple lacerations and 
bruises.
    I returned to the hospital and made a promise to the surviving boys 
that because David was so good something good would come out of this 
tragedy. Later I amended that to include all those who died.
    Bluffton is but one of many such motorcoach tragedies.
    We believe S. 2326 is the good we seek; we believe this legislation 
will drastically decrease the possibility of future death and serious 
injury due to lack of basic, lifesaving occupant safety features on 
motorcoaches. The apathy toward these changes is the true tragedy. As 
the apathy continues and the motorcoach industry grows so will, and 
has, the death and serious injury toll.
    The motorcoach industry is now transporting over 630 million 
passengers per year, which rivals the airline industry. There are over 
3,700 motorcoach companies and over 34,000 motorcoaches operating on 
our highways. Yet, the U.S. Department of Transportation does not 
require that motorcoaches have the same occupant protection safety 
features that are routinely designed and required in most other major 
modes of transportation.
    An average motorcoach is approximately 50 feet long, 12 feet high, 
8 feet wide, and 24 tons. It is made up of 1/3 non-safety glass, and 
travels the vast majority of the time at 65 to 75 mph carrying our most 
fragile cargo, such as young people and senior citizens. The size of a 
motorcoach gives you a sense of security, but motorcoaches are heavy, 
unstable, fast moving projectiles.
    Though crashes may never be 100 percent preventable we can 
drastically reduce death and serious injury by having the standard 
occupancy protection devices called for in S. 2326. Both Europe and 
Australia are decades ahead on this issue; a 10-year study was just 
completed that found Australia has not had one motorcoach death from 
anyone wearing a three-point restraint, which is a standard requirement 
in their motorcoaches.
    Our own National Transportation and Safety Board (NTSB) has been 
recommending, to no avail, for at least the past decade the occupant 
safety features included in S. 2326. These recommendations include 
crash avoidance technologies to prevent rollovers; ejection prevention 
safety features such as seatbelts, advanced window glazing and 
increased roof strength; fire protection advancements; more easily 
accessible passenger evacuation routes; and driver training and other 
operational updates that ensure motorcoach operator compliance.
    I ask you, how would you feel if 1 week after you buried your son 
you read the NTSB's 1999 bus crashworthiness report which called for 
the very occupant safety features that could have saved your son's 
life? Then, 2 weeks after that, you found out that the very motorcoach 
he was riding was manufactured by a company in Europe that has made 
motorcoaches with those same features for years?
    There is no need to perpetuate the pain of having a loved one 
killed or permanently disabled in such an easily preventable manner; 
this country needs to pass S. 2326 to direct the Department of 
Transportation to implement the NTSB recommendations that have been 
ignored far too long to the detriment of public safety.
    The Senate Commerce, Science, and Transportation Committee has a 
long and proud history of supporting bi-partisan safety solutions to 
protect the American public. As the legislative process unfolds you may 
see opposition to this commonsense legislation. Let me briefly address 
what I believe to be the major arguments against the bill.
    First, there are those who believe that the U.S. DOT should drive 
the change in motorcoach safety improvements and second, there is no 
need to act because motorcoach transportation is one of the safest 
modes of transportation.
    On first appearance these seem like reasonable arguments but a 
closer review is needed, especially from the perspective of a father 
who has lost a child.
    Motorcoach transportation may be one of the safest modes when you 
look at statistics of lives lost per miles traveled compared to other 
modes of transportation. However, as family members here today 
representing those who had a loved one die in such a crash, our first 
response is that such statistics are not comforting. As a father, am I 
to disregard David's death as his being one of the unlucky few? As NTSB 
recommendations languish here in the United States, Europe and 
Australia have already required basic occupant safety protection 
measures such as seat belts. Many of us flew here today in a plane that 
had a seat belt, all passenger vehicles are equipped with seat belts 
and we must ask why has the government and industry delayed in making 
seat belts available on motorcoaches? The U.S. ought to be leading the 
world in motorcoach safety, not following.
    My second response is that you need to differentiate the crash from 
the outcome; that is, driver error and highway design contributed to 
our son's death. However, the lack of basic occupant restraints led to 
his and many other ejections that resulted in death and serious 
injuries from being tossed around like they were in a washing machine.
    My third response is that motorcoach travel could be and should be 
even safer. Last year and this year thus far, there were no commercial 
airline crashes in the United States but that doesn't mean we don't 
continue to strive for the highest level of safety for the traveling 
public. This increase in occupant safety technologies is a win-win. 
That is, it would lead to fewer deaths and injuries and decrease the 
motor carriers' insurance premiums.
    It is not necessary to study the problem further; indeed, we cannot 
afford to study the problem any longer. It is time to move forward with 
legislation giving the U.S. Department of Transportation direction and 
a timetable for action.
    The NTSB has forty years of field reviews of motorcoach accidents 
and NHTSA has recently (12/07) performed simulated motorcoach crash and 
rollover tests indicating the need for three point restraints.
    Senate Bill 2326 also gives reasonable timeframes for addressing 
safety improvements.
    We must be cautious about the motives of those who request more 
study on that which we already have data. Otherwise, a never-ending 
data gathering game will occur that unnecessarily increases timeframes 
and places more lives in jeopardy.
    This past 18 months a nationwide Internet poll has found a 75 
percent positive response to S. 2326. I have obtained well over 3,000 
signed petitions from U.S. voters wanting this bill to pass.
    I would like to conclude by quoting one grieving mother whose son 
died in a motorcoach crash in Utah on January 6, 2008. I believe she 
speaks for all of us who have lost loved ones in motorcoach crashes. 
``Had there been seat belts on that bus my son would have had one on. 
In all probability he would still be alive. I am very passionate about 
this cause.''
    Please help us to enact S. 2326 for the motorcoach occupant safety 
features that are long overdue, it is literally a matter of life and 
death.
    Thank you for the opportunity to testify. I am happy to answer any 
questions and look forward to working with this Committee on advancing 
the legislation.

    Senator Lautenberg. Mr. Betts----
    [Applause.]
    Senator Lautenberg.--anything by way of a longer statement 
that you would like to make we will make some time.
    Mr. Betts. Oh, well, that was very nice of you. One of the 
biggest concerns I had was my verbosity and the time----
    Senator Lautenberg. It is not verbosity at all.
    Mr. Betts. Well, thank you. I was very happy that that 
timer was on outside of my sight. I took that as a presumption 
that I did not have to attend to that.
    Senator Lautenberg. Your testimony, like Mr. Forman's, was 
very moving.
    Some of the things that we do here mystify us because some 
things are as obvious as, to use the expression, the nose on 
your face, and yet there are these delays and 
procrastinations--they do not get done. I mean, seat belts? You 
would not think of permitting your child, your loved one, your 
friend to get in your car and not urge them to wear a seatbelt. 
If the buzzer does not go off, the bell does not go off in your 
car, you remind them out of just your conscience.
    We have all seen accidents where a seat belt was not worn 
and the consequence. A very distinguished attorney that was a 
good friend of mine in New Jersey went just a couple blocks 
from his office, failed to put on his seat belt, and wound up 
in an accident that crippled him for the remainder. He is still 
alive, but his life is quite different as a result of being 
crippled. And all of his motor function is impaired.
    So we thank you for your willingness to air your very 
personal views and recognize that what you are doing is 
contributing to somebody you do not even know, some family that 
you have never met. I know that Senator Hutchison feels as I 
do. We have to get on with these things. Thank you.
    Mr. Pantuso, you have heard this testimony and obviously 
are moved, as all of us are, as our friends at the table are, 
and the response of those in the audience who saw this up front 
and personal in their own lives.
    What are the top safety priorities that you believe that we 
have got to meet minimally--minimally? What can be done to 
hasten the actions necessary to save lives and reduce injuries 
and ultimately, but secondarily, reduce costs? And I am not 
talking about the personal costs. There is nothing that can 
redeem that expenditure. You cannot replace a loved one or make 
them well again when they have been so seriously injured.
    What would you say ought to be--and I know that you care 
about the passengers you carry. What would you say ought to be 
the first things done that are minimally, in terms of time and 
availability? What do you think we ought to do?
    Mr. Pantuso. Mr. Chairman, thank you. Yes, we are very 
moved not only by the testimony, but by any accident, certainly 
any fatality that happens.
    The motorcoach industry is an industry, as I said earlier, 
made up of small mom and pop companies. They are in virtually 
every community. The people they carry are their neighbors, 
their friends.
    What we have seen over the years has been a failure of 
Government to act. Plain and simple. I have been in this chair 
at the American Bus Association as their CEO for more than a 
decade, and for more than a decade, virtually every time there 
is a serious accident, ABA and other motorcoach associations 
have gone to NHTSA and said, please, please, do the testing 
necessary to answer the question, how do we protect the 
occupants on board. And that has not happened until just last 
year.
    We are very, very grateful that it is going on now. We are 
glad that NHTSA is in the testing mode. We are glad that they 
are looking at roof strength, at rollover, at occupant 
protection, that they have done the crash test, they are doing 
the sled tests and that they are analyzing the millions of data 
points. And that is all that we can ask, but we have asked for 
it for a decade and it has taken that long to happen.
    I think that the real critical issue that can be dealt with 
immediately are some of the steps that were outlined by 
Administrator Hill and again that we have asked for for more 
than a decade. I remember the Mother's Day crash in 1998 in New 
Orleans when more than 20 individuals, who were on their way to 
a casino, perished because of an illegal operation and an 
illegal driver. That to me is step number one.
    Senator Lautenberg. What can we do in the quickest fashion 
to offer more protection than we do? Collision avoidance is a 
great thing. It is technology. The buses have to be equipped 
and all kinds of things have to happen. But would seat belts 
not be something fairly easy to install and get on feeling 
better about ourselves and our obligations?
    Mr. Pantuso. Well, step number one, Mr. Chairman, is 
getting the bad operators off the road. That has got to be 
first and foremost. That can be done tomorrow by this 
administration and by the State enforcement officials.
    Certainly step number two is finding what the occupant 
protection system is that is going to work. Again, for more 
than a decade, we have said the most important part is to keep 
the people in the coach, keep them compartmentalized in the 
seat, make sure that the windows do not open up and allow the 
individuals to go out, make sure that there are proper windows, 
whether it is glazing or whether it is a new technology, so 
that the windows do not break and the passengers----
    Senator Lautenberg. I hear you, but these things require 
major change. Am I wrong to suggest that if we could get seat 
belts in vehicles that we could avoid some of the tragedy that 
involves, let us say, that inevitable action that could come 
along? Would that not be a good first move and put a plea out 
there to your members, to others on the basis of their costs of 
operation? I mean, insurance costs, I am sure, would go down 
and so forth.
    Mr. Pantuso. Mr. Chairman, I do not think that you are 
wrong. I mean, I have a seat belt in my car, as we all do. I 
buckle up. I am flying later today. There is a seat belt on the 
plane.
    The question is to what standard and how to put the seat 
belts in. Again, with small mom and pop businesses and no 
standard to adhere to and no way of knowing with the variety of 
coaches that exist out there, with every make and model as many 
as 20 or 30 years old and different seat designs, how to put 
that seat belt in and to do it in a way that is going to 
protect people and not further injure them.
    Senator Lautenberg. How many new motorcoaches are brought 
into service a year in America? Do you know?
    Mr. Pantuso. In round numbers, between 2,000 and 2,500. And 
again, that is out of a fleet of 35,000 to 40,000 coaches.
    Senator Lautenberg. How many seats in the average bus?
    Mr. Pantuso. Typically 50 or a little more, but typically 
50 on average.
    Senator Lautenberg. That is a lot of people. A lot of 
people. And if it was possible to initiate a program at least 
doing that much, I think it is a cost that could very well be 
saved on the financial side. We cannot guarantee that something 
still terrible would not happen, but it would be unlikely that 
deaths would not go down.
    Mr. Pantuso. Mr. Chairman, I have never heard cost as an 
issue in the motorcoach industry, never had an operator 
question that as an issue. Again, the only question we have had 
is how do we do it, and that is where we look to NHTSA.
    Senator Lautenberg. There is nobody in the industry that 
said, to your knowledge, that listen, we ought to get on with 
this, you know, why do we have to wait for more tests? As you 
said yourself, when you get in a car, you get in an airplane, 
you buckle up. It is second nature.
    [Applause.]
    Senator Lautenberg. Ms. Gillan, which of the safety issues 
that need improvement in the bus industry--also, I think this 
is a little diversionary. It is a question about the trucking 
industry. I am going to pass and we will submit it to you in 
writing.
    Ms. Gillan. OK.
    Senator Lautenberg. Because there is a lot that has to be 
done there, but it is not the same sensitivity, even though 
there are far more terrible accidents involving trucks. But I 
do not know how much of that can be avoided, but there are 
things that we can do and they may take a little bit longer 
time. But we ought to get on with it.
    Mr. Forman or Mr. Betts, I do not have to ask how you feel 
about the bus companies and the manufacturers. You have both 
expressed frustration at not having had the opportunity to make 
a difference in your lives by lack of attention to the safety 
issues. I think it is redundant to ask you how you feel about 
these companies that carry passengers without something.
    Do you think we ought to kind of rush into some device that 
might improve things? How do you feel about waiting for 
standards to be developed?
    Mr. Forman. Mr. Chairman, what I do not understand--what 
rang hollow to me--the standards exist. We have FMV210 which 
sets the performance standards for safety belts. If you are 
going to put them in, that is the standard you have to do. They 
have anchorage standards. They have standards for lap-shoulder 
seat belts. In 2002, NHTSA did sled testing for seat belts in 
school buses. The physics is not any different. So they have 
the standard.
    As I understand from my industry contacts, the only 
difference is are you going to adopt a 13G seat belt versus a 
7G seat belt which is a European standard, and most people in 
the American industry--the makers of these restraint systems--
want a 13G which is an FMV210 standard.
    So this idea that we have got 4 million points of data and 
we have got to go back and analyze them, that is just 
absolutely a delay tactic and hollow. So it rings hollow. And 
people use them.
    You know, our children in the school transportation, they 
did not have a choice. In other words, if they were going to 
participate on the baseball team or on the soccer team or on 
the band, they were going to ride that bus. I could not, as a 
parent, take them off that bus because it did not have seat 
belts.
    So those standards exist. We know that. They ought to be 
applied to motorcoaches now.
    Senator Lautenberg. Mr. Betts, do you want to----
    Mr. Betts. Yes. As it relates to the question of rushing 
in, I would agree with Mr. Pantuso. I do not think you rush in. 
In the same light, in the Shuster bill, I do not think it needs 
to take 18 years.
    And I believe based on the information at least that I am 
seeing from the bus crash test that was done in December 2007 
and based on the motorcoach that is sitting outside here that 
we saw, we tend to know already that that motorcoach, based on 
its ability to absorb force, is such that it will hold--the 
seat anchorage system will hold. So in my opinion--I agree with 
Mr. Forman--we do have not only the technology, we now have the 
data. And I believe we need to go forward.
    What I really would not like seeing--and I am sure you have 
picked up very quickly I am not politically oriented nor, quite 
frankly, driven. But if it is going to take 2 years of writing 
up and going back and forth in the House and Congress and this 
kind of stuff, that would irritate me considerably because all 
I do is see more people dying and more people being permanently 
injured that do not need to be when we already have the data. 
We have the science. If there is some piece of science that we 
do not need, I am open to listening to that.
    But I believe what Mr. Forman--I do not want to put words 
in his mouth, but I will tell you what is coming out of mine. I 
am 56 years of age. I have been in administration for 34 years, 
and I have seen a lot of smoke and I have seen some fire. And I 
believe what you do is you ferret out and differentiate that 
smoke from fire. So I am certainly willing to listen if there 
is some science that is needed. I just do not, at this point in 
time, have that.
    The second comment I would make to that is, you know, even 
on a retrofit of a bus that would not be able to maybe totally 
withstand, my son--I know Mr. Forman mentioned about getting in 
an aisle seat and my wife probably cringed. My son was in 4C, 
which is an aisle seat. He was propelled out of his seat at 55 
miles an hour. It is the physics of the--whatever. He was 
propelled out of his seat very fast and stopped very hard in 
the front of the bus.
    I will tell you what. You take me back in time. You put 
some mom and pop three-point seat restraint on that, and I am 
going to be more happy, at least seeing an opportunity not to 
be flying. He died of a basal skull fracture from ear to ear. I 
am thinking if he is in his seat, we are probably not going to 
have that. Could there be other things? Mr. Pantuso, other 
people could say that. He could have died of other kinds of 
things. Perhaps, perhaps. I would just as soon take my chance--
prefer to take my chance on a retrofit so that at least I have 
that opportunity not to go flying at an extremely high rate of 
speed and stop at an extremely quick deceleration rate, to the 
extent that he also had an aortic tear.
    I am not doing this for emotion. I am here to--if I was, I 
would cry like I did about 10 minutes ago. But I am doing this 
to show that what is happening is when he stopped quickly, his 
heart went forward and went this way and ripped the aorta. I 
have talked with a number of cardiac surgeons. They said that 
quite frankly, as soon as that occurred, had we been right 
there with full nurse and fully equipment, we could not have 
saved his life.
    So I am thinking, geez, you know, the seats in the Bluffton 
bus crash were all intact. I am thinking my son is in his seat. 
The probability of him being intact is higher than him not 
being in that seat. So I would just as soon have a retrofit on 
something that maybe was not perfect, and on the new buses look 
at getting more of the seat anchorage system, et cetera, 
because I think at least it will decrease that amount.
    And I really appreciate your comment, Mr. Chairman, as it 
relates to the other issue on the business side because I do 
not think the motorcoach industry is the evil empire. They are 
a business that is trying to operate. And in my opinion, the 
insurance rates are something that are fairly important as well 
that can go down with these safety features that are added. So 
it is not just a matter of decreasing death and serious injury. 
It is also a matter of assisting them with their current 
insurance premiums.
    Senator Lautenberg. Thank you very much.
    Senator Hutchison, my apologies for running over, but you 
heard what I heard.
    Senator Hutchison. Yes, and I appreciate it.
    Senator Lautenberg. As painful as it is to our friends, it 
is painful to hear as well. Please.
    Senator Hutchison. Let me just ask. I just want to ask Mr. 
Forman for the record, because I want this in the record. 
Because of his determination and efforts, we do have a law in 
Texas that does protect our school children, and I would like 
for you to tell us because it was your efforts really that I 
think spearheaded this movement, exactly what you did in Texas 
that does assure that our young people, using school activity 
buses, will have seat belts.
    Mr. Forman. Thank you, Senator, and it is not my effort. 
Our girls were a team and the parents are a team too. So it is 
a lot of hard work from a lot of parents that are involved in 
this.
    Yes, for the record, in 2007, Governor Perry signed Ashley 
and Alicia's Law in Texas, which requires all school buses to 
have lap-shoulder seat belts--all newly purchased school buses 
to have lap-shoulder seat belts beginning in 2010, September 
2010, and all charter motorcoaches that carry students to have 
lap-shoulder seat belts by 2011. The legislature saw that the 
technology was available. And with respect to both school buses 
and motorcoaches, that technology is available.
    There was a lead time given the industries to begin putting 
those in. What we found with school buses, that is going to be 
phased over a 10- to 12-year period with new buses because of 
the economics. However, for the motorcoach industry, that 
economics--that is a profit-driven industry. That is not public 
funds. There is absolutely no reason why our children and our 
schools are being subjected to this risk.
    I think we were two votes short in the House of being 
unanimous and we had a unanimous Senate vote in Texas. Once 
they saw the videos, once they saw the data that was already 
there, the standards that were already there, they said this is 
what we want for our State. We have a duty to protect our 
children, and NHTSA has finally said the most optimum 
protection is a lap-shoulder seat belt. As the State 
legislature, they said this is what we need to do for our 
children. This is what we need to give peace of mind to our 
parents.
    If I could add just briefly, Senator, the only place today 
that a child learns not to wear a seat belt is at school. Now, 
when you think about it, because parents today--we have all 
grown up with seat belts. We train our children from the minute 
they get in a car to have a restraint on. And the first time 
they ever get on any vehicle that does not have a restraint is 
when they go to school. NHTSA spends millions of taxpayer 
dollars trying to educate children to put on seat belts, and 
then the bell rings and they walk outside on a school bus or a 
motorcoach and it has no seat belt.
    We talked to a legislative aide in Texas. It was great 
because the young aides--and I speak to the staffers behind 
you--whose children are just entering school. The first grader 
came home and said, Mommy--you know, the first day of school 
came home and said, yes, I rode the bus home but it was really 
strange because where is the seat belt. Where is the seat belt?
    We know now that the lowest percentage--demographic wearing 
seat belts is teens. That is about 10 or 15 points below 
national average of seat belt usage. Now, where did those teens 
learn not to wear a seat belt? Riding school buses and 
motorcoaches. That is the only place they could have learned.
    Something has got to get done.
    Senator Lautenberg. It defies logic.
    Senator Hutchison. Did you have something to add?
    Ms. Gillan. Senator, can I just add something too? I would 
really like to dispel the notion that DOT is starting with a 
blank slate. A lot of the occupant protection technologies are 
already underway, are being studied at NHTSA. This Committee's 
leadership resulted in SAFETEA-LU. They are looking at advanced 
window glazing for passenger vehicles, and stronger roofs. They 
are doing research on crash avoidance technologies for large 
trucks. As many of us mentioned, Australia has had three-point 
seat belts for 14 years.
    So it is not as though nothing has been done and none of 
these technologies have been looked at. What we need and what 
S. 2326 does is it gives the agencies deadlines for moving 
forward with this. So I think to say, well, they just started 
last year gives a misimpression that nothing has been done 
when, in fact, there is a lot of work that has been done that 
has direct application to motorcoach safety.
    Thank you.
    Senator Hutchison. Thank you.
    Mr. Chairman, I just want to add one thing and that is that 
the people who have come here are all affected by Hurricane 
Ike. Beaumont was hit and so was, of course, the Houston area. 
And yet, these people who mostly do not have power in their 
homes to go back to felt so strongly about this that they kept 
their commitment.
    And I was asked by the Secretary of Homeland Security to go 
with him to Houston and Galveston today and Beaumont and Port 
Arthur and Orange, but I knew if I did not come here, that we 
would not have the same kind of impetus and momentum that we 
just had to have. So I really appreciate your doing this.
    I am going to go to Beaumont and Port Arthur on Monday and 
Orange to try to take care of that. And as you know, I have 
been working to try to get the tax relief, which we are going 
to get for the bill that was already in place. But we have 
added Ike to it.
    So I just want to say that a lot of people are so committed 
to this that we want to move it forward, and I hope that we can 
get a markup on this bill and at the earliest moment we will be 
able to pass it. And if there are legitimate debates or 
amendments, we want to be open for that, but we can move. There 
are some basics here that can be done.
    So I thank all of you and I thank you, Mr. Chairman.
    [Applause.]
    Senator Lautenberg. Thank you. I like millions of people 
have seen the devastation that hit Texas, and you shake your 
head in wonderment. How do people recover? We are not talking 
about this versus life or anything like that. But when your 
home is destroyed, the memorabilia, all of the history of a 
family is destroyed, it is very painful. We wish you and the 
people in Texas a sturdy recovery.
    Senator Hutchison. Thank you very much.
    Senator Lautenberg. Thank you.
    This Committee meeting is adjourned.
    [Whereupon, at 4:32 p.m., the hearing was adjourned.]
                            A P P E N D I X

        Prepared Statement of the United Motorcoach Association
Introduction
    The United Motorcoach Association (UMA), a thriving association of 
North American bus and motorcoach companies, appreciates the 
opportunity to provide testimony today at this important hearing. 
Founded in 1971, our 1,300 plus members range in size from small 
independent family businesses with a few units to large corporate 
operations with diverse fleets and services. Our members are the 
Nation's charter, tour, sightseeing and scheduled service operations 
and are vital to many communities offering recreation, travel and 
tourism opportunities. The industry provides over 600 million passenger 
trips annually.
Our Industry
    Of the nearly 3,600 bus companies in the United States representing 
nearly 40,000 buses, 90 percent of those companies are small 
businesses. The average company employs 46 individuals with each bus 
and motorcoach representing an industry average of 4.23 employees. 75 
percent of the industry consists of fleets of fewer than 100 units and 
nearly 50 percent of the industry consists of fleets 24 units or fewer.
Our Regulatory Environment
    The bus and motorcoach industry operates under the oversight of the 
U.S. Department of Transportation and authority granted by the Federal 
Motor Carrier Safety Administration (FMCSA). The FMCSA conducts 
periodic Compliance Reviews of safety management programs, random 
safety inspections and maintains information regarding passenger 
carriers' fiduciary responsibilities, such as insurance. A Compliance 
Review is an on-site examination of a motor carrier's records and 
operations to determine whether the carrier meets FMCSA safety fitness 
standards, i.e., are adequate safety management controls in place to 
ensure acceptable compliance with applicable safety requirements to 
reduce risk. Additionally, our buses and motorcoaches are routinely 
inspected at operators' facilities and at popular destinations such as 
amusement parks, casinos, special events, etc. UMA strongly supports 
stronger enforcement activity by FMCSA to get unsafe operators off the 
road and implement stricter new entrant requirements as the best and 
most expedient way to improve motorcoach safety. Every bus and 
motorcoach operating legally on our Nation's roads and highways must 
also conform to the Federal Motor Vehicle Safety Standards established 
by the National Highway Traffic Safety Administration (NHTSA).
Our Industry's Safety Record
    The bus and motorcoach industry has a remarkable safety record. In 
the past decade, our industry has experienced an average of fewer than 
23 fatalities annually, despite operating in an environment, our 
Nation's highways and roads, which experiences over 40,000 fatalities 
annually in vehicular accidents. This strong safety record results from 
a combination of significant Federal regulatory oversight and an 
industry that treats safety as our economic lifeblood. Each accident, 
loss of life and injury, no matter how statistically low, is always one 
too many and UMA partners with the National Transportation Safety Board 
(NTSB), FMCSA and others to study measures that will prevent similar 
accidents from reoccurring and convey those results to our members.
    UMA offers a number of services to operators and the public to 
maximize the safety aspect of our operations. UMA offers the public a 
detailed online ``Consumer Guide to Purchasing Motorcoach Services'' 
and a ``Student's Guide'' in an effort to aid the consumer in the 
selection of a safe and reliable bus and motorcoach operator. UMA 
offers routine safety related assistance and seminars at our annual 
conventions and hosts an annual Safety Management Seminar held at the 
National Transportation Safety Board Academy in Ashburn, VA. UMA 
launched the Bus and Motorcoach Academy last year, the first of its 
kind in the industry. This online Academy provides a curriculum of 
basic operational knowledge for owners, management and our industry's 
most valuable asset--our drivers. UMA also works closely with the Bus 
Industry Safety Council and the Commercial Vehicle Safety Alliance in 
continuing efforts to develop and propagate safe operating practices.
Current Safety Issues and Legislation
    UMA worked closely with the late Congressman Paul Gillmor (R-OH) 
and subsequently Congressman Bill Shuster (R-PA) and Congresswoman 
Eddie Bernice Johnson (D-TX) to develop H.R. 4690, comprehensive 
legislation rooted in research and testing, and is consistent with the 
recommendations of the NTSB regarding motorcoach occupant protection. 
UMA has also joined in a coalition with many other entities to support 
H.R. 3820 introduced by Congressman Mike Thompson (D-CA) and its 
companion measure, S. 3428, introduced by Senator Debbie Stabenow (D-
MI). ``The Commercial Motor Vehicle Advanced Technology Tax Act'' would 
provide an incentive approach to some proven new safety technologies. 
UMA commends both of these bills to the Committee's consideration as 
you move forward with the reauthorization process next year.
    Recently, NHTSA launched a new motorcoach crashworthiness study and 
associated testing. UMA supports this effort and eagerly awaits their 
conclusions as we strongly believe any new safety mandates on the 
industry should be based on comprehensive science, research and 
testing. It is important to note however, that most safety enhancements 
are ``engineered in'', not ``added on''. Much consideration must be 
afforded so as to avoid compromising one area of safety for another. 
Whatever standards NHTSA may develop from this study and testing, UMA 
believes strongly that it should develop those standards for their 
installation on both new and retrofitted buses.
Conclusion
    The bus and motorcoach industry stands proudly by our safety record 
but we never rest in the diligent pursuit of improving that record. Our 
very survival hinges on those pursuits. UMA stands ready to assist the 
Committee, Congress and our regulating agencies in the further 
development and implementation of safe operating practices, equipment 
and new technologies grounded in sound science and testing to further 
improve the safety for our customers. Thank you for the opportunity to 
provide testimony to the Committee.
                                 ______
                                 
   Enhanced Protective Glass Automotive Association (EPGAA)
                                                  February 18, 2008
Hon. Kay Bailey Hutchison
Washington, DC.

Dear Senator Hutchison:

    I am writing on behalf of the Enhanced Protective Glass Automotive 
Association (EPGAA) to express support for legislation you recently 
introduced, the Motorcoach Enhanced Safety Act of 2007 (S. 2326).
    The EPGAA is comprised of companies that manufacture laminated 
glass and the laminating interlayer. Its purpose is to provide 
information and education on the development of laminated glass for 
added vehicle safety, security, and occupant comfort. EPGAA members 
include DuPont Automotive; Guardian Industries Corp.; PPG Industries, 
Inc.; Sekisui S-Lec America, LLC; and Solutia Inc.
    The EPGAA recognizes that safety is a function of overall vehicle 
design. It is the EPGAA's view that the measures mandated in S. 2326 
will help protect the more than 630 million passengers currently using 
motorcoaches for travel. The National Highway Traffic Safety 
Administration (NHTSA) has determined that more than one-third of the 
deaths resulting from motorcoach crashes occur in rollovers. According 
to NHTSA, more than half the deaths in motorcoach crashes are the 
result of occupant ejection. S. 2326 would require manufacturers to use 
advanced glazing as a safety countermeasure.
    Despite several recommendations issued by the National 
Transportation Safety Board since 1973, safety features such as safety 
belts and occupant ejection prevention countermeasures (e.g., advanced 
glazing on windows other than windshields) have yet to be required by 
the United States Department of Transportation. Advanced glazing has 
been the standard for windshield applications for more than 70 years, 
and is increasingly being used voluntarily for other window openings. 
Advanced glazing can be particularly important in motorcoaches as part 
of a total safety system because the windows are large and could become 
large openings during rollover events.
    We at the EPGAA know that you are concerned for the safety of the 
millions of Americans that take advantage of motorcoach travel and 
applaud your sponsorship of the Motorcoach Enhanced Safety Act of 2007.
    Please feel free to contact me for any additional information that 
may be helpful.
            Sincerely,
                                          Peter T. Dishart,
                                                         President.
                                 ______
                                 
                                    Houston, TX, September 15, 2008
Senate Commerce, Science, and Transportation Committee,
Washington, DC.

Subject: Senate Commerce, Science and Transportation Committee Bill 
            S. 2326 and Oversight Hearing on Bus Safety

Dear Chairman Inouye and esteemed Committee Members:

    I am writing you on a very personal matter that requires your help. 
Please consider supporting Bill S. 2326, The Motorcoach Enhanced Safety 
Act. I am speaking to you today as a constituent and as a person who 
has been personally affected by the current regulations governing bus 
safety.
    Let me give you a little background on me. After graduating with a 
Ph.D. in psychology from University of Hawaii, I moved back to Texas on 
July 12, 2008, to be closer to my mother. A few weeks after I came 
home, my mom told me that she was going on a church pilgrimage trip to 
Carthage, Missouri. Every year, thousands of Vietnamese Catholics 
travel from all over the United States to Carthage for an annual 
celebration of the Virgin Mary. On the morning of Thursday, August 7, I 
gave my mom a hug and wished her a good trip before I left for work. I 
reminded her to call me when she got back on Sunday so I could pick her 
up and then my brother and I would take her to dinner for her 63rd 
birthday. But we did not have that opportunity because my mom's bus 
crashed outside of Sherman, Texas at 12:45 a.m. on Friday, August 8, 
2008. My mother, Catherine Tuong Lam, was one of the 17 victims who 
died in the Sherman bus accident. Catherine worked as a social worker 
for the Texas Department of Human Services in Houston, TX for almost 30 
years. In addition to serving her community, one of her greatest 
achievements in life was raising her children to be strong, successful 
adults on her own after my father passed away in 1985. She was vibrant 
and healthy and I have lost her. She will never see me or my brother 
get married. She will never meet her future grandchildren. Why? Because 
she had the misfortune of traveling on a bus that did not have the 
safety measures recommended by the National Transportation Safety Board 
(NTSB).
    Although my grief is very profound, some of my community members 
have suffered even greater losses. The day after my brother and I 
buried our mother, my brother went to a joint funeral for six of my 
mom's friends and I went to a joint funeral for five of my mom's 
friends. Our community is distraught over the loss of so many loved 
ones. My friend, Michael Tan Le, lost his father, mother, and mother-
in-law in the Sherman Bus Accident while two other family members 
suffered serious injuries. Mrs. Vivica Nguyen who would have celebrated 
her 30th birthday in a few days leaves two children under the age of 10 
behind, in the care of her husband Scott Tran, who has broken ribs and 
can hardly stand straight as a result of his injuries sustained in the 
Sherman bus accident. My mother's good friend, Mr. Khiem Nguyen leaves 
behind a wife of 44 years, several children, and many grandchildren.
    Parents have lost their children. Children have lost their parents. 
Brothers have lost their sisters. I was shocked and devastated to lose 
my mother so suddenly. Now that I have had some time to grieve, I 
wonder what you and I can do together to ensure that other families do 
not have to experience a tragedy like this. The National Transportation 
Safety Board (NTSB) is currently investigating the cause(s) of the 
Sherman Bus Accident. The investigation may take a couple of years to 
complete, but it is already evident that seatbelts and glazing on the 
bus windows would have minimized the large number of fatalities and 
serious injuries that happened in our accident. I can attest to this 
because not only did we lose our mother, we lost many of our friends. 
The current Federal Motor Carrier Safety Administration (FMCSA) 
regulations governing bus safety are inadequate. Federal regulations 
cannot stop bus accidents from occurring; however, regulations can 
mandate increased safety measures that would minimize the devastating 
number of serious injuries and fatalities that result from current bus 
standards.
    Just days ago, Hurricane Ike caused severe damage in the Houston/
Galveston area. My office at UTMB hospital on Galveston Island is 
ruined and my house in Houston has sustained severe damages. Even 
though I have lost my home and my workplace, those losses are nothing 
compared to the loss of my mother. And that is why I am here in front 
of all of you, because I believe in the importance of passing this bill 
now. How many more lives must be crippled or lost before the cost/
benefit analyses show that the benefits of saving lives far exceeds the 
costs of increased safety measures? NTSB has issued numerous 
recommendations for motorcoach safety belts since 1968 and for improved 
safety glazing since 1973. How many further research studies are needed 
to replicate the current findings that show how loss of life can be 
prevented simply with the installation of seatbelts and glazing on 
windows in motorcoaches? The time to act is now. More time is not 
needed to show that current bus safety standards are not enough. We 
cannot leave the fate of our fellow Americans to the motorcoach 
industries. We must take a strong stand. The time to act is now.
    NTSB safety recommendations for motorcoach operations have 
languished for years and Congressional hearings have identified 
numerous oversight and enforcement failings of the FMCSA. The NTSB 
recommendations address needed Federal Government actions to improve 
the safety of the vehicle and protect its occupants, to establish 
minimal training requirements for motorcoach operators, and to require 
better operational procedures. Again, I urge you that the time to act 
is now.
    On behalf of my mother, Catherine Tuong Lam, and the other Sherman 
Bus Accident victims, I implore you to consider supporting The 
Motorcoach Safety Bill (S. 2326) sponsored by Senators Kay Bailey 
Hutchison and Sherrod Brown. Legislation is absolutely needed to 
correct deadly motorcoach safety problems. Please help prevent other 
families from going through what my brother and I have been through in 
dealing with my beloved mother's loss now.
            Respectfully,
                                          Yen-Chi Le, Ph.D.
                                 ______
                                 
                                                 September 18, 2008

Senate Subcommittee on Surface Transportation and Marine 
            Infrastructure, Safety, 
            and Security
Commerce, Science, and Transportation Committee

Dear Senators,

    I am writing this letter in support of Senate Bill 2326, because I 
believe that is a critical piece of motorcoach safety legislation that 
is long overdue. It is a vital piece of legislation needed to prevent 
any further injuries or deaths like the ones that affected the families 
of Bluffton University.
    I am Lynn Mesley, the mother of James Hausman, survivor of the 
Bluffton University Bus Crash that occurred on March 2, 2007. The crash 
occurred on Northside Side, in Atlanta, Georgia and James lost five of 
his teammates that morning on the highway as a result of that crash.
    My son James is currently a senior at Bluffton, majoring in 
Mathematics and considering a career in law. He is doing well 
academically and athletically at school and is very strong-willed and 
independent. He has handled the after effects of the accident with the 
courage, strength and dignity lacking in much older men. The last 18 
months have forced James and all of the surviving players to deal with 
issues that they should not be faced with until much later in life.
    My son was seated in the fifth row of the motorcoach on the 
driver's side. The final report from the NTSB and the story relayed 
from our son the day of the accident shows that the fatalities from the 
crash all occurred from the same area that he was sitting in. Only by 
the Grace of God were we able to talk to and take our son home with us 
from Atlanta after the crash.
    Unfortunately, the Bluffton incident is only one of many such 
tragedies.
    I believe S. 2326 is the needed step to decrease the possibility of 
future deaths and injuries due to the lack of basic safety measures 
such as safety belts and safety glass.
    My husband and I are both firefighter/paramedics by trade and we 
see firsthand frequently the differences that safety belts make in 
automobiles. We have seen people survive automobile accidents that they 
should have been killed in and we have also seen the reverse. We have 
seen people killed in minor crashes as a result of the failure to wear 
a safety belt.
    The NTSB has been recommending for years, (at least the last ten--
minimum), to improve safety features in the motorcoach industry. These 
recommendations include: crash avoidance technologies to prevent 
rollovers, ejection prevention features such as--safety belts, advanced 
window glazing and increased roof strength to prevent/decrease roof 
crush, fire protection improvements, improved driver education and 
medical certifications and more accessible passenger evacuation routes.
    Unfortunately, this was not a topic that I was familiar with until 
March 2, 2007, at 5:40 a.m. when my son called me after crawling 
through the windshield of a crashed motorcoach in the middle of 1-75 in 
Atlanta, GA. I did make a promise to my son standing in the hospital 
that morning that we would do everything in our power to make sure that 
the appropriate safety changes would be enacted.
    S. 2326 will be the legislation that will finally enact the 
recommendations that the NTSB has been heralding since at least 1999.
    I urge you to pass S. 2326 so that no other families have to endure 
what the families of Bluffton University and many other families have 
had to endure. I am very dedicated to this cause and am determined to 
see it through its fruition.
            Thank you for your consideration,
                                               Lynn Mesley.
                                 ______
                                 
Honorable Senators,

    I am here today in support of Senate Bill 2326. Unfortunately I 
have a personal experience relating to this bill. My son was a member 
of the Bluffton baseball team that left the overpass in Atlanta last 
year. We were lucky that he survived the accident; however we lost five 
of his teammates during this tragedy. As you know, morbidity and 
mortality cost this country millions each year. Prevention is the venue 
to prevent unnecessary grief and loss from accidents like these. 
Commercial bus safety measures instituted in a timely manner as 
legislated in this bill will reduce the continued loss of life 
associated with bus accidents.
    I am a professional firefighter paramedic and a member of FEMA USAR 
with Ohio Task Force 1. I have been in this field since 1974 and I have 
been witness to the changes occurring in our transportation system. I 
have seen that seat belts saved many lives which would have otherwise 
been lost. I have witnessed the value of vehicle compartmentalization 
on newer cars. Air bags, roll over roof reinforcements, fuel cut of 
valves, and crumple zones to absorb the kinetic energy of impacts are 
just a few of the safety features found in the transportation industry. 
Even my fire truck has seat belts installed and mandated they be used 
while responding to an emergency. I have trained and practiced cutting 
apart school buses. They are built like tanks to protect our children 
from harm. I also have witnessed what happens in motor vehicle accident 
when the occupants do not wear seat belts and are ejected. The outcome 
is usually fatal. Because of my background, I am a strong supporter for 
increased safety requirements for the motorcoach industry. These 
requirements need to be in place as son as possible.
    Unfortunately it takes a tragedy and public outcry to legislate 
needed changes that should have been implemented years ago. The NTSB 
has recommended these changes and their voice has gone unheard. How 
many more of our sons, daughter, and relatives will be lost before we 
heed the warning and make the necessary safety requirements law. The 
motorcoach industry will continue to resist changes that affect their 
profit margins. We must act in the public's behalf and enforce change 
in the industry. We the families of motorcoach victims have united to 
see this bill enacted as is without change.
    Thank you for your attention to this important piece of 
legislation. I am sure it will save many lives once it becomes law.
            Sincerely,
                                           Barry A. Mesley,
                                                              Ohio.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Hon. John Hill
    Question 1. Why did your agency give operating authority to bus 
companies without first verifying that the buses they intend to use are 
safe to carry passengers? Do you need more resources or authority to 
conduct these on-site inspections of new entrants before they hit the 
road?
    Answer. The current legal requirement for a motor carrier to obtain 
operating authority is finding the applicant to be ``willing and able 
to perform the operations and to comply with all applicable statutory 
and regulatory provisions.'' To be considered fit, an applicant needs 
to show compliance with the applicable financial responsibility and 
safety fitness requirements. In the past, unless an application was 
opposed on the grounds of the applicant not being fit, the authority 
was granted. FMCSA depended solely upon protests filed by the public to 
identify unfit applicants. This was mostly because during the 
application stage, there is little information available to assess 
whether a carrier can comply with the regulations. In fact, a carrier 
may decide not to purchase or lease vehicles for an operation until 
after it is granted authority--wishing to delay investments until it 
has the ability to enter the business.
    However, the Agency found relying on protests to be insufficient in 
identifying passenger carrier applicants that may be unfit. In August 
2008, the Agency implemented a more rigorous administrative review 
process for new motorcoach operating authority applicants which 
compares available applicant information to existing carrier 
information to determine if the Agency has any information that 
indicates the new carrier may be connected with previous or existing 
carriers the Agency has identified as unsafe. An unsafe carrier is one 
for which FMCSA has data outlining poor performance during inspections, 
a less than satisfactory safety rating, or having been subject to civil 
penalties or out-of-service orders from the Agency.
    In addition, the application is vetted by FMCSA at the local level 
and with the appropriate State agency. If an affiliation with a 
motorcoach carrier with an unsafe record is detected through this 
vetting process, the applicant is required to provide additional 
documentation. The FMCSA will deny authority to any motorcoach carrier 
attempting to reestablish itself as a new carrier if it is determined 
that it has a previous unsafe record.
    The Agency's new entrant safety assurance regulations require all 
new motor carriers be subjected to safety monitoring for an 18 month 
period following the commencement of operations. As a part of this 
safety monitoring, all new motor carriers are subjected to an onsite 
safety audit within their first 18 months of operations. In order to 
determine if the carrier has established sound safety management 
processes, it is necessary for the carrier to generate safety 
performance data in the form of roadside inspections, crash reports, 
etc., so they need to be operating for a period of time before the 
safety audit is scheduled. However, due to the Agency's concern about 
passenger carriers, the FMCSA established an internal policy to 
complete the new entrant safety audits of passenger carriers within 9 
months, rather than the 18 months provided in the originating statute. 
In practice, the safety audit of a new motorcoach carrier is conducted 
within 4.5 months.
    The Agency is also in the process of finalizing revisions to the 
New Entrant process in a rule, New Entrant Safety Assurance Process, 
which would raise the level of compliance required to pass the safety 
audit. The FMCSA expects the final rule to be published the week of 
December 15, 2008.

    Question 2. The FMCSA began work on a Bus Crash Causation Study in 
2004 to analyze different bus crashes and evaluate the factors that 
caused them. This study was expected to be completed in 2007; now your 
agency is saying November 2008. Has this study been completed yet, and 
why is it taking so long to produce?
    Answer. The original plan for the Bus Crash Causation Study was to 
collect data on 50 to 100 serious bus crashes in the state of New 
Jersey in 2005. However, the number of bus crashes was fewer than 
expected, so FMCSA extended data collection through 2006. Even then, 
there were only 39 crashes in the 2-year period. The Agency expects to 
deliver a final report on the study by early 2009.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                          Jacqueline S. Gillan
    Question. Which of the safety issues that need improvement in the 
bus industry also need to be visited in the trucking industry?
    Answer. Almost all safety issues involving the crash protection of 
occupants in motorcoach safety that are proposed in the Motorcoach 
Enhanced Safety Act of 2008 (the Act) are also needed for large trucks. 
For example, insufficient attention has been paid to preventing truck 
driver ejection in rollover crashes. A high percentage of truck drivers 
who die in rollover crashes are the result of ejection through open 
door and shattered glazing, especially side windows. These ejection 
deaths can be dramatically reduced through the use of advanced, anti-
ejection glazing and fail-safe latch designs that prevent door openings 
in rollover crashes.
    Truck drivers are also prone to serious injury from impacts with 
dangerous interior surfaces in both straight (single-unit) trucks and 
in tractor cabs. Currently, the only safety design feature in large 
trucks to protect the truck driver are seat belts, which have a 
substantially lower use rate compared to passenger motor vehicles. 
Impact mitigation for truck drivers through the use of supplementary, 
passive systems such as upper and lower interior air bags has 
essentially been ignored by the National Highway Traffic Safety 
Administration, although the use of these safety systems in addition to 
active restraints (seat belts) would substantially reduce truck driver 
injuries with interior surfaces and components.
    The Act also provides for required installation of collision 
avoidance technologies to reduce motorcoach rollover crashes that 
result from driver loss of control. These include electronic stability 
control and roll stability control which strongly counteract a 
motorcoach's loss of tire adhesion and the driver losing steering and 
braking control over the vehicle. These crash avoidance countermeasures 
are just as crucially important for large trucks, especially 
combination trucks pulling trailers that are highly prone to rollover 
and loss of control crashes. Preventing both straight and tractor-
trailer large trucks from loss-of-control events will result in 
substantial reductions in rollover crashes, as well as departures from 
travel lanes into adjacent lanes, resulting in multiple deaths to 
occupants of other vehicles, or into dangerous roadside environments 
where the probability of a rollover crash is dramatically increased. 
Overall, reducing large truck loss-of-control crashes can substantially 
reduce the death toll resulting from large truck collisions with small 
passenger motor vehicles. Currently, the overwhelming majority of those 
motor vehicle occupants who die in large truck-passenger motor vehicles 
are the occupants of the small vehicles. For example, when a single 
truck has a fatal crash with a single small passenger motor vehicle, 98 
percent of those who die are in the car, van, or pickup truck.
    Large trucks also are inadequately regulated at the present time 
for the strict oversight needed to ensure that only the safest motor 
carriers and drivers operate them. Recent regulations issued by the 
Federal Motor Carrier Safety Administration (FMCSA) have rejected calls 
from both the safety and state enforcement communities for more 
stringent oversight of commercial driver physical qualifications and 
the prevention of medical certificate fraud. FMCSA has also issued a 
final rule rejecting the safety community's recommendations that new 
motor carrier entrants, including trucking companies, undergo both 
proficiency testing and pre-authorization safety audits before 
beginning operations in order to ensure that motor carrier management 
is familiar with and will comply with all Federal Motor Carrier Safety 
Regulations and the Hazardous Materials Regulations.
    In addition, commercial drivers of all types of commercial motor 
vehicles should be required to undergo rigorous driver training 
programs. Unfortunately, FMCSA issued a final rule a few months ago 
that requires only a weak, inadequate training for both motorcoach and 
truck drivers.
    Currently, truck drivers under the recent final hours of service 
regulation issued in November 2008 by FMCSA are allowed to drive 28 
percent more hours and work 40 percent more total hours than allowed 
under the pre-2003 hours of service regulation. All truck drivers can 
accrue 98 hours of work and 88 hours of driving over 8 consecutive 
calendar days, and some truck drivers can legally accrue more than 100 
hours of work over this period of time. This regulation exposes drivers 
to much more crash risk than under the old regulation while also 
promoting more fatigue that will result in reduced alertness and safe 
driving performance for truck drivers. The regulation has twice been 
overturned in Federal appellate court and remanded to FMCSA, yet the 
agency defiantly has re-issued the same regulation again despite court 
rulings rejecting the agency's basis for the rule. This rule is a 
serious blow to motor carrier safety and must be decisively and finally 
overturned.
    It is crucially important to have real-time monitoring and 
recordation both of commercial driver hours of service and truck and 
motorcoach location and routing. Truck drivers currently falsify their 
logbooks on a regular basis to conceal hours of service violations that 
amount to dangerous, illegal driving and working hours that cheat on 
crucial rest and recovery time needed to restore safe driving 
performance. Electronic on-board recorders (EOBRs) must be required on 
all motorcoaches and large trucks. EOBRs must be linked with engine and 
transmission functions and also incorporate Global Positioning Systems 
(GPS) that track driver and vehicle location in real time to ensure 
rapid responses to emergency events involving motorcoach passengers and 
truck crashes, especially truck incidents involving actual or potential 
release of placarded amounts of hazardous materials, and to prevent 
trucks using illegal routes to transport overweight loads and 
prohibited hazardous materials.
    Large trucks and motorcoaches also should be required to undergo 
annual state inspections that demonstrate for the record the condition 
of these vehicles and whether they conform to all safety requirements 
established by NHTSA and by FMCSA. Currently, motor carriers can self-
inspect their equipment, and the quality of those inspections to ensure 
safe operation of trucks and motorcoaches is unknown because FMCSA does 
not audit these self-inspections to determine their adequacy.
    Generally speaking, all occupant protection, collision avoidance, 
driver oversight, and enforcement requirements for motorcoaches, apart 
from those that are unique to these large passenger-carrying buses 
(such as passenger evacuation countermeasures), are equally necessary 
for large truck safety enhancement. However, both NHTSA and FMCSA have 
either delayed or rejected progressive safety regulations that would 
reduce both the frequency and severity of large truck crashes and, in 
turn, reduce the annual death toll from large truck crashes, which 
averages nearly 5,000 fatalities each year.

                                  <all>

</pre></body></html>
